NO. ___________
(CAPITAL CASE)
IN THE
____________
ANIBAL CANALES, JR. PETITIONER,
V.

LORIE DAVIS, RESPONDENT.
____________
ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE
FIFTH CIRCUIT
____________
APPENDIX
____________
DAVID P. VOISIN
P. O. BOX 13984
JACKSON MS 39236
(601) 949-9486
david@dvoisinlaw.com

JOSEPH J. PERKOVICH
Counsel of Record
PHILLIPS BLACK, INC.
P.O. BOX 4544
NEW YORK, NY10163-4544
(212) 400-1660
j.perkovich@phillipsblack.org
JOSEPH C. WELLING
100 N. TUCKER BLVD., STE 750
ST. LOUIS, MO 63101
(314) 629-2492
j.welling@phillipsblack.org
Counsel for Anibal Canales, Jr.

Appendix Table of Contents
Appendix A:
Fifth Circuit Opinion, July 21, 2020...................................................................... 1a
Appendix B:
Report & Recommendation, Magistrate, Aug. 9, 2017 ....................................... 21a
Appendix C:
District Court Order of Dismissal, Sept. 27, 2017 .............................................. 42a
Appendix D:
Order Denying Rehearing, Aug. 31, 2020 ........................................................... 65a
Appendix E:
Fifth Circuit Judgment, July 21, 2020 ................................................................ 67a
Appendix F:
Texas Code of Criminal Procedure, Art. 37.071 .................................................. 68a
Appendix G:
Petitioner’s Objections to Report & Recommendation, Sept. 22, 2017 .............. 72a
Appendix H:
Brief of Appellant, Nov. 21, 2018 ......................................................................... 93a
Appendix I:
Reply Brief of Appellant, Jan. 23, 2019 ............................................................. 153a

1a

409

CANALES v. DAVIS
Cite as 966 F.3d 409 (5th Cir. 2020)

evidence would have been sufficient to convict [the defendant] as charged in the indictment’’). Here, Jane Doe 2 testified that
she and Jane Doe 4 told Sanders that they
were eighteen. The government has pointed to no evidence that contradicts her testimony or that otherwise indicates that
Sanders knew that the two teenagers were
minors. Thus, because there is no evidence
to support the charge of the indictment
that Sanders knew that the victims were
minors, the district court, on remand, is
directed to dismiss with prejudice the production of child pornography count against
Sanders.
IV.
In this opinion we have held: Even if the
district court erred in allowing the government to join Davis and Lagrone in the
same indictment, that error was harmless.
We therefore AFFIRM the convictions of
Davis and Lagrone. We have further held
that the district court impermissibly permitted the government to constructively
amend the production of child pornography charge against Sanders. We therefore
REVERSE and VACATE Sanders’s conviction for the production of child pornography. As we have explained, there is no
evidence in the record to support the indictment’s charge that Sanders knew his
victims were minors. This case is thus
REMANDED for the district court to dismiss with prejudice the production of child
pornography count against Sanders and
for such further proceedings not inconsistent with this opinion.
AFFIRMED in part; REVERSED and
VACATED in part; and REMANDED.

,

Anibal CANALES, Jr., Petitioner Appellant
v.
Lorie DAVIS, Director, Texas Department of Criminal Justice, Correctional Institutions Division, Respondent Appellee
No. 18-70009
United States Court of Appeals,
Fifth Circuit.
FILED July 21, 2020
Background: After affirmance, 98 S.W.3d
690, of state prisoner’s murder conviction
and death sentence, and dismissal of successive application for state habeas relief,
2008 WL 383804, the United States District Court for the Eastern District of
Texas denied prisoner’s petition for federal
habeas relief. Prisoner appealed. The
Court of Appeals, 765 F.3d 551, affirmed in
part, reversed in part, and remanded. After an evidentiary hearing, the District
Court, Rodney Gilstrap, Chief Judge, determined that prisoner was not prejudiced
by counsel’s deficient performance in investigating mitigation evidence for penalty
phase. Prisoner appealed.
Holdings: The Court of Appeals, Haynes,
Circuit Judge, held that in reweighing of
aggravating evidence and available mitigating evidence for penalty phase, prisoner
was not prejudiced by counsel’s deficient
performance.
Affirmed.
Higginbotham, Circuit Judge, filed a dissenting opinion.
1. Criminal Law O1960, 1961
In assessing prejudice, as element of
ineffective assistance of counsel, with respect to counsel’s deficient performance in

2a

410

966 FEDERAL REPORTER, 3d SERIES

investigating and presenting mitigating evidence for the penalty phase of a capital
murder trial, the court reweighs the evidence in aggravation against the totality of
available mitigating evidence. U.S. Const.
Amend. 6.
2. Criminal Law O1960, 1961
To determine whether a state prisoner
was prejudiced, as element of ineffective
assistance of counsel, by counsel’s deficient
performance in investigating and presenting evidence for the penalty phase of a
capital murder trial in Texas, a federal
habeas court asks whether under Texas’s
capital sentencing statute the additional
mitigating evidence is so compelling that
there is a reasonable probability that at
least one juror could have determined that
because of the prisoner’s reduced moral
culpability, death was not an appropriate
sentence, and such a reasonable probability exists if the likelihood of a different
result is substantial, not just conceivable.
U.S. Const. Amend. 6; 28 U.S.C.A. § 2254.
3. Habeas Corpus O486(5), 773
The determination, by a federal habeas court, of whether it is substantially likely that a state prisoner was prejudiced, as
element of ineffective assistance of counsel, by counsel’s deficient performance in
investigating and presenting evidence for
the penalty phase of a capital murder trial
makes no distinction between cases that
are reviewed de novo and cases that receive deference under the Antiterrorism
and Effective Death Penalty Act (AEDPA). U.S. Const. Amend. 6; 28 U.S.C.A.
§ 2254.
4. Criminal Law O1960, 1961
Defendant was not prejudiced, as element of ineffective assistance of counsel,
by counsel’s deficient performance, at penalty phase of capital murder trial, in failing
to investigate and present additional evidence of defendant’s childhood trauma,

mental illness, and coercion in murdering
another prisoner, i.e., defendant allegedly
would have been murdered by a prison
gang if he had not carried out prison
gang’s order; as aggravating evidence, defendant asked that prison gang murder a
prisoner who cooperated with investigators
and wrote postconviction letters opining
that ‘‘what goes around, comes around’’ for
prisoners who cooperate with investigators, and threatening to murder a sexual
assault victim. U.S. Const. Amend. 6.

Appeal from the United States District
Court for the Eastern District of Texas
USDC No. 2:03-CV-69, James Rodney Gilstrap, U.S. District Judge
David Paul Voisin, Jackson, MS, Joseph
J. Perkovich, Esq., Phillips Black, Inc.,
New York, NY, for Petitioner - Appellant.
Matthew Hamilton Frederick, Deputy
Solicitor General, Office of the Solicitor
General for the State of Texas, Tina J.
Miranda, Assistant Attorney General, Office of the Attorney General, Financial Litigation & Charitable Trusts Division, Austin, TX, for Respondent - Appellee.
Before HIGGINBOTHAM,
SOUTHWICK, and HAYNES, Circuit
Judges.
HAYNES, Circuit Judge:
Petitioner Anibal Canales appeals the
district court’s denial of habeas relief on
his claim for ineffective assistance of trial
counsel. We AFFIRM.
I.
A.

Background

Factual Background

A prior panel of this Court has thoroughly reviewed the factual background of
this case, which we only briefly summarize
here. See Canales v. Stephens, 765 F.3d

3a

CANALES v. DAVIS
Cite as 966 F.3d 409 (5th Cir. 2020)

551, 559–61 (5th Cir. 2014). Canales was a
member of the Texas Mafia, a prison gang.
Id. at 559. He and other members of the
gang agreed to kill Larry Dickerson, and
they did so in July 1997. Id. at 559–60. In
1998, Canales sent another Texas Mafia
member, Bruce Innes, a letter confessing
to Dickerson’s murder. Id. at 560.
In November 1999, Canales was indicted
for capital murder. Id. In February 2000,
he sent another note to Innes. The district
court described the letter: ‘‘[A]lthough
written in code, [it] appeared to ask the
gang to retaliate against Larry (‘Ironhead’) Whited because he believed Whited
had informed prison authorities about his
role in the killing’’ of Dickerson. Id. Canales sent a third letter to another inmate
in April 2000. Id. at 561. He wrote that he
had ‘‘been bummed a bit’’ due to his case
and its outcome because of ‘‘snakes in the
yard.’’ Id. He wrote: ‘‘I’m a firm believer
that what goes around, comes around!’’ Id.
This letter was also introduced at trial. Id.
The 1998 letter was used in the guilt phase
and the 1999 and 2000 letters were used at
the punishment phase to establish that
Canales posed a threat of future dangerousness. Id. Canales was convicted of capital murder in state district court, and,
based on the jury’s answers to questions
required by Texas law, the court sentenced
him to death. Id.
B.

Procedural History

The Texas Court of Criminal Appeals
(‘‘TCCA’’) affirmed Canales’s conviction
and sentence on direct appeal. Canales v.
State, 98 S.W.3d 690 (Tex. Crim. App.
2003). The TCCA denied his first state
habeas petition on the merits. Ex parte
Canales, No. WR-54,789-01 (Tex. Crim.
App. Mar. 12, 2003) (per curiam) (unpublished).
On November 29, 2004, Canales filed the
present petition in federal district court,

411

raising thirteen separate grounds for relief. The court stayed the proceedings so
that Canales could present his unexhausted claims in state court. The TCCA dismissed his subsequent state application as
an abuse of writ without reaching the merits of his claims. Ex parte Canales, No.
WR-54,789-02, 2008 WL 383804 (Tex.
Crim. App. Feb. 13, 2008).
Canales then returned to federal district
court. Of relevance here, the district court
dismissed Canales’s claim that he received
ineffective assistance of trial counsel in
violation of Wiggins v. Smith, 539 U.S.
510, 123 S.Ct. 2527, 156 L.Ed.2d 471
(2003), as procedurally defaulted. Canales,
765 F.3d at 559. But it granted Canales a
certificate of appealability (‘‘COA’’) on that
claim, among others. Id. While Canales’s
case was on appeal, the Supreme Court
decided Trevino v. Thaler, 569 U.S. 413,
133 S.Ct. 1911, 185 L.Ed.2d 1044 (2013). In
Trevino, the Court held that, under Texas’s procedural system, a defendant may
defeat a procedural default to an ineffective assistance of counsel claim in federal
court if the defendant shows that his counsel was ineffective in the initial collateral
proceeding. 569 U.S. at 429, 133 S.Ct. 1911.
Based on Trevino, a panel of this court
held that Canales had established cause to
excuse the procedural default on his claim
of ineffective assistance of trial counsel at
sentencing. Canales, 765 F.3d at 571. The
panel concluded that Canales’s trial counsel’s performance fell below an objective
standard of reasonableness. Id. at 570. The
panel also concluded that there was some
potential merit to Canales’s claim that he
was prejudiced by the deficient performance. Id. at 570–71. Trial counsel had failed
to hire a mitigation specialist, interview
family members, or collect any records or
historical information on Canales’s life. Id.
at 570. The panel remanded to the district
court to determine the merits of Canales’s

4a

412

966 FEDERAL REPORTER, 3d SERIES

prejudice claim in the first instance. Id. at
571.
On remand, the State argued that the
district court had ‘‘all the evidence it
need[ed], without an evidentiary hearing,’’
and that the facts were undisputed. The
district court disagreed, concluding that
Canales was entitled to funding for expert
and investigative assistance. Canales’s
three experts interviewed over a dozen
people; conducted clinical and neuropsychological tests on Canales; and reviewed
medical, legal, and prison records. Each
submitted an expert report to the district
court.
The district court, after reweighing the
new mitigating evidence against the aggravating evidence, held ‘‘that there is no
reasonable probability that a juror would
have found that the mitigating evidence
outweighed the aggravating evidence.’’
Thus, it denied Canales relief on his Wiggins claim. We granted Canales a COA on
this claim. Canales v. Davis, 740 F. App’x
432, 433 (5th Cir. 2018) (per curiam).
II.

Discussion

On appeal, Canales argues that the district court erred in its no-prejudice holding. The State argues that 28 U.S.C.
§ 2254(e)(2) bars consideration of Canales’s
new mitigating evidence. Alternatively, the
State argues that that Canales’s claim fails
on the merits because he cannot demonstrate prejudice. If the new evidence were
not admitted, affirmance would be very
1.

It is highly questionable whether this case
meets the Antiterrorism and Effective Death
Penalty Act’s difficult standards set forth in
Cullen v. Pinholster, 563 U.S. 170, 186, 131
S.Ct. 1388, 179 L.Ed.2d 557 (2011). A twist is
whether the Trevino analysis alters the Pinholster analysis in cases where the state habeas
counsel failed to develop the record. Another
twist is present in this case that is not usually
present: the State failed to object to the new
evidence under 28 U.S.C. § 2254(e)(2), only
arguing it was unnecessary, not improper.

straightforward. But even assuming arguendo that we may consider Canales’s
new evidence, we hold that Canales fails on
the merits of his Wiggins claim.1
To prevail on his Wiggins claim, Canales
must show that his trial counsel’s performance was deficient and that the deficiency
prejudiced his defense. Wiggins, 539 U.S.
at 521, 123 S.Ct. 2527. A panel of this court
has already held that Canales satisfied the
first prong, Canales, 765 F.3d at 569–70,
and nothing has demonstrated a reason
that we would disturb the law of the case
as to this point. Accordingly, we address
the prejudice prong only.
[1, 2] ‘‘In assessing prejudice, we reweigh the evidence in aggravation against
the totality of available mitigating evidence.’’ Wiggins, 539 U.S. at 534, 123 S.Ct.
2527. To determine whether Canales has
made the requisite showing, we must ask
whether under Texas’s capital sentencing
statute, ‘‘the additional mitigating evidence
[is] so compelling that there [is] a reasonable probability that at least one juror
could have determined that because of the
defendant’s reduced moral culpability,
death [is] not an appropriate sentence.’’
Kunkle v. Dretke, 352 F.3d 980, 991 (5th
Cir. 2003) (internal quotation marks and
citation omitted). Such a reasonable probability exists if ‘‘the likelihood of a different
result [is] substantial, not just conceivable.’’ Harrington v. Richter, 562 U.S. 86,
112, 131 S.Ct. 770, 178 L.Ed.2d 624 (2011).
See, e.g., Holland v. Jackson, 542 U.S. 649,
653, 124 S.Ct. 2736, 159 L.Ed.2d 683 (2004)
(per curiam) (evaluating the State’s argument
that the Sixth Circuit’s reliance on evidence
not before the state trial court was improper
under § 2254(e)). The State argues that the
rule in this section is mandatory. We have not
previously ruled whether this statute is waivable or forfeitable. Because we determine that,
even with the additional evidence, Canales
does not prevail, we will not address this
point further here.

5a

CANALES v. DAVIS
Cite as 966 F.3d 409 (5th Cir. 2020)

[3] The dissenting opinion takes the
position that, when we review a federal
habeas petition de novo, prejudice is satisfied when the new mitigating evidence
‘‘might have’’ influenced one juror. See
Dissenting Op. at 421–22, 427. We disagree
with this prejudice standard. When the
Supreme Court established the substantial
likelihood standard for evaluating prejudice in Richter, it made no distinction between cases that were reviewed de novo
and those that received deference under
the Antiterrorism and Effective Death
Penalty Act. See Richter, 562 U.S. at 111–
12, 131 S.Ct. 770. Rather, the Court focused solely on the reasonable-probability
standard for prejudice, as first established
in Strickland v. Washington, 466 U.S. 668,
694, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984),
and clarified that standard. See Richter,
562 U.S. at 111–12, 131 S.Ct. 770 (establishing the substantial likelihood standard
upon observing that ‘‘Strickland asks
whether it is ‘reasonably likely’ the result
would have been different’’ (quoting
Strickland, 466 U.S. at 696, 104 S.Ct.
2052)). Moreover, the Supreme Court’s recent holding in Andrus v. Texas did not
change the law on assessing prejudice.
See ––– U.S. ––––, 140 S. Ct. 1875, 1886,
207 L.Ed.2d 335 (2020) (per curiam). The
Court rearticulated the prejudice inquiry—‘‘whether there is a reasonable probability that at least one juror would have
struck a different balance’’—and remanded
to the state court for consideration of the
prejudice prong consistent with the articulated legal principle. Id. (internal quotation
marks and citation omitted).
A.

413

The State also presented testimony of
Suzanne Hartbarger, Canales’s sexual assault victim, and Innes. Hartbarger testified that Canales approached her in a
parking lot near her college. Canales told
her he was a police officer investigating a
drug sale, in which she had been named as
a suspect. He informed her that she was
going to jail and that he would drive her
there. In the car, Hartbarger realized Canales was not a police officer. But when
she told him that she was going to jump
out of the car, Canales responded by telling her that he would ‘‘blow [her] away.’’
After driving for some time, Canales
stopped the car, walked her into the
woods, and raped her. Innes testified that
Canales wrote him a coded letter, thinking
Innes was still a member of the Texas
Mafia. In the letter, Canales asked Innes
to arrange for the murder of another inmate, Larry Whited, whom Canales suspected of cooperating with investigators.
Lastly, the State introduced two letters
that Canales sent to his fellow inmates
after he was indicted for capital murder.
Canales, 765 F.3d at 560–61. The first
letter was the one Canales sent to Innes,
asking the Texas Mafia to murder Whited.
Id. at 560. The second letter was one that
Canales sent to another inmate, sharing
his thoughts on his capital murder case.
Id. at 561. Canales wrote that his case was
not looking good because a few inmates
were ‘‘making matters worse with their
mouths.’’ Id. Canales expressed his belief
‘‘that what goes around, comes around’’
and that those who spoke will get ‘‘justice
in the end.’’ Id.

Aggravating Evidence

The State presented documentary evidence of Canales’s prior convictions, which
included: a five-year sentence for theft, a
fifteen-year sentence for sexual assault,
and a fifteen-year sentence for aggravated
sexual assault.

B. Mitigating Evidence
Canales’s mitigating evidence in state
court consisted of testimony stating that
Canales did not cause trouble, had an aptitude for art, and received few visits from

6a

414

966 FEDERAL REPORTER, 3d SERIES

family, and that he had tried to stop inmates from fighting. His new mitigating
evidence consists of three experts’ reports,
which provide additional evidence of childhood trauma and mental illness and attempted to set a context for Canales’s
participation in Dickerson’s murder, which
we describe briefly below.
Canales and his younger sister, Elizabeth, were raised by their alcoholic mother, Janie Garcia. The new evidence describes abuse from Canales’s stepfather,
joinder at a young age in a gang which
attacked him, and periods of homelessness.
While living with his biological father, Canales continued to receive physical beatings. His father abandoned him when he
was thirteen, and Canales was arrested for
car theft and sent to juvenile detention.
Due to early exposure to alcohol by his
family, Canales became an alcoholic by age
fourteen.
By eighteen, Canales went back to living
with his mother, his siblings, and his mother’s live-in boyfriend, John Ramirez, another sexual predator. Ramirez had Canales prosecuted for stealing a check from
him, and Canales went to prison for the
offense. Shortly after Canales received parole, he landed back in prison for two
sexual offense convictions; Canales raped a
young woman and sexually assaulted another. Back in prison, Canales joined the
Texas Syndicate, a prison gang. He joined
because ‘‘you have to get in to fit in.’’
After he was back on parole and working, Canales’s mother suffered a brain
aneurysm and lost all speech and motor
functions. Canales was twenty-seven. Canales’s situation deteriorated; he turned to
drugs and alcohol, stopped reporting to his
parole officer, and returned to prison when
his parole was revoked.
Back in prison, Canales suffered a heart
attack as well as mental illness, including
post-traumatic stress disorder (‘‘PTSD’’).

The Texas Syndicate learned of Canales’s
prior sex convictions and his former membership in the Latin Kings, and they ‘‘ordered a hit’’ on him. To protect himself,
Canales joined the Texas Mafia, another
prison gang that was chaired by his cellmate, Bruce Richards. As a new recruit,
Canales was on probation and had to do
whatever Richards said. Canales contends
that he participated in the murder of Dickerson upon orders of the gang and would
have been killed if he had not participated.
C.

Weighing of the Evidence

[4] Canales offered three types of new
mitigating evidence: (1) childhood trauma,
(2) mental illness, and (3) coercion (i.e.,
evidence that Canales would likely have
been killed by the Texas Mafia if he had
refused to kill Dickerson and to write exaggerated notes about his role in the murder). He alleges that this mitigating evidence would provide the jury with context
for his actions, such that there is a reasonable probability that a juror would have
determined that the death penalty was
inappropriate. We disagree. The new mitigating evidence does not have a substantial
likelihood of a different result because it
does not outweigh the aggravating evidence of Canales’s two letters: (1) requesting that the Texas Mafia murder Whited
for cooperating with investigators, and (2)
opining that the inmates who were ‘‘making matters worse with their mouths’’ by
speaking with investigators would likely
get ‘‘justice in the end’’ because ‘‘what
goes around, comes around.’’ See Canales,
765 F.3d at 560–61.
In that regard, Canales’s evidence is
unlike the evidence presented in Wiggins
or Williams v. Taylor, 529 U.S. 362, 120
S.Ct. 1495, 146 L.Ed.2d 389 (2000), cases
in which the Supreme Court found preju-

7a

CANALES v. DAVIS
Cite as 966 F.3d 409 (5th Cir. 2020)

415

dice.2 In Wiggins, the petitioner suffered
similar childhood trauma. 539 U.S. at 535,
123 S.Ct. 2527 (noting that ‘‘Wiggins experienced severe privation and abuse TTT
while in custody of his alcoholic, absentee
mother,’’ ‘‘suffered physical torment, sexual molestation, and repeated rape [while]
in foster care,’’ and spent time homeless).
But Wiggins also had ‘‘diminished mental
capacities,’’ id. at 535, 123 S.Ct. 2527, and
lacked ‘‘a record of violent conduct that
could have been introduced by the State to
offset this powerful mitigating narrative,’’
id. at 537, 123 S.Ct. 2527. Like Wiggins,

the petitioner in Williams also had a
‘‘nightmarish childhood’’ and was ‘‘borderline mentally retarded.’’3 529 U.S. at 395–
96, 120 S.Ct. 1495 (quotation omitted) (noting that Williams’s ‘‘parents had been imprisoned for the criminal neglect of
Williams and his siblings’’ and that he ‘‘had
been severely and repeatedly beaten by
his father’’). The Supreme Court in
Williams held that this childhood trauma
and intellectual disability coupled with
Williams’s remorse created a reasonable
probability that he was prejudiced.4 Id. at
398, 120 S.Ct. 1495 (observing that

2. We also conclude that Canales’s mitigating
evidence is unlike the evidence presented in
Rompilla v. Beard, 545 U.S. 374, 125 S.Ct.
2456, 162 L.Ed.2d 360 (2005), and Porter v.
McCollum, 558 U.S. 30, 130 S.Ct. 447, 175
L.Ed.2d 398 (2009) (per curiam), two additional cases the dissenting opinion relies upon
for its argument on this issue. See Dissenting
Op. at 421–23, 426–27.
In Rompilla, the Court held that new mitigating evidence of an abusive childhood satisfied the prejudice prong of Strickland because
it directly contradicted the evidence given at
sentencing, which included evidence indicating that Rompilla came from a loving family.
545 U.S. at 378, 391–93, 125 S.Ct. 2456 (concluding that ‘‘[t]he accumulated entries would
have destroyed the benign conception of
Rompilla’s upbringing and mental capacity
defense counsel had formed’’ and created ‘‘a
mitigation case that [bore] no relation to the
few naked pleas for mercy actually put before
the jury’’). Here, there was no ‘‘benign conception’’ that Canales had a good childhood
or normal mental capacity. See id. at 391, 125
S.Ct. 2456.
In Porter, the defendant argued that new
mitigating evidence of his childhood abuse
and military service, which caused him mental trauma, satisfied Strickland’s prejudice requirement. 558 U.S. at 33, 130 S.Ct. 447. The
Supreme Court agreed, holding that the childhood abuse could explain Porter’s behavior in
his relationship with his ex-girlfriend, whom
he murdered, the United States ‘‘has a long
tradition of according leniency to veterans in
recognition of their service,’’ and the resulting
trauma from his military experience could
explain why he murdered his ex-girlfriend.
558 U.S. at 43–44, 44 n.9, 130 S.Ct. 447.

Here, Canales’s mitigating evidence of childhood abuse and mental illness does little to
explain why he participated in the murder.
The coercion evidence, discussed infra at
pages 422–23, fails to counter his post-murder
actions of sending letters seeking the murder
of those who testified against him and threatening to murder his sexual assault victim. Cf.
Porter, 558 U.S. at 32–33, 130 S.Ct. 447 (setting forth no evidence that Porter committed
or threatened to commit violent felonies before or after the incident during which he
murdered his ex-girlfriend and her boyfriend).
3.

In 2014, the Supreme Court noted that its
previous opinions used the term ‘‘mental retardation’’ but that the Court now ‘‘uses the
term ‘intellectual disability’ to describe the
identical phenomenon.’’ Hall v. Florida, 572
U.S. 701, 704, 134 S.Ct. 1986, 188 L.Ed.2d
1007 (2014).

4.

The dissenting opinion contends that the
Williams Court held that even a subset of the
[mitigating] evidence satisfied the prejudice
prong. Dissenting Op. at 423–24 & n.64. Its
contention comes from one line in Williams,
which states: ‘‘[T]he graphic description of
Williams’ childhood, filled with abuse and
privation, or the reality that he was ‘borderline mentally retarded,’ might well have influenced the jury’s appraisal of his moral culpability.’’ Id. (quoting Williams, 529 U.S. at
398, 120 S.Ct. 1495 (emphasis added)). But,
in the quoted portion of Williams, the Court
faulted the state court for not considering the
mitigating evidence that was advanced at trial: Williams’s confession, remorse, and cooperation. Williams, 529 U.S. at 398, 120 S.Ct.

8a

416

966 FEDERAL REPORTER, 3d SERIES

Williams ‘‘turned himself in, alerting police
to a crime they otherwise would never
have discovered, expressing remorse for
his actions, and cooperating with the police
after that’’).
Here, there is no such remorse or lack
of violent record.5 The coercion evidence,
whatever one thinks, is powerfully countered by Canales’s two letters seeking violence toward, including the murder of,
those who testified against him.6 See Wong
v. Belmontes, 558 U.S. 15, 24–25, 130 S.Ct.
383, 175 L.Ed.2d 328 (2009) (per curiam)
(holding that the defendant’s ‘‘cold, calculated’’ murder and ‘‘subsequent bragging
about it would have served as a powerful
counterpoint’’ to his new mitigating evi-

dence of emotional instability, impulsivity,
and neurophysiological impairment).7 Canales also had previously threatened to
murder his sexual assault victim. His mitigating evidence does not show that ‘‘his
violent behavior was a compulsive reaction
rather than the product of cold-blooded
premeditation.’’ See Williams, 529 U.S. at
398, 120 S.Ct. 1495.
In sum, we agree with the district court
that there is no reasonable probability that
a juror would have found that the mitigating evidence, both old and new, outweighed the aggravating evidence. The
mitigating evidence is not ‘‘so compelling,’’
Kunkle, 352 F.3d at 991 (quotation omitted), that it would tip the balance and
claims that ‘‘a reasonable juror could conclude that the Texas Mafia ordered Canales to
write [the two letters]’’ because Canales was
forced to write a letter by the Texas Mafia on
a prior occasion. Dissenting Op. at 426. However, this claim is unwarranted. Canales attempted to discount these letters in his COA
request before this court. See Canales, 765
F.3d at 571–72 (arguing that the State used
one of these letters to unlawfully solicit incriminating evidence). He stated that Innes
had asked him to write a confessional letter,
id. at 573, but made no mention of the other
letters. Had Canales been coerced to write
these two letters, he should have mentioned
it. We should not grant habeas relief on speculation.

1495. It acknowledged that while the original
mitigating evidence may have been insufficient to overcome the death penalty, that evidence may have ‘‘influenced the jury’s appraisal of his moral culpability’’ had the jury
been given evidence of Williams’s childhood
or mental illness. Id. The Court then held that
Williams’s ‘‘entire postconviction record,
viewed as a whole and cumulative of mitigating evidence presented originally, raised ‘a
reasonable probability that the result of the
sentencing proceeding would have been different’ if competent counsel had presented
and explained the significance of all the available evidence.’’ Id. at 399, 120 S.Ct. 1495
(emphasis added).
5.

6.

The dissenting opinion claims that we are
discounting Canales’s mitigating evidence of
his abusive childhood and mental illness and
are faulting it for ‘‘not neatly aligning with
the evidence in [Williams and Wiggins].’’ Dissenting Op. at 423. We are not. Rather, we
conclude that Canales’s mitigating evidence
of an abusive childhood and mental illness
does little to strike the balance in Canales’s
favor because his aggravating evidence—prior
convictions and threats of death—vastly outweighs it.
While the new mitigating evidence states
that the Texas Mafia had Canales write notes
to ‘‘exaggerate [his] role in Dickerson’s murder,’’ it does not state that Canales was forced
to write these letters. The dissenting opinion

7.

The dissenting opinion argues that Belmontes is inapposite because the aggravating
evidence of his cold murder and subsequent
bragging was not before the jury but would
have been had his new mitigating evidence
been admitted. Dissenting Op. at 426 (stating
that ‘‘[t]he Court concluded that the new aggravating and mitigating evidence would cancel each other out’’). However, the prejudice
inquiry asks whether there is a reasonable
probability that a juror with all mitigating
and aggravating evidence before him or her
would find that death was not an appropriate
penalty. See Wiggins, 539 U.S. at 534, 123
S.Ct. 2527. It is thus of no moment whether
aggravating evidence is new or was before the
sentencing jury.

9a

CANALES v. DAVIS
Cite as 966 F.3d 409 (5th Cir. 2020)

establish a ‘‘substantial’’ likelihood of a
different result, Harrington, 562 U.S. at
112, 131 S.Ct. 770. Canales committed a
cold and calculated gang-related murder,
and he has a history of threatening and
seeking murder. Accordingly, the district
court correctly held that Canales has not
proven prejudice and, therefore, is not entitled to federal habeas relief.
We AFFIRM.
PATRICK E. HIGGINBOTHAM,
Circuit Judge, dissenting:
The State put it best: ‘‘It’s an incredibly
sad tribute that when a man’s life is on the
line, about the only good thing we can say
about him is he’s a good artist.’’ That
sharp sarcasm of the prosecutor’s jury argument had bite only because defense
counsel left Andy Canales’s story untold.
The jury heard only of Canales’s crimes
and artistic abilities, not of a tragic childhood rife with violence, sexual abuse, poverty, neglect, and homelessness, nor of a
man beset by PTSD, a failing heart, and
the dangers of prison life.
All this evidence ‘‘might not have made
[Canales] any more likable to the jury, but
it might well have helped the jury understand’’ how he got there.1 In my view, had
the jury heard this evidence, there is a
reasonable probability that at least one
juror would have concluded that taking a
second life was not warranted, leaving Canales to live out his life in prison such as it
is. I respectfully dissent.
I
Canales and his younger sister were
raised by their alcoholic mother, Janie
Garcia, and abandoned by their father.
When they did see their father, he was
drunk or high on cocaine and was often
violent. Chronically unemployed, he paid
1. Sears v. Upton, 561 U.S. 945, 951, 130 S.Ct.

417

no child support, leaving Garcia and her
children impoverished, frequently hungry,
and occasionally homeless. Often Garcia
and her children could not make the rent,
forcing them to move constantly. By eighteen, Canales had attended 26 schools.
Over the course of his childhood, Canales both suffered and witnessed horrific
violence and sexual assault. At six, he saw
a man gunned down in the street. About
that time, the violence came home when
his mother married Carlos Espinoza. For
the next six years, Espinoza physically and
sexually abused Canales and his mother
and younger sister. Espinoza regularly
beat Canales, stripping him naked, dragging him by the ears, and then whipping
him with a belt. Canales’s sister recalled:
‘‘I remember seeing Andy [Canales] lying
naked, curled up in a ball, and Carlos
hitting him as hard as he could with the
buckle end of the belt. Carlos would beat
Andy until he had welts and bruises all
over his body.’’ During some of those
naked beatings, Espinoza tried to rape
Canales, who was still a child. His mother
never intervened to protect him. Canales
also witnessed Espinoza abusing and raping his pre-pubescent sister. When Canales tried to protect her, Espinoza beat
him.
At eight, Canales started shining shoes
and selling newspapers on the streets of
Chicago to earn money for his family.
There, he was forced to join the Latin
Kings, a powerful gang in his neighborhood. At nine or ten, Canales was shot at
during a drive-by shooting. At twelve, he
was stabbed.
After his mother left his stepfather and
moved to Texas, Canales was passed between his mother and father and experienced periods of homelessness. At thirteen
or fourteen, Canales was sent to live with
3259, 177 L.Ed.2d 1025 (2010).

10a

418

966 FEDERAL REPORTER, 3d SERIES

his father in Houston only to be abandoned
there when his father moved to Laredo.
Arrested at thirteen, Canales spent time in
juvenile detention and was an alcoholic by
fourteen. He later became addicted to heroin.
When Canales was sixteen, his mother
moved in with another alcoholic and abusive boyfriend, John Ramirez. Ramirez
sexually abused the women in the family
and reported Canales for stealing a check
from him. Canales’s sister, Elizabeth, said,
‘‘I think John Ramirez wanted Andy [Canales] out of the way and that is why he
pursued Andy’s prosecution for the stolen
check. He wanted access to my mom and
Gabriela [Canales’s half-sister] and me.
Andy was protective of all of us.’’ Canales
went to prison for the stolen check and
then later for two sexual assault convictions.
Paroled for these offenses, Canales
started to build a life with help from a
girlfriend. But when his mother suffered a
brain aneurysm that left her without
speech or motor function, Canales, ‘‘went
off the deep end,’’ gave into drugs, lost
parole, and returned to prison.
At the time of the instant offense, Canales suffered from persistent depressive
disorder, other mental illnesses, and complex PTSD for which he has never been
treated. He also developed a life-threatening heart condition in prison, suffering
three or four heart attacks. Placed on
blood thinners that prevent normal clotting, Canales bruised easily and, if pricked,
2.

28 U.S.C. § 2254(e)(2).

3.

Canales v. Stephens, 765 F.3d 551, 571 n.2
(5th Cir. 2014).

4.

In the district court, when Canales argued
that § 2254(e)(2) did not bar the district court
from holding an evidentiary hearing, the State
failed to rebut the argument or even argue
that the court could not admit new evidence.

would bleed for hours. Because of his
heart condition and the blood thinners,
Canales presented as unable to defend
himself, leaving him vulnerable to violence
and exploitation. When the Texas Syndicate ordered a hit on Canales, he was
desperate for protection. His cellmate,
Bruce Richards, saved him by securing his
admission to the Texas Mafia, another
prison gang. He was now under the Texas
Mafia’s control, dependent on the gang to
protect him from certain death at the
hands of the Texas Syndicate. When the
Mafia ordered the murder of Gary Dickerson, a prisoner blackmailing the gang, Canales complied. Then, when Richards ordered Canales and another inmate to write
to Bruce Innes and exaggerate their role
in Dickerson’s murder, Canales again complied. Richards later explained: ‘‘If [Canales] refused to do what I told him[,] I
would have sent him back to the Texas
Syndicate, and he would be killed. I saved
his life and he owed me.’’
II
The State urges that we cannot consider
Canales’s mitigation evidence at all pursuant to § 2254(e)(2), which bars petitioners
who ‘‘fail[ ] to develop’’ the record in state
court from introducing new evidence in
federal court.2 The State had asserted its
§ 2254(e)(2) objection before another panel
of this Court, which declined to address it.3
But on remand to the district court, the
State did not raise the issue despite ample
time and several opportunities.4 To the
After the district court mistakenly denied Canales’s request, he moved for reconsideration,
presenting the State with another missed opportunity to raise (e)(2). The district court
granted Canales’s motion, and for the next
twelve months, his witnesses conducted investigations and the district court considered the
parties’ various motions. After the close of
discovery, the State argued in a 22-page brief
that Canales’s new mitigation evidence did

11a

CANALES v. DAVIS
Cite as 966 F.3d 409 (5th Cir. 2020)

contrary, it participated fully in shaping
the evidentiary record. Only now, after the
district court has expended funding and
manpower on this case, does the State
seek to revive its objection. The Majority
assumes arguendo that the evidence of
mitigation never presented to the jury is
now properly before us. No assumption is
necessary given the State’s admitted failure to raise this issue in the district court.
The State offers no explanation for its
election to fully participate in the district
court in the development of evidence. Instead, it contends that § 2254(e)(2) cannot
be waived or, alternatively, can only be
waived expressly. First, it analogizes the
subsection to § 2254(d)(1), which is a standard of review and therefore cannot be
‘‘waive[d], concede[d], or abandon[ed].’’5 As
§ 2254(e)(2) provides no standard of review, the State’s analogy does not persuade. Next, the State claims that (e)(2)
cannot be waived because it contains mandatory language.6 But as the Supreme
Court has made clear, an objection based
on a ‘‘mandatory’’ rule that is not timely
not establish prejudice—but nowhere did it
claim that the district court was barred from
reviewing that evidence.
5.

Ward v. Stephens, 777 F.3d 250, 257 n.3 (5th
Cir. 2015), abrogated on other grounds by
Ayestas v. Davis, ––– U.S. ––––, 138 S. Ct.
1080, 200 L.Ed.2d 376 (2018); see also Langley v. Prince, 926 F.3d 145, 162 (5th Cir.
2019) (en banc) (holding that § 2254(d)(1)
cannot be waived by the parties).

6.

Even when a claim-processing rule is written in mandatory language, it is ‘‘mandatory’’
only in the sense that a court must enforce the
rule if properly raised by a party. Fort Bend
Cty. v. Davis, ––– U.S. ––––, 139 S. Ct. 1843,
1849, 204 L.Ed.2d 116 (2019).

7.

United States v. Kwai Fun Wong, 575 U.S.
402, 409, 135 S.Ct. 1625, 191 L.Ed.2d 533
(2015) (quoting Sebelius v. Auburn Reg’l Med.
Ctr., 568 U.S. 145, 153, 133 S.Ct. 817, 184
L.Ed.2d 627 (2013)).

419

raised is forfeited unless it is jurisdictional.7 Section 2254(e)(2) merely sets the conditions under which a federal habeas court
may hear new evidence.8 It does not control the kinds of cases that a federal court
may hear or the persons over whom a
federal court may exercise authority. It
may be forfeited.9 I also see no basis for
applying a heightened waiver standard to
§ 2254(e)(2). Congress knew how to require an express waiver;10 it simply chose
not to do so here. One may see AEDPA as
protecting the sovereign role of the state,
an expression of federalism. Yet so does
the Eleventh Amendment—a protection
enshrined in our Constitution—and it is
settled that a state can by its litigation
conduct relinquish its sovereign immunity.11
The State also argues that the Court
should consider § 2254(e)(2) sua sponte.
Such exercises of discretion are not automatic but ‘‘must in every case be informed
by TTT balancing the federal interests in
comity and judicial economy against the
petitioner’s substantial interest in jus8.
9.

Fort Bend, 139 S. Ct. at 1849.
The State does not offer and I have not
found any case holding that § 2254(e)(2) can
never be waived. The Sixth Circuit’s decision
in Moore v. Mitchell comes closest, but its
holding is cabined to cases where admitting
new evidence would change the standard of
review. 708 F.3d 760 (6th Cir. 2013).

10. See, e.g., 28 U.S.C. § 2254(b)(3) (‘‘A State
shall not be deemed to have waived the exhaustion requirement or be estopped from
reliance upon the requirement unless the
State, through counsel, expressly waives the
requirement.’’) (emphasis added).
11. Lapides v. Bd. of Regents of Univ. Sys. of
Ga., 535 U.S. 613, 621, 122 S.Ct. 1640, 152
L.Ed.2d 806 (2002) (holding that to ensure
that states do not gain ‘‘unfair tactical advantages,’’ a state’s voluntary removal to federal
court waives sovereign immunity).

12a

420

966 FEDERAL REPORTER, 3d SERIES

tice.’’12 The interest in comity wanes when
a state participates in discovery and only
raises an objection on appeal. So too when
a state makes a tactical decision to develop
the record but later objects to its consideration. Comity does not require federal
courts to reward a state’s carelessness or
gamesmanship.13 As the State offers no
explanation for its failure here, comity offers it little aid. For the same reasons,
judicial economy and the interest of justice
are undermined by the failure to object
until significant time had elapsed and the
district court and parties had incurred substantial costs. The federal government
alone incurred over $55,000 in direct expenses. We ought not allow the State to
run from the evidence it participated in
developing. We should conclude that the
State has forfeited its objection under
§ 2254(e)(2).
III
A
In capital cases, ‘‘the fundamental respect for humanity underlying the Eighth
Amendment’’ requires the jury to make an
individualized assessment of whether
death is warranted.14 ‘‘[E]vidence about
the defendant’s background and character
is relevant’’ to this assessment ‘‘because of
the belief, long held by this society, that
12. Magouirk v. Phillips, 144 F.3d 348, 360
(5th Cir. 1998).
13. See, e.g., Granberry v. Greer, 481 U.S. 129,
132, 107 S.Ct. 1671, 95 L.Ed.2d 119 (1987)
(declining ‘‘to adopt a rule that would permit,
and might even encourage, the State to seek a
favorable ruling on the merits in the district
court while holding [its] defense in reserve for
use on appeal if necessary’’).
14. Penry v. Lynaugh, 492 U.S. 302, 316, 109
S.Ct. 2934, 106 L.Ed.2d 256 (1989) (quoting
Woodson v. North Carolina, 428 U.S. 280,
304, 96 S.Ct. 2978, 49 L.Ed.2d 944 (1976)
(plurality opinion)).

defendants who commit criminal acts that
are attributable to a disadvantaged background, or to emotional and mental problems, may be less culpable than defendants
who have no such excuse.’’15 A process
affording no significance to such evidence
treats the convicted defendant ‘‘not as [a]
uniquely individual human being[ ], but as
[a] member[ ] of a faceless, undifferentiated mass to be subjected to the blind infliction of the penalty of death.’’16
Consistent with these constitutional requirements, a Texas jury may impose the
death penalty only if it unanimously finds
the absence of ‘‘sufficient mitigating circumstance or circumstances to warrant
that a sentence of life imprisonment without parole rather than a death sentence be
imposed.’’17 In so doing, the jury must
‘‘tak[e] into consideration all of the evidence, including the circumstances of the
offense, the defendant’s character and
background, and the personal moral culpability of the defendant.’’18
Contending that trial counsel presented
almost no mitigating evidence, Canales asserts an ineffective assistance claim
through § 2254. Because the state habeas
court dismissed Canales’s claim as successive,19 AEDPA deference does not apply
and we review de novo Canales’s allegation
15. Id. at 319, 109 S.Ct. 2934 (quoting California v. Brown, 479 U.S. 538, 545, 107 S.Ct.
837, 93 L.Ed.2d 934 (1987) (O’Connor, J.,
concurring)).
16.

Woodson, 428 U.S. at 304, 96 S.Ct. 2978.

17. TEX. CODE CRIM. PROC. ANN. art. 37.071.
§ 1(e)(1), (f) (West 2020).
18.

Id. art. 37.071. § 1(e)(1).

19. Ex parte Canales, No. WR-54,789-02, 2008
WL 383804 (Tex. Crim. App. Feb. 13, 2008).

13a

CANALES v. DAVIS
Cite as 966 F.3d 409 (5th Cir. 2020)

of ineffective assistance.20 Having already
shown cause, Canales need only show prejudice, ‘‘a reasonable probability that, but
for [trial] counsel’s unprofessional errors,
the result of the proceeding would have
been different.’’21 A probability is reasonable if it is ‘‘sufficient to undermine confidence in the outcome.’’22 A prisoner need
not establish that ‘‘counsel’s deficient conduct more likely than not altered the outcome in the case.’’23
As a Texas jury may impose the death
penalty only by a unanimous vote, a petitioner raising an ineffective assistance
claim must show that, but for counsel’s
deficiency, ‘‘there [is] a reasonable probability that at least one juror could have
determined that because of the defendant’s
reduced culpability, death [is] not an appropriate sentence.’’24 That is, there need
only be a reasonable probability of one of
the twelve jurors ‘‘harbor[ing] a reasonable doubt’’ that Canales deserved the
death penalty.25 This is settled. A six-justice majority of the Supreme Court recent20. See Roberts v. Thaler, 681 F.3d 597, 603
(5th Cir. 2012).
21. Strickland v. Washington, 466 U.S. 668,
694, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984);
see also Canales, 765 F.3d at 569 (finding
cause due to sentencing counsel’s failure to
‘‘hire a mitigation specialist, interview family
members or others who knew him growing
up, or ‘collect any records or any historical
data on his life’ ’’).
22. Strickland, 466 U.S. at 694, 104 S.Ct.
2052.
23.

Id. at 693, 104 S.Ct. 2052.

421

ly made plain that the bar for showing
prejudice in these circumstances is low:
‘‘[B]ecause [the defendant’s] death sentence required a unanimous jury recommendation, prejudice here requires only ‘a
reasonable probability that at least one
juror would have struck a different balance’ regarding [his] ‘moral culpability.’ ’’26
‘‘In assessing prejudice, we reweigh the
evidence in aggravation against the totality
of available mitigating evidence.’’27 This is
necessarily a ‘‘probing and fact-specific
analysis,’’28 in which we look to Supreme
Court precedent for guidance, while recognizing that it does not yield a mandatory
list of mitigating facts for establishing
prejudice.29
In Williams v. Taylor, Williams was
sentenced to death for robbery and murder.30 After Harris Stone refused to lend
him a ‘‘couple of dollars,’’ Williams killed
Stone with a mattock.31 ‘‘The murder TTT
was just one act in a crime spree that
lasted most of Williams’s life.’’32 In the
Smith, 539 U.S. 510, 537–38, 123 S.Ct. 2527,
156 L.Ed.2d 471 (2003)).
27.

Wiggins, 539 U.S. at 534, 123 S.Ct. 2527.

28.

Sears, 561 U.S. at 955, 130 S.Ct. 3259.

29. See Andrus, ––– U.S. at –––– n.6, 140 S.Ct.
1875 (‘‘The concurring opinion [in the state
court], moreover, seemed to assume that the
prejudice inquiry here turns principally on
how the facts of this case compare to the facts
in Wiggins. We note that we have never before
equated what was sufficient in Wiggins with
what is necessary to establish prejudice.’’).

24. Kunkle v. Dretke, 352 F.3d 980, 991 (5th
Cir. 2003) (internal quotation marks and citation omitted).

30. 529 U.S. 362, 120 S.Ct. 1495, 146 L.Ed.2d
389 (2000).

25. Buck v. Davis, ––– U.S. ––––, 137 S. Ct.
759, 765, 197 L.Ed.2d 1 (2017).

31.

26. Andrus v. Texas, ––– U.S. ––––, ––––, 140
S.Ct. 1875, 207 L.Ed.2d 335 (2020) (per curiam) (emphasis added) (quoting Wiggins v.

Id. at 367–68, 120 S.Ct. 1495.

32. Id. at 418, 120 S.Ct. 1495 (Rehnquist, J.,
concurring in part and dissenting in part)
(quoting Williams v. Taylor, 163 F.3d 860,
868 (4th Cir. 1998)).

14a

422

966 FEDERAL REPORTER, 3d SERIES

months following that murder, Williams
‘‘brutally assaulted’’ an elderly woman,
leaving her in a vegetative state.33 He also
‘‘stole two cars, set fire to a home, stabbed
a man during a robbery, set fire to the city
jail, and confessed to having strong urges
to choke other inmates and to break a
fellow prisoner’s jaw.’’34 Two expert witnesses also testified that ‘‘there was a
‘high probability’ that Williams would pose
a serious continuing threat to society.’’35 At
sentencing, the jury learned that Williams
sent the police an anonymous letter expressing remorse for killing Stone and assaulting the elderly woman. After the police traced the letter back to Williams, he
confessed and cooperated with their investigation. Nevertheless, the jury concluded
his remorse was not enough to overcome
the significant aggravating evidence and
sentenced him to death. Despite AEDPA
deference and Williams’s horrific crimes,
the Supreme Court held that Williams was
prejudiced by counsel’s failure to introduce
significant mitigating evidence and therefore entitled to a resentencing.36 It explained that ‘‘the graphic description of
Williams’ childhood, filled with abuse and
privation, or the reality that he was ‘bor-

derline mentally retarded,’ might well have
influenced the jury’s appraisal of his moral
culpability.’’37

33. Id. at 368, 120 S.Ct. 1495 (majority opinion).

41.

34. Id. at 418, 120 S.Ct. 1495 (Rehnquist, J.,
concurring in part and dissenting in part)
(quoting Williams, 163 F.3d at 868); see also
id. at 368, 120 S.Ct. 1495 (majority opinion).
35. Id. at 369-70, 120 S.Ct. 1495 (majority
opinion).
36.

Id. at 399, 120 S.Ct. 1495.

37.

Id. at 398, 120 S.Ct. 1495.

38. 545 U.S. 374, 377–78, 125 S.Ct. 2456, 162
L.Ed.2d 360 (2005).
39.

Id. at 383, 125 S.Ct. 2456.

40.

Id. at 391–92, 125 S.Ct. 2456.

In Rompilla v. Beard, Rompilla was
sentenced to death for murdering James
Scanlon. Rompilla beat Scanlon with a
blunt object, stabbed him sixteen times in
the neck and head, and set his dead body
on fire—a murder by torture.38 This was
not Rompilla’s first crime: He had also
previously been convicted for assault and
rape.39 Despite his brutal crimes, the Court
held that Rompilla was prejudiced by defense counsel’s failure to uncover mitigation evidence that Rompilla’s parents were
alcoholics who fought violently and frequently beat him and his siblings. He also
sustained brain damage and suffered extreme punishments, deprivation, and social
isolation.40 ‘‘This evidence,’’ the Court held,
‘‘adds up to a mitigation case that bears no
relation to the few naked pleas for mercy
actually put before the jury [at sentencing].’’41 Because the mitigation evidence
‘‘might well have influenced the jury’s appraisal of Rompilla’s culpability,’’ the
Court held that he was entitled to resentencing.42
Id. at 393, 125 S.Ct. 2456.

42. Id. The Majority argues that this case offers Canales no assistance because Canales’s
jury, unlike Rompilla’s, had ‘‘no ‘benign conception’ that Canales had a good childhood or
normal mental capacity.’’ In Rompilla, defense counsel failed to review materials provided by the prosecution, instead resting his
mitigation statement on the defendant’s own
description of his childhood as normal. The
Court concluded that if counsel had reviewed
these materials, they ‘‘would have destroyed
the benign conception of Rompilla’s upbringing and mental capacity defense counsel had
formed from talking with Rompilla.’’ Id. at
391, 125 S.Ct. 2456 (emphasis added). Contrary to the Majority’s implication, the Court
was addressing the ‘‘benign conception’’ of
defense counsel, not the jury.

15a

CANALES v. DAVIS
Cite as 966 F.3d 409 (5th Cir. 2020)

B
Informed by these decisions, we turn to
the mitigation evidence the jury in this
case never heard. In short, the jury ‘‘heard
almost nothing that would humanize [Canales] or allow them to accurately gauge
his moral culpability.’’43 Other than his
crimes, the jury only knew that Canales
was a gifted artist and a peacemaker in
prison.44 As a result—and it bears repeating—the prosecutor was able to argue in
response: ‘‘Mitigating evidence folks—it is
unbelievably sad—it’s an incredibly sad
tribute that when a man’s life is on the
line, about the only good thing we can say
about him is he’s a good artist.’’
As in Rompilla, Canales’s new mitigation evidence ‘‘adds up to a mitigation case
that bears no relation to the few’’ pieces of
evidence ‘‘actually put before the jury’’ at
sentencing.45 The jury did not learn that
Canales had the ‘‘kind of troubled history’’
that the Supreme Court has repeatedly
‘‘declared relevant to assessing a defendant’s moral culpability’’: a childhood
plagued by poverty, neglect, addiction, sexual abuse, and persistent violence.46 Nor
did it learn that Canales’s heart attacks
and required medication left him vulnerable to the control of gang leaders, or that
Canales would have been killed by a prison
43. Porter v. McCollum, 558 U.S. 30, 41, 130
S.Ct. 447, 175 L.Ed.2d 398 (2009).
44.

Canales, 765 F.3d at 569.

45.

Rompilla, 545 U.S. at 393, 125 S.Ct. 2456.

46. Porter, 558 U.S. at 41, 130 S.Ct. 447 (quoting Wiggins, 539 U.S. at 535, 123 S.Ct. 2527);
see, e.g., Rompilla, 545 U.S. at 390–93, 125
S.Ct. 2456 (granting relief where additional
mitigation evidence regarding the defendant’s
abusive, impoverished childhood and alcoholrelated causes of the defendant’s juvenile incarcerations might have influenced the jury’s
evaluation of culpability); Wiggins, 539 U.S. at
535, 123 S.Ct. 2527 (recognizing the ‘‘powerful’’ mitigating effect of evidence that the defendant’s childhood was rife with ‘‘severe pri-

423

gang if he refused to assist in eliminating
an enemy of the gang. Nor did it hear
expert witness testimony that at the time
of the offense, Canales suffered from complex PTSD that had not been treated. Nor
did the jury hear from witnesses, such as
Canales’s sister or his former girlfriend,
who would have humanized Canales and
presented his good qualities.47 For example, Canales’s sister could have explained
how, even as a child, Canales tried to
protect her when her stepfather beat and
sexually assaulted her. As she stated in
her declaration:
Andy was a throw away child. TTT He
never had a chance. TTT If only my
parents would have given Andy a little
more attention, he could have grown up
to have a family and a good life. He was
always brave when I needed him to be. I
will forever be grateful for that.
The Majority appears to frame the prejudice inquiry as a comparison of the facts
here to the facts in Wiggins and Williams,
faulting Canales’s mitigating evidence for
not neatly aligning with the evidence in
those cases. This approach implicitly rests
on the view that when assessing prejudice,
we may go as far as Wiggins and Williams
but no farther—a view the Supreme Court
rejected in Andrus, observing that it has
vation and abuse,’’ ‘‘physical torment, sexual
molestation, and repeated rape’’); Williams,
529 U.S. at 398–99, 120 S.Ct. 1495 (holding
state court decision denying habeas relief was
unreasonable, as new mitigation evidence, including ‘‘the graphic description of [the defendant’s] childhood, filled with abuse and
privation, or the reality that he was ‘borderline mentally retarded,’ might well have influenced the jury’s appraisal of his moral culpability’’).
47. See Porter, 558 U.S. at 41, 130 S.Ct. 447
(‘‘The judge and jury at Porter’s original sentencing heard almost nothing that would humanize Porter[.]’’).

16a

424

966 FEDERAL REPORTER, 3d SERIES

‘‘never before equated what was sufficient
in Wiggins with what is necessary to establish prejudice.’’48 In Wiggins, the Court
explained that it had granted relief in
Williams despite weaker mitigating evidence and stronger aggravating evidence.49
The Majority’s effort to distinguish Canales’s case from Wiggins truncates the
necessary inquiry.
It is also significant that Williams did
not attempt to cabin the array of prejudicial errors or otherwise corral their presentation. There, the Court, applying AEDPA deference, held the state habeas
court’s failure to find prejudice was not
merely incorrect but also unreasonable.50
That is, the evidence that Williams had
been prejudiced was not a close call. It was
so strong that no fair minded jurist could
disagree.51 It is also telling that although
the Supreme Court has reversed lower
court decisions granting habeas relief since
Williams, the mitigation evidence in those
cases did not approach the strength of the
evidence in Williams or the strength of
the evidence here.52
The Majority claims that Canales’s mitigating evidence is ‘‘unlike the evidence
presented in Wiggins or Williams.’’ But
its own account of these cases reveals the
48. Andrus, ––– U.S. at –––– n.6, 140 S.Ct.
1875.
49. Wiggins, 539 U.S. at 537–38, 123 S.Ct.
2527.
50.

Williams, 529 U.S. at 399, 120 S.Ct. 1495.

51. Harrington v. Richter, 562 U.S. 86, 101,
131 S.Ct. 770, 178 L.Ed.2d 624 (2011).
52. Cullen v. Pinholster comes closest, but
there the Court applied AEDPA deference.
563 U.S. 170, 202, 131 S.Ct. 1388, 179
L.Ed.2d 557 (2011). Plus, the Court expressly
stated that Rompilla and Williams ‘‘offer[ed]
no guidance,’’ believing—mistakenly as to
Williams—that those cases had ‘‘not appl[ied]
AEDPA deference to the question of prejudice.’’ Id.; see Andrus, ––– U.S. at –––– n.6,
140 S.Ct. 1875 (stating that Williams found

overwhelming similarities. Canales and
Wiggins both suffered ‘‘severe privation
and abuse TTT while in custody of [an]
alcoholic, absentee mother,’’ ‘‘physical torment, sexual molestation, and repeated
rape,’’ and periods of homelessness. Similarly, Canales and Williams both had a
‘‘nightmarish childhood,’’ coming from alcoholic families, receiving little schooling,
and suffering neglect and severe and repeated beatings. In addition, both Canales
and Williams had friends and family who
could have testified that they had redeeming qualities.53 Yet the Majority gives no
weight to these parallels, focusing instead
on mitigating factors present in those
cases but not this one: remorse (present in
Williams, but not Wiggins) and a lack of a
violent record (present in Wiggins, but not
Williams). In so doing, it ‘‘discount[s] to
irrelevance the evidence of [an] abusive
childhood,’’ a practice the Supreme Court
has characterized as ‘‘objectively unreasonable.’’54
The Majority’s distinctions fail to move
the needle. Comparing Canales to Wiggins,
the Majority first criticizes Canales for
having a record of violence. But it fails to
acknowledge that the Supreme Court
‘‘prejudice after applying AEDPA deference’’)
(citing Williams, 529 U.S. at 399, 120 S.Ct.
1495).
53. Williams, 529 U.S. at 415–16, 120 S.Ct.
1495 (O’Connor, J., concurring) (faulting the
state court for failing to consider the existence of ‘‘friends, neighbors and family of
[Williams] who would have testified that he
had redeeming qualities’’).
54. Porter, 558 U.S. at 41, 43, 130 S.Ct. 447
(holding it was unreasonable for the state
habeas court to ‘‘discount’’ the mitigation evidence because the ‘‘kind of troubled history’’
involving abuse at the hands of a parent,
alcoholism, and brain damage is ‘‘relevant to
assessing a defendant’s moral culpability’’).

17a

425

CANALES v. DAVIS
Cite as 966 F.3d 409 (5th Cir. 2020)

granted Williams relief even though he
had committed crimes more heinous than
Canales’s—a lifelong criminal spree, killing
one man, stabbing another, ‘‘savagely
beat[ing] an elderly woman’’ into a vegetative state, and setting a house on fire.55
Similarly, Rompilla’s murder by torture
and convictions for rape and other violent
felonies did not foreclose the Supreme
Court’s finding prejudice and ordering a
resentencing.56
Next, comparing Canales to Williams,
the Court faults Canales for failing to show
remorse. But in Williams, the jury had
already heard evidence of Williams’s remorse when it sentenced him to death. It
was not the remorse but defense counsel’s
failure to introduce other mitigating evidence, like Williams’s horrifying childhood,
that was prejudicial. The Supreme Court
has never treated remorse as a signal
marker for relief. Despite no finding of
remorse in Rompilla, Porter, or Wiggins,
the Supreme Court concluded that the defendants were entitled to relief.57
The Majority also declines to address
the mitigating evidence present here but
absent from Williams. A few of the difficulties in Canales’s childhood but not
Williams’s bear mention: At six, Canales
witnessed a man get shot to death in the
street and saw his stepfather rape his five55.

Williams, 529 U.S. at 368, 120 S.Ct. 1495.

56. Rompilla, 545 U.S. at 377–78, 383, 125
S.Ct. 2456. Our Court has also granted relief
in more severe cases. In Walbey, we granted
relief even though the defendant had invaded
a young woman’s home, lay in wait for the
woman to return, then bludgeoned her to
death while the victim suffered for ten to
fifteen minutes. After she died, he repeatedly
stabbed her corpse with a butcher knife and
barbecue fork. See Walbey v. Quarterman, 309
F. App’x 795 (5th Cir. 2009) (per curiam)
(unpublished); Walbey v. State, 926 S.W.2d
307, 309 (Tex. Crim. App. 1996); see also
Gardner v. Johnson, 247 F.3d 551, 554 (5th

year old sister; that year his stepfather
sexually abused him as well; at eight, he
was forced into a gang; at ten, he was shot
at in a drive-by shooting; and by twelve, he
was stabbed. No doubt Williams also had
distinct childhood difficulties that cannot
easily be equated with Canales’s. But that
is precisely why we are instructed to ‘‘reweigh’’ the evidence ourselves—to avoid
the drift of precedent into a paint-by-numbers guide to prejudice.58
C
The Majority gives little weight to the
evidence that Canales would have been
murdered if he refused to assist in the
killing or comply with the Texas Mafia’s
other orders. It appears to discredit the
reach of Richards’s sworn declaration,
which states that Canales acted under
threat of death. Richards was released
from prison in 2012 and made his sworn
declaration in 2016. The State failed to
develop any evidence suggesting that Richards lied or even had a reason to lie. And
in the eyes of the jury, Richards’s credibility would have been enhanced when juxtaposed with that of Innes, a member of the
prison cabal who turned for the State in
exchange for a plea bargain. As it was, the
jury heard only from Innes. The jury knew
Cir. 2001) (granting relief where the defendant picked up two fourteen-year-old runaway hitchhikers and stabbed them multiple
times, killing one and leaving the other
wounded).
57. Porter, 558 U.S. at 41, 130 S.Ct. 447; Rompilla, 545 U.S. at 393, 125 S.Ct. 2456;
Williams, 529 U.S. at 398, 120 S.Ct. 1495.
58. Wiggins, 539 U.S. at 534, 123 S.Ct. 2527;
see Andrus, ––– U.S. at –––– n.6, 140 S.Ct.
1875 (reprimanding the state court for ‘‘assum[ing] that the prejudice inquiry TTT turns
principally on how the facts of [its] case compare to the facts in Wiggins’’).

18a

426

966 FEDERAL REPORTER, 3d SERIES

nothing of Richards’s testimony, defense
counsel having failed to interview him.
Despite conceding that Richards and the
Texas Mafia forced Canales to write the
first letter, the Majority assumes he was
free from their control when he wrote the
other two letters.59 But a reasonable juror
could conclude that the Texas Mafia ordered Canales to write them. Having ordered Dickerson’s murder, the prison gang
had a strong motive to eliminate anyone
suspected of cooperating with the State’s
investigation into the killing. Richards ordered Canales to write Innes, and, as even
the State acknowledged, Canales would
‘‘do ‘whatever it took’ to retain’’ the Texas
Mafia’s protection. Canales’s second letter
also indicates that the Texas Mafia was
participating in the efforts to kill Whited, a
prisoner suspected of cooperating with the
State. After requesting that Innes kill
Whited, the letter states: ‘‘Now, I will also
get with Mr. JR [the President of the
Texas Mafia] on the others who are involved and can help get it [i.e., the efforts
to kill Whited] all in order.’’60
The Majority also sees the coercion evidence to be ‘‘powerfully countered’’ by Canales’s subsequent letters, citing Wong v.
59. The Majority claims that when ‘‘Canales
attempted to discount these letters in his COA
request,’’ ‘‘[h]e stated that Innes had asked
him to write a confessional letter but made no
mention of the other letters.’’ In Canales’s
first COA request, he asserted a Massiah
claim, arguing that Innes improperly solicited
letters on behalf of the State. But this claim
has no bearing on whether Richards forced
Canales to write letters to Innes. And even if
it is relevant, the Majority is mistaken: Canales’s COA request addressed two letters. See
Brief for Appellant at 28, Canales v. Stephens,
765 F.3d 551 (5th Cir. 2014) (No. 12-70034)
(‘‘Bruce Innes, the State’s primary witness,
was acting as an undercover state agent when
he solicited two powerfully inculpatory notes
from Canales.’’) (emphasis added).
60.

Canales, 765 F.3d at 560.

Belmontes.61 There, if counsel had introduced additional mitigating evidence, the
state would have countered with new aggravating evidence that Belmontes had
committed another murder in cold blood
and then bragged about it. The Court concluded that the new aggravating and mitigating evidence would cancel each other
out and have no effect on the jury.62 Here,
there is only new mitigating evidence. The
jury already learned about Canales’s
crimes, but never heard one word about
the evidence that he acted under duress.63
Ultimately, with competent counsel, the
jurors could see his role in the killing and
his subsequent boasting in a different
light—as part of his continuing effort to
appease the gang.
The Majority still urges that the coercion evidence is not enough because, unlike
in Williams, it ‘‘does not show that ‘[Canales’s] violent behavior was a compulsive
reaction rather than the product of coldblooded premeditation.’ ’’64 But Williams’s
‘‘compulsive reaction’’ and the lack of premeditation were not central to the holding.65 In Porter, the Supreme Court found
that the defendant was prejudiced despite
committing a murder that was ‘‘premedi61. 558 U.S. 15, 24–25, 130 S.Ct. 383, 175
L.Ed.2d 328 (2009).
62.

Id.

63. The Majority states that we must consider
all of the evidence. True enough, but as Strickland observes, ‘‘This is not a case in which the
new evidence ‘would barely have altered the
sentencing profile presented to the sentencing
judge.’ ’’ Porter, 558 U.S. at 41, 130 S.Ct. 447
(quoting Strickland, 466 U.S. at 700, 104 S.Ct.
2052).
64.

Williams, 529 U.S. at 398, 120 S.Ct. 1495.

65.

Id.

19a

CANALES v. DAVIS
Cite as 966 F.3d 409 (5th Cir. 2020)

tated in a heightened degree.’’66 And it
concluded that the state court’s denial of
relief was not merely mistaken but objectively unreasonable.67 While it is true that
Canales was under the control of a prison
gang instead of a neurological defect, both
men were driven to violence by forces
outside their control: a compulsive reaction
for Williams, the menace of certain death
for Canales.
Properly represented, Canales has a
substantial argument that he killed only
under the threat of his own death, and he
is entitled to offer the jury an understanding of how he got to where he was and
why he did what he did. The evidence of
his tragic childhood and the threats to his
life would do both.
IV
Capital cases bifurcate guilt and punishment with both phases before a jury.
These are separate inquiries, mandated by
the unique gravity of ‘‘death by public
authority’’ and ‘‘the fundamental respect
for humanity underlying the Eighth
Amendment.’’68 The jury first determines
whether the defendant committed the
charged crimes. If guilt is found, the trial
moves to the second stage, where the jury
now asks, ‘‘Who is this person we have
convicted?’’ At the least, the convicted defendant will be held accountable by a life
sentence. But to determine if death is warranted, the jury requires a full accounting
of the defendant’s life, covering not only
his crimes but also the forces that brought
him to this day. This is no abstract wateryeyed inquiry. It is demanded by the mixed
66.

See Porter, 558 U.S. at 42, 130 S.Ct. 447.

67.

Id.

68. Lockett v. Ohio, 438 U.S. 586, 605, 98 S.Ct.
2954, 57 L.Ed.2d 973 (1978); id. at 604, 98
S.Ct. 2954 (quoting Woodson, 428 U.S. at 304,
96 S.Ct. 2978).

427

question of morality and fact posed to the
jury. The jury must make ‘‘a reasoned
moral response to the defendant’s background, character, and crime.’’69 But deprived of the defendant’s life story, the
jury cannot see the defendant as a
‘‘uniquely individual human being,’’ let
alone make a ‘‘reasoned moral response.’’70
For that reason, we cannot count as just a
system that tolerates failure to bring to
the jury a substantial mitigation defense
when one is available.
Here, incompetent counsel indisputably
deprived Canales of the opportunity to
give the jury insight into his harrowing
background—the heart of his defense. The
jury learned only that Canales was a good
artist. It was never presented with the
voluminous mitigating evidence now before
this Court and could only assume that
there was none, as the prosecution so powerfully argued. Had the jury heard this
evidence, there is a reasonable probability
at least one of its members would have
found the death penalty unwarranted.
The decision to sentence a defendant to
death is a difficult one that defies straightforward analogical reasoning, quibbling
distinctions, and easy legal conclusions. To
these eyes, it inevitably reflects a jury’s
gut-level hunch about what is just, given
the totality of the circumstances. Such a
decision is best left to the collective wisdom of a jury fully apprised of the facts. A
reflection of the considered judgment of
our constitutional system, the jurors are in
the box as citizens, laymen representing a
cross-section of the community. The federal bench is no substitute. We bring an
insular perspective, reflecting our unique
69. Penry, 492 U.S. at 319, 109 S.Ct. 2934
(emphasis omitted) (quoting Brown, 479 U.S.
at 545, 107 S.Ct. 837).
70. Id.; Woodson, 428 U.S. at 304, 96 S.Ct.
2978.

20a

428

966 FEDERAL REPORTER, 3d SERIES

training, professional values, and office—a
perspective distinct from that of the accountant, the architect, and the physician,
to say nothing of the taxi driver, the cashier, and the plumber. Able as federal
judges may be, they live in a world distant
from the realities of poverty with its attending consequences—inapt representatives of the cross-section of the community
from which this judgment of basic morality
is drawn.
As capital punishment has traveled its
long and tortuous path, we have kept faith
in the outcome of its attending adversarial
process of trial by jury. We do so ever
mindful that this process can be no better
than the weakest leg of the courtroom—
judge, prosecution, defense counsel. We
cannot leave standing outcomes flawed by
a failure of any of these legs. As the
demand for the strength of this trinity is
inherent in the task our government delegates to twelve citizens—a judgment discerning a blend of fact and morality—the
mitigation case is the battleground of capital trials. Defense counsel here wholly
failed in his duty to present such a case.
Our adversarial system works only when it
is adversarial. I dissent.

,
UNITED STATES of America,
Plaintiff-Appellee,
v.
Michael Lee BOURQUIN,
Defendant-Appellant.
No. 19-1465
United States Court of Appeals,
Sixth Circuit.
Argued: December 3, 2019
Decided and Filed: July 17, 2020
Background: Defendant pled guilty in the
United States District Court for the East-

ern District of Michigan, Thomas L. Ludington, J., to maliciously conveying false
information concerning attempt to kill, injure, or intimidate former federal prosecutor, and he appealed.
Holdings: The Court of Appeals, Donald,
Circuit Judge, held that:
(1) government failed to present sufficient
evidence to support four-level enhancement based on substantial expenditure
of funds to respond to offense, and
(2) government was precluded from presenting additional evidence on remand
to meet its burden in support of enhancement.
Vacated and remanded.
1. Criminal Law O1134.75
Court of Appeals reviews district
court’s calculation of advisory Sentencing
Guidelines as part of its obligation to determine whether district court imposed
sentence that is procedurally unreasonable.
2. Criminal Law O1139, 1158.34
Court of Appeals reviews district
court’s legal conclusions regarding application of Sentencing Guidelines de novo and
any findings of fact for clear error.
3. Criminal Law O1139
De novo standard of review applies
when district court’s application of Sentencing Guidelines involves mixed questions of law and fact.
4. Sentencing and Punishment O322.5
Government bears burden of proving
that sentencing enhancement applies by
preponderance of evidence.
5. Constitutional Law O4705
Due process requires that some evidentiary basis beyond mere allegation in

21a

Case 2:03-cv-00069-JRG-RSP Document 230 Filed 08/09/17 Page 1 of 21 PageID #: 4459

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
MARSHALL DIVISION
ANIBAL CANALES, JR., #999366,
Petitioner,
v.
DIRECTOR, TDCJ-CID,
Respondent.

§
§
§
§
§
§
§
§
§

CIVIL ACTION NO. 2:03cv69

REPORT AND RECOMMENDATION
OF UNITED STATES MAGISTRATE JUDGE
Petitioner Anibal Canales, Jr., a death row inmate confined in the Texas prison system, brings
this petition for a writ of habeas corpus challenging his capital murder conviction pursuant to 28
U.S.C. § 2254. The petition was referred for findings of fact, conclusions of law and recommendations
for the disposition of the case.
Procedural History
Canales was sentenced to death in Bowie County, Texas, for the capital murder of Gary
Dickerson, a fellow inmate. The conviction was affirmed on direct appeal. Canales v. State, 98
S.W.3d 690 (Tex. Crim. App.), cert. denied, 540 U.S. 1051 (2003). His initial application for a writ
of habeas corpus filed in state court was denied on the merits. Ex parte Canales, No. WR-54,789-01
(Tex. Crim. App. March 12, 2003) (unpublished).
On November 29, 2004, Canales filed the present petition, raising thirteen separate grounds
for relief. On March 23, 2007, the Court stayed the proceedings in order to give Canales the
opportunity to present his unexhausted claims to the state court system. The Texas Court of Criminal
Appeals (“TCCA”) dismissed his subsequent state application as an abuse of the writ. Ex parte
Canales, No. WR-54,789-02, 2008 WL 383804 (Tex. Crim. App. Feb. 13, 2008).

1

22a

Case 2:03-cv-00069-JRG-RSP Document 230 Filed 08/09/17 Page 2 of 21 PageID #: 4460

Canales returned to this Court. On August 24, 2012, the Court dismissed Canales’s first,
second, fifth, sixth, seventh, eighth, tenth, eleventh and twelfth claims with prejudice as procedurally
defaulted and denied his third, fourth, ninth and thirteenth claims on the merits.
The United States Court of Appeals for the Fifth Circuit affirmed, in part, and reversed, in part,
the decision of this Court. Canales v. Stephens, 765 F.3d 551 (5th Cir. 2014). The Fifth Circuit
reversed this Court’s decision regarding Canales’s claim that he received ineffective assistance of
counsel during sentencing. Id. at 559. This Court’s decision regarding his remaining claims was
affirmed. Id. The ineffective assistance of counsel during sentencing claim was remanded for further
consideration in light of the Supreme Court’s recent decisions in Martinez v. Ryan, 566 U.S. 1 (2012),
and Trevino v. Thaler, 133 S. Ct. 1911 (2013).
Canales filed a brief regarding prejudice (Dkt. #222) on February 3, 2017. The Director filed
a brief in response (Dkt. #228) on May 16, 2017. Canales filed a reply (Dkt. #229) on May 30, 2017.
Factual Background
The Fifth Circuit discussed the factual background of the offense as follows:
On July 1, 1997, prison officials caught Larry “Dirty” Dickerson (“Dickerson”), an
inmate at the Telford Unit of the Texas Department of Criminal Justice (“the Unit”),
with contraband that belonged to another prison gang. Dickerson told another inmate,
James Baker (“Baker”), that if Baker did not help him avoid retaliation from the gang
whose contraband was stolen, Dickerson would tell prison officials about a large
quantity of tobacco that was to be smuggled into the prison the next day.
The next day, prison officials intercepted a shipment of contraband tobacco intended
for Baker and the Texas Mafia, a prison gang. When the tobacco was intercepted,
Dickerson was placed in administrative segregation. At his own request, he returned
to the general population about a week later. Dickerson was found dead in his cell on
July 11, 1997. Prison authorities initially concluded that Dickerson had died of natural
causes. Only after conducting an autopsy did the State conclude that Dickerson had
actually been strangled.
The Texas Mafia had a financial stake in the intercepted contraband tobacco and
arranged for Dickerson’s murder. See Canales, 98 S.W.3d at 693. Canales, who was
also an inmate in the Unit, was a member of the Texas Mafia. According to the
magistrate judge’s summary of the facts Canales and three other Texas Mafia
members—William Speer (“Speer”), Jessie Barnes, and Michael Constantine—agreed
to murder Dickerson. Canales and Speer went to Dickerson’s cell, and while Canales
held him down, Speer strangled him.

2

23a

Case 2:03-cv-00069-JRG-RSP Document 230 Filed 08/09/17 Page 3 of 21 PageID #: 4461

In 1998, Canales sent a letter to Bruce Innes (“Innes”) in which he described
Dickerson’s murder and the Texas Mafia’s interest in it. The letter was admitted into
evidence at trial.
Dirty [Dickerson] lit the smoke and we smoked. When the last hit was
took he was down by the vent on his knee and Puff [Speer] behind and
me at the door. Puff put the hold on him and I grabbed his arms. It
went smooth! He lost consciousness right away and strugled (sic) for
a little bit. I took the time to inform Him who we were and why he’s
going to die. Puff told him. . “Don't even fuck with the Texas–MAFIA
in hell!!” Ha! Ha! Ha! Anyway . . . we made sure the dick sucker
was dead and I declared the hit complete. We put his shit smelling ass
in the top bunk and went quietly out the door. I went to the yard with
minutes to spare!!
R. at 2355 (magistrate judge’s summary of the facts) (alterations in original) (emphasis
omitted).
Canales was indicted for capital murder in November 1999. In February 2000, he sent
another letter to Innes. As the district court described the letter, “although written in
code, [it] appeared to ask the gang to retaliate against Larry (“Iron-head”) Whited
because he believed Whited had informed prison authorities about his role in the
killing.” The district court also included the letter:
Greetings, Sir . . As always, I come to you and all worthy with my
utmost respects (sic)! I realize that I just recently sent you a letter but
it has become imperative that I write you again, as you’ll see . . First,
I arrived at bowie county court on 2–7–00 and was arraigned for
several charges. Mrs. Speers barnes and Constinetine were also there
. . I must tell you that the worst has been done and its (sic) one of the
charges (Main one actually) Glarinly (sic) absent was that iron headed
fella.. He was not charged, which is good . . Eh? Seems that iron obes
(sic) bend to the will of the state or not. I personally think so.
Perhaps some effort can be used to throw that useless material to the
scrap yard. . I can’t stress how important this is. As you know Iron can
be shaped into what you want it to look like and not in a good way sir!!
If this can't be done then I’ll need to ask for legal-assistance from other
arenas . . And that’s not to(sic) cool! Maximum effort Ace,
Maximum!! Now, I will also get with Mr. JR on the others who are
involved and can help get it all in order. Also, it’s possible that a legal
defense fund will be placed to help with council, (sic) legal material,
clothes (for court) I’ll have our attorney (who’s a freeworld) get it
together and put out flyers to all the best.
We’ll need ya’lls (sic) help fellas and I can’t stress how important it is
to file that writ of dismissal in this area on that pile of scrap! This in
itself would be tremendous in assisting this legal case! That’s how
important it is . . . You take care fellas and put out the word that help
is needed on this from all areas. . . . We continue the struggle,
In solidarity
Bigfoot..
3

24a

Case 2:03-cv-00069-JRG-RSP Document 230 Filed 08/09/17 Page 4 of 21 PageID #: 4462

R. at 2356–57 (emphasis omitted). This letter was also admitted into evidence at trial.
In April 2000, Canales wrote a third letter to another inmate, which read in part:
Yeah bubba, I’ve been bummed a bit, just a small funk, no sweat . . A
lot has to do with my case and its outcome or the way I see it. It’s not
good, and I’ve got a few making matters worse with their mouths! I
was here with Tony Rice, I know him and his case and I know how it
came about, I was in super seg with him there in 85 and then we were
all on the same wing (L—Wing) in 86–87 and we got tight. I saw the
downfall and how it came about and who was responsible! I’ve got
snakes in the yard and it’s getting worse from the crap coming outta the
mouths of so-called homies. One dayroom call homeboy, and I’ll get
it all straight! Bet that! But what can I do? Nothink! Nada! Zero!
Zip! 0! But, I'm a firm believer that what goes around, comes around!
And that what you sow, you reap! So, I’ll be content with justice in the
end. TDC is not big, at all! So. . . . . .
R. at 2357. The State also introduced this letter into evidence at trial.
The 1998 letter was particularly important in the guilt phase, and the other two letters
were used at punishment phase to help establish “future dangerousness,” the special
issue that led to his capital sentence. Canales, 98 S.W.3d at 699. The State also used
several inmates as witnesses, including Innes (who allegedly started working as a State
agent in 1999 or 2000), Richard Driver, Jr., and Doyle Hill.
Canales, 765 F.3rd at 559-61.
Punishment Evidence
1.

State’s Evidence
The State’s evidence during the punishment phase of the trial consisted of documentary

evidence, along with the testimony of Suzanne Hartbarger and Bruce Innis. The documentary evidence
included the pen packets showing Canales’s prior convictions. His prior convictions included a five
year sentence for theft, State v. Canales, No. 84CR-0012 (290th Dist. Ct., Bexar County, Tex. April
23, 1984); a fifteen year sentence for sexual assault, State v. Canales, No. 83CR-3030 (290th Dist. Ct.,
Bexar County, Tex. March 12, 1984); and a fifteen year sentence for aggravated sexual assault, State
v. Canales, No. 93-CR-2039-G (319th Dist. Ct., Nueces County, Tex. Jan. 6, 1995). The documentary
evidence was admitted without objection. 12 RR 11.1

1

“RR” refers to the reporter’s record of the transcribed testimony during the trial, preceded by the volume number
and followed by the page number. “CR” refers to the clerk’s record on direct appeal, followed by the page number.

4

25a

Case 2:03-cv-00069-JRG-RSP Document 230 Filed 08/09/17 Page 5 of 21 PageID #: 4463

The victim of the Bexar County sexual assault testified that she was a student at San Antonio
College at the time of the assault. Canales approached her in a parking lot near the college, showed
her a badge, told her that he was a police officer, and said he was investigating a drug-sale in which
she had been named. 12 RR 12-13. He told her that she was going to jail. She got out of her car, he
got in the driver’s side, and he said he would drive her to the jail. Rather than driving to the jail,
Canales drove around. At some point in time, she realized that he was not a police officer. 12 RR 13.
She told him that she was going to jump out of the car. 12 RR 14. He responded by telling her that
he would “blow [her] away” if she jumped out of the car. Id. She believed that he might have a gun.
After stopping the car, he walked her into the woods and raped her. 12 RR 16. She discussed the rape
as follows:
He raped me. He had intercourse with me, and at the time -- and at the time it was
happening -- I had a cross in my hand and I was praying, ‘To our Father’ out loud so -it happened to me, but I felt I was shielded by God, because when I looked at him as
I was praying, I just saw like the devil in him.
12 RR 16. When he finished, he told her “you’d better not tell, or I’ll kill you.” 12 RR 17. He drove
off in her car with her “car keys, address book, house keys, everything.” Id. As for the effect of the
rape, the victim made the following statement to the jury:
It has made me bitter, and has weakened me, because I didn’t think I would ever have
to open up this door again, and I had to, and it has weakened me to somebody I don’t
want to be - didn’t want to because, you know. It just made me a weaker person. I just
feel weak, like I don’t have any - I don’t know how to explain it.
12 RR 17-18. On cross-examination, she testified that he called her house threatening to kill her if she
testified against him. 12 RR 20.
Inmate Bruce Innis testified that Canales wrote to him shortly before the trial. Canales believed
that Innis was still a member of the Texas Mafia prison gang, and he did not know that Innis was
planning to testify against him. 12 RR 22. Innis testified that Canales had sent him a coded letter in
which he asked Innis to arrange for the murder of inmate Larry Whited, whom Canales suspected of
cooperating with investigators. 12 RR 23-25.

5

26a

Case 2:03-cv-00069-JRG-RSP Document 230 Filed 08/09/17 Page 6 of 21 PageID #: 4464

The record also shows that the victim of the aggravated sexual assault in the early 1990s did
not testify. Among other reasons, it was explained that she did not communicate well in English. 12
RR 8.
2.

Defense Evidence
The defense called seven witnesses on behalf of Canales, including inmates and officers,

testifying that Canales was not troublesome and had an aptitude for art. The defense also elicited
testimony that Canales’s mother was dead and that he received few visits from family. It is noted that
one inmate testified that he had seen Canales trying to stop inmates from fighting. 12 RR 56.
The docket sheet reveals that the jury started deliberating at 10:00 a.m. on November 1, 2000.
CR at 12. A verdict was returned on that same day at 11:45. Id.
Discussion and Analysis
1.

Procedural Requirements
The claim remanded for the Court’s consideration concerns whether Canales received

ineffective assistance of counsel at sentencing. In his federal habeas petition, Canales alleged that he
received ineffective assistance of counsel because his attorneys failed to discharge their duty to conduct
an investigation into his life, and thus failed to uncover powerful mitigating evidence. He argued that
an effective investigation would have explained his desire to be part of a gang and uncovered evidence
of his traumatic and neglectful childhood, his love and efforts to protect his sister, the love his family
has for him, and the likelihood of mental disorders. The claim was based on Wiggins v. Smith, 539
U.S. 510 (2003). The Director argued that the claim was procedurally defaulted because Canales failed
to raise the claim in his initial state habeas corpus proceedings. This Court stayed the present
proceedings to give Canales the opportunity to present this and other unexhausted claims to the state
court system for review. The TCCA dismissed Canales’s subsequent application as an abuse of the
writ pursuant to Tex. Code Crim. Proc. Art. 11.071 §5 (c). Ex parte Canales, 2008 WL 383804, at
*1. Canales returned to this Court, which found that the Wiggins claim was procedurally barred and
that Canales could not show actual innocence to avoid the default.

6

27a

Case 2:03-cv-00069-JRG-RSP Document 230 Filed 08/09/17 Page 7 of 21 PageID #: 4465

The resolution of this claim concerns complex procedural issues involving exhaustion of state
remedies, procedural defaults and whether Canales can overcome the procedural default via Martinez
and Trevino. The analysis of Canales’s claims should begin with a discussion of the exhaustion
requirement. State prisoners bringing petitions for a writ of habeas corpus are required to exhaust their
state remedies before proceeding to federal court unless “there is an absence of available State
corrective process” or “circumstances exist that render such process ineffective to protect the rights
of the applicant.” 28 U.S.C. § 2254(b)(1). In order to exhaust properly, a state prisoner must “fairly
present” all of his claims to the state court. Picard v. Connor, 404 U.S. 270, 275 (1971). In Texas,
all claims must be presented to and ruled upon the merits by the TCCA. Richardson v. Procunier, 762
F.2d 429, 432 (5th Cir. 1985). When a petition includes claims that have been exhausted along with
claims that have not been exhausted, it is called a “mixed petition,” and historically federal courts in
Texas have dismissed the entire petition for failure to exhaust. See, e.g., Galtieri v. Wainwright, 582
F.2d 348, 355 (5th Cir. 1978) (en banc).
The exhaustion requirement, however, was profoundly affected by the procedural default
doctrine that was announced by the Supreme Court in Coleman v. Thompson, 501 U.S. 722 (1991).
The Court explained the doctrine as follows:
In all cases in which a state prisoner has defaulted his federal claims in state court
pursuant to an independent and adequate state procedural rule, federal habeas review
of the claims is barred unless the prisoner can demonstrate cause for the default and
actual prejudice as a result of the alleged violation of federal law, or demonstrate that
failure to consider the claims will result in a fundamental miscarriage of justice.
Id. at 750. As a result of Coleman, unexhausted claims in a mixed petition are ordinarily dismissed
as procedurally barred. Fearance v. Scott, 56 F.3d 633, 642 (5th Cir.), cert. denied, 515 U.S. 1153
(1995). See also Finley v. Johnson, 243 F.3d 215, 220 (5th Cir. 2001). Such unexhausted claims are
procedurally barred because if a petitioner attempted to exhaust them in state court, they would be
barred by Texas abuse-of-the-writ rules. Fearance, 56 F.3d at 642. The procedural bar may be
overcome by demonstrating either cause and prejudice for the default or that a fundamental miscarriage
of justice would result from the court’s refusal to consider the claim. Id. (citing Coleman, 501 U.S.
at 750-51). Dismissals pursuant to abuse of writ principles have regularly been upheld as a valid state
7

28a

Case 2:03-cv-00069-JRG-RSP Document 230 Filed 08/09/17 Page 8 of 21 PageID #: 4466

procedural bar foreclosing federal habeas review. See Moore v. Quarterman, 534 F.3d 454, 463 (5th
Cir. 2008); Hughes v. Quarterman, 530 F.3d 336, 342 (5th Cir. 2008), cert. denied, 556 U.S. 1239
(2009); Coleman v. Quarterman, 456 F.3d 537, 542 (5th Cir. 2006), cert. denied, 549 U.S. 1343
(2007).
In the case at bar, the TCCA dismissed Canales’s claim as an abuse of the writ without
consideration of the merits of the claim pursuant to Tex. Code Crim. Proc. Art. 11.071 § 5(c). Until
just recently, the claim would have undoubtedly been dismissed as procedurally barred in light of the
decision by the TCCA dismissing it as an abuse of the writ. However, the Supreme Court opened the
door slightly for a showing of cause and prejudice to excuse the default in Martinez and Trevino. In
Martinez, the Supreme Court answered a question left open in Coleman: “whether a prisoner has a
right to effective counsel in collateral proceedings which provide the first occasion to raise a claim of
ineffective assistance at trial.” 566 U.S. at 8 (citing Coleman, 501 U.S. at 755). The Court held:
Where, under state law, claims of ineffective assistance of trial counsel must be raised
in an initial-review collateral proceeding, a procedural default will not bar a federal
habeas court from hearing a substantial claim of ineffective assistance of counsel at
trial if, in the initial-review collateral proceeding, there was no counsel or counsel in
that proceeding was ineffective.
Id. at 17.
The Supreme Court extended Martinez to Texas in Trevino. Although Texas does not preclude
appellants from raising ineffective assistance of trial counsel claims on direct appeal, the Court held
that the rule in Martinez applies because “the Texas procedural system - as a matter of its structure,
design, and operation - does not offer most defendants a meaningful opportunity to present a claim of
ineffective assistance of trial counsel on direct appeal.” Trevino, 133 S. Ct. at 1921. The Court left
it to the lower courts to determine on remand whether Trevino’s claim of ineffective assistance of
counsel was substantial and whether his initial state habeas attorney was ineffective. Id.
The Fifth Circuit subsequently summarized the rule announced in Martinez and Trevino as
follows:
To succeed in establishing cause to excuse the procedural default of his ineffective
assistance of trial counsel claims, [petitioner] must show that (1) his underlying claims
of ineffective assistance of trial counsel are “substantial,” meaning that he “must
8

29a

Case 2:03-cv-00069-JRG-RSP Document 230 Filed 08/09/17 Page 9 of 21 PageID #: 4467

demonstrate that the claim[s] ha[ve] some merit,” Martinez, 132 S. Ct. at 1318; and (2)
his initial state habeas counsel was ineffective in failing to present those claims in his
first state habeas application. See id.; Trevino, 133 S. Ct. at 1921.
Preyor v. Stephens, 537 F. App’x 412, 421 (5th Cir. 2013), cert. denied, 134 S. Ct. 2821 (2014).
“Conversely, the petitioner’s failure to establish the deficiency of either attorney precludes a finding
of cause and prejudice.” Sells v. Stephens, 536 F. App’x 483, 492 (5th Cir. 2013), cert. denied, 134
S. Ct. 1786 (2014). The Fifth Circuit reaffirmed this basic approach in Reed v. Stephens, 739 F.3d
753, 774 (5th Cir.), cert. denied, 135 S. Ct. 435 (2014). The Fifth Circuit has also reiterated that a
federal court is barred from reviewing a procedurally defaulted claim unless a petitioner shows both
cause and actual prejudice. Hernandez v. Stephens, 537 F. App’x 531, 542 (5th Cir. 2013), cert.
denied, 134 S. Ct. 1760 (2014). To show actual prejudice, a petitioner “must establish not merely that
the errors at his trial created a possibility of prejudice, but that they worked to his actual and
substantial disadvantage, infecting his entire trial with error of constitutional dimensions.” Id.
(citations omitted) (emphasis in original).
2.

Cause
The Fifth Circuit discussed the issue of cause in the present case as follows:
We turn next to Canales’s claim that he received ineffective assistance of trial counsel
during the sentencing phase of his trial. Canales argues his trial counsel was ineffective
because he failed to thoroughly investigate and present mitigation evidence. He also
argues that the performance of his state habeas counsel fell below an objective standard
of reasonableness. Canales’s state habeas counsel did not conduct a mitigation
investigation due to a misunderstanding of funding for habeas investigations: his state
habeas counsel thought his funding was capped at $25,000, and so he only dedicated
$2,500 to investigation—and most of that went to issues related to innocence. Both
parties agree, however, that funding was not capped at $25,000.
First, we agree with Canales that the performance of his state habeas counsel fell below
an objective standard of reasonableness. The Supreme Court recently considered a
similar situation in which trial attorney failed to request additional funding to replace
an inadequate expert because of a mistaken belief about the amount of funding
available. Hinton v. Alabama, ––– U.S. ––––, 134 S.Ct. 1081, 1088, 188 L.Ed.2d 1
(2014) (per curiam). The Court held that the trial lawyer’s decisions “based not on any
strategic choice but on a mistaken belief that available funding was capped [at a certain
amount]” constituted deficient performance. Hinton, 134 S.Ct. at 1088–89. Similarly,
Canales’s state habeas counsel did not make a strategic choice to forego a mitigation
investigation. Instead, he chose not to pursue that claim in any depth because he
thought he could not receive any additional funding to pursue those claims.
Accordingly, his performance fell below an objective standard of reasonableness.
9

30a

Case 2:03-cv-00069-JRG-RSP Document 230 Filed 08/09/17 Page 10 of 21 PageID #: 4468

Canales, 765 F.3d at 569. The Fifth Circuit went on to observe that the “question then becomes
whether Canales can actually prove prejudice due to the deficient performance of his habeas counsel.”
Id. at 571 (emphasis in original). Thus, the case was remanded to this Court “to consider whether
Canales can prove prejudice as a result of his trial counsel’s deficient performance, and if so, to
address the merits of his habeas petition on this claim.” Id.
3.

Canales’s New Mitigating Evidence
In order to give Canales the opportunity to prove prejudice, the Court approved his motions

to retain Susan Herrero, Dr. Tora L. Brawley and Dr. Donna Maddox as experts. In his brief, Canales
initially provided an overview of their findings. Their reports (Dkt. #220) reveal a family history of
alcoholism, mental illness, and violence. Canales was born in Waukegan, Illinois on December 1,
1964. Canales’s father suffered from alcoholism and drug abuse. He abandoned the family when
Canales was 2 1/2 years old. His mother was left to live in poverty. She was an alcoholic and would
beat her children. She often neglected them. There were times when the family was homeless. For
a while, Canales lived with his maternal grandparents. His grandparents lived in poverty and were
alcoholics. His mother married Carlos Espinoza in 1971. They lived in Chicago. His mother and
Espinoza drank heavily. Espinoza physically and sexually abused Canales and his sister. Canales
turned to the streets in order to make money to assist his family by shining shoes and selling
newspapers at the young age of 8 or 9 years old. He subsequently joined the Latin Kings street gang.
Gang leaders gave him alcohol before school. By 1974, Canales had been shot during a drive- by
shooting. His sister, Elizabeth, recalled another incident where he was left all bloody in a ditch. His
mother sent him to live with his father in Houston. His father subsequently moved to Laredo, but he
did not take his son with him. Canales was abandoned in Houston. He was arrested at age 13 and
spent time in juvenile detention. In 1978, his mother left Espinoza and moved the family, including
Canales, to California. By age 18, Canales was living again in Houston with his mother, sisters, and
John Ramirez, his mother’s live-in boyfriend, another sexual predator. Canales was sent to prison for
stealing a check from Ramirez. After being paroled, he was sent back to prison for two sexual assault
offenses. While in prison, he joined the Texas Syndicate, a Latino prison gang.
10

31a

Case 2:03-cv-00069-JRG-RSP Document 230 Filed 08/09/17 Page 11 of 21 PageID #: 4469

Around 1992, after being paroled, Canales began dating Liz Hewitt, who lived at home and
came from a close, normal Catholic family. Her parents welcomed him into the family and treated him
as a son. His happiness came to an end, however, when his mother had an aneurysm, which caused
her to lose speech and motor functions. Canales’s life deteriorated, and he began using drugs. He was
never the same, and his parole was revoked.
In 1995, Canales suffered the first of three or four myocardial infarctions and was placed on
blood thinners and other medication. When the Texas Syndicate learned that he had a prior sexual
assault conviction and had been a member of the Latin Kings, the gang placed a hit on him. Unable
to defend himself because of his heart condition, Canales turned to another gang, the Texas Mafia. His
cellmate, Bruce Richards, was in the Texas Mafia, and he arranged for Canales to transfer to that gang.
The intercession by the Texas Mafia meant that Canales owed his life to the gang, and he was thus in
a vulnerable position of being under their control. That was Canales’s predicament at the time he
murdered Gary Dickerson in 1997.
In addition to presenting an overview of the mitigating evidence that could have been offered
during the punishment phase of the trial, Susan Herrero, a mitigation expert, provided a more in-depth
analysis of Canales’s life. She identified a number of significant factors impeding Canales’s
intellectual, cognitive, social, emotional and psychological development. These factors included
prenatal exposure to alcohol and parental alcoholism, poverty and homelessness, neglect, parental
rejection, abandonment, and physical and sexual abuse. Ms. Herrero observed that “parenting is
modeled,” and Canales grew up in an environment of alcoholics, who abused him. His step-father,
Carlos Espinoza, beat him and tried to sexually assault him when he was just six years old.
Following his arrest but before sentencing, Canales lived with his cousin, Michele. Michele
and her mother recalled Canales getting along well with Michele and her husband. Michele described
Canales as a “good hearted person,” and that he responded to the guidance and advice that she and her
husband gave to him. Her mother described him as “a lost boy who just needed some guidance.” Both
Michele and her mother agreed that Ramirez pushed for Canales’s prosecution to get him away from
his family.
11

32a

Case 2:03-cv-00069-JRG-RSP Document 230 Filed 08/09/17 Page 12 of 21 PageID #: 4470

Ms. Herrero obtained evidence that Canales began drinking alcohol and smoking cigarettes
when he was about nine or ten years old. Gang leaders gave him alcohol before school. He smoked
marijuana while going to school in Houston. Drugs were readily available while he was confined in
juvenile institutions. Ms. Herrero stated that he was an alcoholic by age fourteen. He was fired from
a job working for a record company after he had an accident while driving the band members. He was
reported being intoxicated and driving at 70 mph at the time of the accident.
Ms. Herrero observed that Canales’s early school records reveal that he made progress and
managed to remain in an appropriate grade level. Later records show that he was in sixth grade during
the 1976-77 school year, when he should have been in the seventh grade. On October 28, 1978, he
was in fifth grade in another school in Los Angeles, when he should have been in ninth grade. Other
records show that he attended eighth grade in Houston in 1978-79. During that year, he was
transferred to a seventh grade special education class for behavior disorder. He flunked out of Sam
Houston High School on March 12, 1980. His Iowa Test of Basic Skills, administered in April 1975,
while he was in fifth grade, revealed that he was reading on a third grade (3.0) level and his arithmetic
was at a second grade (2.7) level. On October 13, 1976, his Wechsler Intelligence Scale for Children
(“WISC”) scores showed a Verbal Score of 85, a Performance Score of 101 and a Full Scale Score of
91. Later, at almost eighteen years of age at the Brownwood State School, he completed his GED.
His scores were low in writing (16th percentile) and math (31st percentile).
Dr. Tora L. Brawley, a clinical psychologist, conducted an extended clinical interview and
neuropsychological test battery, which uncovered mild deficits in frontal lobe functioning, in particular
matrix reasoning and verbal fluency. The Court notes that she also found that his Full Scale IQ was
92 on the Wechsler Adult Intelligence Scale - Fourth Edition (“WAIS-IV”) (Dkt. #220-2 at 2). She
concluded that “Canales has had an improvement in overall cognitive functioning. He has been
undergoing a good deal of ‘self-teaching’ during the 23 years of his incarceration. He appears to
have benefitted significantly from the structured environment and the cessation of drug and
alcohol use.” Id. at 3.

12

33a

Case 2:03-cv-00069-JRG-RSP Document 230 Filed 08/09/17 Page 13 of 21 PageID #: 4471

Dr. Donna Maddox, a General and Forensic Psychiatrist, found that Canales has some
problems with concentration and language as well as deficits in short term memory. She found that
Canales suffered from Trauma and Stressor Related Disorder, consistent with PTSD. She came to the
following conclusions from her evaluation:
1.
2.
3.
4.
5.
6.
7.
8.

9.
10.

Canales has a history of exposure to trauma beginning by latency age.
He has had multiple exposure to traumatic events during his life.
He meets the criteria for PTSD and developed a comorbid substance abuse and mood
disorder.
Canales was incarcerated during his most recent offense.
At the time his health was poor.
Various documents note that his life had been threatened due to the nature of his prior
charges and involvement in a gang.
He was suffering from mental illness at the time of his offense.
A recent study comparing prisoners who were involved in street gangs compared to
prisoners who were not involved in street gangs reveal that prisoners who were
involved in street gangs had more exposure to violence, symptoms of PTSD, paranoia,
anxiety and forced behavioral control. Wood, Jane L. and Dennard, Sophie (2016)
Gang membership: links to violence exposure, paranoia, PTSD, anxiety and forced
control of behavior in prison. Psychiatry: Interpersonal and Biological Processes.
ISSN 0033-2747. (In press)
Canales has never had treatment for his PTSD nor his mood symptoms.
Canales has a medical condition and prescribed medication (Metroprolol) which are
associated with depression.

Dkt. #220-3 at 15-16.
In light of the reports provided by Susan Herrero, Dr. Tora L. Brawley, and Dr. Donna
Maddox, Canales discusses how this new mitigation evidence could have been used to rebut the State’s
case for future dangerousness. He observes that the State’s case during the penalty phase focused on
his violent actions and threats while incarcerated and as a member of the Texas Mafia to establish
future dangerousness. The case is made that the mitigating evidence of his mental illness, his lifethreatening heart conditions and factors about gang life in the Texas prisons would have provided
necessary context to understand the offense and to simultaneously diminish the strength of the State’s
case.
Canales places special emphasis on circumstances surrounding the murder of Gary Dickerson,
particularly with respect to gang activities in the Texas prison system. He notes that he was a member
of the Texas Syndicate gang while in prison in the mid-1980s. The Texas Syndicate gang included
Mexicans, Whites and Chicanos. The Texas Mafia formed as a “cousin” to the Texas Syndicate. The
13

34a

Case 2:03-cv-00069-JRG-RSP Document 230 Filed 08/09/17 Page 14 of 21 PageID #: 4472

Texas Mafia had mostly white inmates and included many former Aryan Brotherhood gang members
and other white supremacists. The Texas Mafia engaged in criminal money-making ventures such as
selling tobacco and other contraband. The two gangs were close.
Canales returned to prison and became cellmates with Bruce Richards, a leader of the Texas
Mafia. Canales was especially vulnerable after suffering a heart attack in 1995. He used nitroglycerine
under his tongue. He bruised easily, and if he even pricked himself, he would bleed for hours. As a
result, he avoided fights.
Around this time, Texas Syndicate leaders learned that Canales had been a member of the Latin
Kings and had two prior sexual assault convictions. The Texas Syndicate ordered a hit on Canales.
Canales confided in Bruce Richards about his problems with the Texas Syndicate. Because Richards
had become friends with Canales, he decided to intervene. Richards approached the leader of the
Texas Syndicate and offered to take Canales into the Texas Mafia. In turn, Richards owed the
Syndicate a favor. This favor resulted in the murder of Gary Dickerson.
Gary Dickerson, another prisoner, learned about the tobacco-smuggling operation run by the
Texas Mafia. He threatened to expose it if he did not receive payment. According to Richards,
Dickerson was seen as a danger and had to be punished. After the Dickerson murder, Richards ordered
Canales and Speers to write to Bruce Innes to exaggerate their role in the murder. Richards hoped to
impress Innes to recruit him. Innes had money, and if he could recruit Innes, Richards could get his
money. Richards also pointed out that Canales and Speers were new recruits and had to follow his
orders. Richards explained: “If [Canales] refused to do what I told him I would have sent him back
to the Texas Syndicate, and he would be killed. I saved his life and he owed me.” Dkt. #220-1 at 72.
Canales also understood that Doyle Hill, another leader of the largely white supremacist Texas Mafia,
was after him. Facing danger from the Texas Syndicate and from a leader of the Texas Mafia and
being “unable to fight a lick after his heart attack,” “[Canales] was willing to do whatever it took to
get these hits off of him to save his life.” Id. at 76.
Canales argues that, in addition to providing context about the circumstances surrounding the
offense, trial counsel could have presented expert evidence about the well-established security
14

35a

Case 2:03-cv-00069-JRG-RSP Document 230 Filed 08/09/17 Page 15 of 21 PageID #: 4473

measures for those sentenced to life imprisonment. According to Steve Martin, a former consultant
with the Texas Attorney General’s Office and a former Legal Counsel, General Counsel, and Executive
Assistant with the Texas Department of Corrections, inmates receiving a life sentence are placed in
the most secure housing, under security conditions “essentially identical to those on Texas’ death row.”
Dkt. #7, Exhibit 30. Canales argues that a thorough investigation of his medical and psychological
condition as well as an investigation of the context of the murders would have diminished the strength
of the State’s case and placed his involvement in the murder in a very different context.
4.

Ineffective Assistance of Counsel
The standard for evaluating ineffective assistance of counsel claims was established by the

Supreme Court in Strickland v. Washington, 466 U.S. 668 (1994). Strickland provides a two-pronged
standard, and a petitioner bears the burden of proving both prongs. 466 U.S. at 687. Under the first
prong, he must show that counsel’s performance was deficient.

Id.

To establish deficient

performance, he must show that “counsel’s representation fell below an objective standard of
reasonableness,” with reasonableness judged under professional norms prevailing at the time counsel
rendered assistance. Id. at 688. Under the second prong, the petitioner must show that his attorney’s
deficient performance resulted in prejudice. Id. at 687. To satisfy the prejudice prong, the habeas
petitioner “must show that there is a reasonable probability that, but for counsel’s unprofessional
errors, the result of the proceeding would have been different. A reasonable probability is a probability
sufficient to undermine confidence in the outcome.” Id. at 694. An ineffective assistance of counsel
claim fails if a petitioner cannot satisfy either the deficient performance or prejudice prong; a court
need not evaluate both if he makes an insufficient showing as to either. Id. at 697. The Strickland
standard applies to ineffective assistance of counsel claims in the context of Martinez and Trevino.
See Martinez, 566 U.S. at 14.
Canales specifically argues that his attorneys were ineffective in failing to discharge their duty
of conducting an investigation into his life; thus, they failed to uncover powerful mitigating evidence.
The case law is abundantly clear that “in the context of a capital sentencing proceeding, defense
counsel has the obligation to conduct a ‘reasonably substantial, independent investigation’ into
15

36a

Case 2:03-cv-00069-JRG-RSP Document 230 Filed 08/09/17 Page 16 of 21 PageID #: 4474

potential mitigating circumstances.” Neal v. Puckett, 286 F.3d 230, 236-37 (5th Cir. 2002) (quoting
Baldwin v. Maggio, 704 F.2d 1325, 1332-33 (5th Cir. 1983)), cert. denied, 537 U.S. 1104 (2003). See
also Woods v. Thaler, 399 F. App’x 884, 891 (5th Cir. 2010), cert. denied, 563 U.S. 991 (2011).
“Mitigating evidence that illustrates a defendant’s character or personal history embodies a
constitutionally important role in the process of individualized sentencing, and the ultimate
determination of whether the death penalty is an appropriate punishment.” Riley v. Cockrell, 339 F.3d
308, 316 (5th Cir.2003) (citation omitted), cert. denied, 543 U.S. 1056 (2005). In assessing whether
counsel’s performance was deficient, courts look to such factors as what counsel did to prepare for
sentencing, what mitigation evidence he had accumulated, what additional “leads” he had, and what
results he might reasonably have expected from those leads.

Neal, 286 F.3d at 237.

The

reasonableness of counsel’s investigation involves “not only the quantum of evidence already known
to counsel, but also whether the known evidence would lead a reasonable attorney to investigate
further.” Wiggins, 539 U.S. at 527. “[C]ounsel should consider presenting . . . [the defendant’s]
medical history, educational history, employment and training history, family and social history, prior
adult and juvenile correctional experience, and religious and cultural influences.” Id. at 524 (citing
ABA Guidelines for the Appointment and Performance of Counsel in Death Penalty Cases § 11.8.6,
at 133 (1989)). The Supreme Court stressed in Wiggins that the “investigation into mitigating evidence
should comprise efforts to discover all reasonably available mitigating evidence.” Id. (emphasis in
original). As was previously noted, the Fifth Circuit has already found that counsel’s representation
fell below an objective standard of reasonableness. Canales, 765 F.3d at 569.
The issue before the Court is prejudice. The Fifth Circuit remanded the case in order to
determine “whether Canales can actually prove prejudice.” Canales, 765 F.3d at 571. In reviewing
the issue of prejudice at capital sentencing, courts must reweigh the quality and quantity of the
available mitigating evidence, including that presented in post-conviction proceedings, against the
aggravating evidence. Williams v. Taylor, 529 U.S. 362, 397-98 (2000); Blanton v. Quarterman, 543
F.3d 230, 236 (5th Cir. 2008), cert. denied, 556 U.S. 1240 (2009). “In evaluating that question, it is
necessary to consider all the relevant evidence that the jury would have had before it if [the petitioner]
16

37a

Case 2:03-cv-00069-JRG-RSP Document 230 Filed 08/09/17 Page 17 of 21 PageID #: 4475

had pursued the different path - not just the mitigation evidence [the petitioner] could have presented,
but also the . . . evidence that almost certainly would have come with it.” Wong v. Belmontes, 558
U.S. 15, 20 (2009) (emphasis in original). After reweighing all the mitigating evidence against the
aggravating, a court must determine whether the petitioner “has shown that, had counsel presented all
the available mitigating evidence, there is a reasonable probability that a juror would have found that
the mitigating evidence outweighed the aggravating evidence.” Gray v. Epps, 616 F.3d 436, 442 (5th
Cir. 2010) (quoting Wiggins, 539 U.S. at 534), cert. denied, 563 U.S. 905 (2011). “The likelihood of
a different result must be substantial, not just conceivable.” Harrington v. Richter, 562 U.S. 86, 112
(2011) (citing Strickland, 466 U.S. at 693). “[T]here is no prejudice when the new mitigating evidence
‘would barely have altered the sentencing profile presented’ to the decisionmaker.” Sears v. Upton,
561 U.S. 945, 954 (2010) (citing Strickland, 466 U.S. at 700). The inquiry requires a court to engage
in a “probing and fact-specific analysis.” Id. at 955. The Strickland standard in analyzing the
prejudice prong “necessarily requires a court to ‘speculate’ as to the effect of the new evidence regardless of how much or how little mitigation evidence was presented during the initial penalty
phase.” Id. at 956.
In the present case, having reweighed all of the mitigating evidence against the aggravating
evidence, the Court finds that the aggravating evidence far outweighs the mitigating evidence. The
murder itself was cold and calculated. It was a heinous gang related murder of a prisoner by other
prisoners. Gang leaders ordered Canales and others to kill the victim because the gang had a
financial stake in contraband. Under Texas substantive law, the circumstances of the charged
offense were sufficient to support an affirmative finding of future dangerousness. White v.
Dretke, 126 F. App’x 173, 177 (5th Cir.), cert. denied, 546 U.S. 940 (2005). The aggravating
evidence also revealed a habitual criminal, who had a conviction for theft and two convictions for
sexual assault. The facts surrounding his Bexar County sexual assault conviction reveal that he
threatened to kill the victim--at both the time of the rape and later while confined in jail awaiting
trial. Furthermore, while waiting to go to trial in the present case, he asked inmate Bruce Innis to

17

38a

Case 2:03-cv-00069-JRG-RSP Document 230 Filed 08/09/17 Page 18 of 21 PageID #: 4476

arrange for the murder of inmate Larry Whited, whom Canales suspected of cooperating with
investigators. The three letters written by Canales reveal a cold and callous murderer.
The mitigating evidence presented at trial showed that Canales was not troublesome and that
he had an aptitude for art. There was testimony that his mother was dead and that he had few visits
from family. One inmate testified that he had seen Canales try to stop inmates from fighting. The
additional mitigating evidence presented during these proceedings show that Canales had prenatal
exposure to alcohol and parental alcoholism, poverty and homelessness, neglect, parental rejection,
abandonment, and physical and sexual abuse. His Full Scale IQ score on one test was 91 and 92 on
another. He did not complete school, but completed his GED at Brownwood State School. The
additional evidence delved further into his gang activities. At one time, he was a member of the Texas
Syndicate, who placed a hit on him. He then joined the Texas Mafia and participated in the murder
of Gary Dickerson. Prior to the murder, he had a heart attack and was dependent on the gang.
Canales argues that this additional evidence provides proper context to the circumstances
surrounding the offense. The Director argues, in response, that the new mitigating evidence was
“double-edged” and “[m]itigation, after all, may be in the eye of the beholder.” Martinez v. Cockrell,
481 F.2d 249, 258 (5th Cir. 2007) (quoting Burger v. Kemp, 483 U.S. 776, 794 (1987)), cert. denied,
552 U.S. 1146 (2008). He further argues that even though the post-conviction evidence of poverty,
abuse, and neglect is compelling, it does not outweigh the aggravating evidence in this case. In reply,
Canales observes that the Fifth Circuit has rejected the notion that a case with substantial evidence in
aggravation can never be mitigated. Walbey v. Quarterman, 309 F. App’x 795, 804 (5th Cir. 2009).
Viewed collectively, the reports presented by Ms. Herrero, Dr. Brawley and Dr. Maddox
present a wealth of double-edged evidence, including evidence of gang violence, alcohol, drugs, and
physical and sexual abuse. The Fifth Circuit has observed that evidence of “brain injury, abusive
childhood, and drug and alcohol problems is all ‘double-edged.’ In other words, even if his recent
claims about this evidence is true, it could all be read by the jury to support, rather than detract, from
his future dangerousness claim.” Johnson v. Cockrell, 306 F.3d 249, 253 (5th Cir. 2002), cert. denied,

18

39a

Case 2:03-cv-00069-JRG-RSP Document 230 Filed 08/09/17 Page 19 of 21 PageID #: 4477

538 U.S. 926 (2003). Canales’s history of heart disease, while compelling, is also doubled-edged in
that it contributed to his act of murdering the victim in order to be protected by the Texas Mafia.
Having reweighed all of the mitigating evidence, both old and new, against the aggravating
evidence, the Court is of the opinion, and so finds, that there is no reasonable probability that a juror
would have found that the mitigating evidence outweighed the aggravating evidence. The following
conclusion by the Fifth Circuit is equally applicable to the present case: “the additional mitigating
evidence was not so compelling, especially in light of the horrific facts of the crime, that the sentencer
would have found a death sentence unwarranted.” Martinez, 481 F.2d at 259. Canales has not proven
prejudice. He has not shown that he is entitled to federal habeas corpus relief.
As a final matter, the Director appropriately argues that Canales’s ineffective assistance of trial
counsel claim remains procedurally barred in light of his inability to prove prejudice under Coleman.
The Fifth Circuit held that “[t]o excuse the procedural default fully, Canales would then be required
to prove that he suffered prejudice from the ineffective assistance of his trial counsel.” Canales, 765
F.3d at 568 (citing Martinez, 566 U.S. at 18). Canales has not shown prejudice in order to excuse the
procedural default. Overall, Canales has not shown prejudice under Strickland on the merits of his
ineffective assistance of trial counsel claim and, concomitantly, has not shown prejudice in order to
excuse the procedural default. Canales is not entitled to federal habeas corpus relief.
Certificate of Appealability
An appeal may not be taken to the court of appeals from a final order issued in a federal habeas
corpus proceeding “unless a circuit justice or judge issues a certificate of appealability.” 28 U.S.C.
§ 2253(c)(1)(A). Although Canales has not yet filed a notice of appeal, it is respectfully recommended
that this Court, nonetheless, address whether he would be entitled to a certificate of appealability. See
Alexander v. Johnson, 211 F.3d 895, 898 (5th Cir. 2000) (A district court may sua sponte rule on a
certificate of appealability because “the district court that denies a petitioner relief is in the best
position to determine whether the petitioner has made a substantial showing of a denial of a
constitutional right on the issues before the court. Further briefing and argument on the very issues
the court has just ruled on would be repetitious.”).
19

40a

Case 2:03-cv-00069-JRG-RSP Document 230 Filed 08/09/17 Page 20 of 21 PageID #: 4478

A certificate of appealability may issue only if a petitioner has made a substantial showing of
the denial of a constitutional right. 28 U.S.C. § 2253(c)(2). The Supreme Court fully explained the
requirement associated with a “substantial showing of the denial of a constitutional right” in Slack v.
McDaniel, 529 U.S. 473, 484 (2000). In cases where a district court rejected a petitioner’s
constitutional claims on the merits, “the petitioner must demonstrate that reasonable jurists would find
the district court’s assessment of the constitutional claims debatable or wrong.” Id.; Henry v.
Cockrell, 327 F.3d 429, 431 (5th Cir. 2003). “When a district court denies a habeas petition on
procedural grounds without reaching the petitioner’s underlying constitutional claim, a COA should
issue when the petitioner shows, at least, that jurists of reason would find it debatable whether the
petition states a valid claim of the denial of a constitutional right and that jurists of reason would find
it debatable whether the district court was correct in its procedural ruling.” Id.
In this case, it is respectfully recommended that reasonable jurists could not debate the denial
of Canales’s § 2254 petition on procedural or substantive grounds, nor find that the issues presented
are adequate to deserve encouragement to proceed. Miller-El v. Cockrell, 537 U.S. 322, 327 (2003)
(citing Slack, 529 U.S. at 484). Accordingly, it is respectfully recommended that the Court find that
Canales is not entitled to a certificate of appealability as to his claims.
Recommendation
It is accordingly recommended that the petition for a writ of habeas corpus be denied and the
case be dismissed with prejudice. A certificate of appealability should be denied.
Within fourteen (14) days after receipt of the magistrate judge’s report, any party may serve
and file written objections to the findings and recommendations contained in the report.
A party’s failure to file written objections to the findings, conclusions and recommendations
contained in this Report within fourteen days after being served with a copy shall bar that party from
de novo review by the district judge of those findings, conclusions and recommendations and, except
on grounds of plain error, from appellate review of unobjected-to factual findings and legal
conclusions accepted and adopted by the district court. Douglass v. United Servs. Auto Ass’n., 79 F.3d

20

41a

Case 2:03-cv-00069-JRG-RSP Document 230 Filed 08/09/17 Page 21 of 21 PageID #: 4479

1415, 1430 (5th Cir. 1996) (en banc), superseded by statute on other grounds, 28 U.S.C. § 636(b)(1)
(extending the time to file objections from ten to fourteen days).
SIGNED this 3rd day of January, 2012.
SIGNED this 9th day of August, 2017.

____________________________________
ROY S. PAYNE
UNITED STATES MAGISTRATE JUDGE

21

42a

Case 2:03-cv-00069-JRG-RSP Document 237 Filed 09/27/17 Page 1 of 23 PageID #: 4520

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
MARSHALL DIVISION

ANIBAL CANALES, JR., #999366,
Petitioner,
VS.
DIRECTOR, TDCJ-CID,
Respondent.

§
§
§
§
§
§
§
§
§

CIVIL ACTION NO. 2:03cv69

ORDER OF DISMISSAL
Petitioner Anibal Canales, Jr., a death row inmate confined in the Texas Department of
Criminal Justice, Correctional Institutions Division, filed the above-styled and numbered petition
for a writ of habeas corpus pursuant to 28 U.S.C. § 2254. He is challenging his Bowie County
conviction and death sentence for capital murder.
On August 29, 2014, the United States Court of Appeals for the Fifth Circuit remanded
Canales’s claim that he received ineffective assistance of counsel during the sentencing phase of
the trial. Canales v. Stephens, 765 F.3d 551, 559 (5th Cir. 2014). The claim was remanded for
further consideration in light of the United States Supreme Court’s recent decisions in Martinez v.
Ryan, 566 U.S. 1 (2012), and Trevino v. Thaler, 569 U.S. ___, 133 S. Ct. 1911 (2013). The petition
was referred to the Honorable Roy S. Payne, United States Magistrate Judge, who issued a Report
and Recommendation (Dkt. #230) concluding that the petition should be denied. Canales has filed
objections (Dkt. # 236). Having conducted a de novo review of the record and pleadings, the Court
overrules Canales’s objections, and adopts the Magistrate Judge’s findings, conclusions, and
recommendations for reasons set forth below.

1

43a

Case 2:03-cv-00069-JRG-RSP Document 237 Filed 09/27/17 Page 2 of 23 PageID #: 4521

Procedural History
Canales was sentenced to death for the capital murder of Gary Dickerson, a fellow inmate.
The conviction was affirmed on direct appeal. Canales v. State, 98 S.W.3d 690 (Tex. Crim. App.),
cert. denied, 540 U.S. 1051 (2003). His initial application for a writ of habeas corpus filed in state
court was denied on the merits. Ex parte Canales, No. WR-54,789-01 (Tex. Crim. App. March
12, 2003) (unpublished).
On November 29, 2004, Canales filed the present petition, raising thirteen separate grounds
for relief. On March 23, 2007, the Court stayed the proceedings in order to give Canales the
opportunity to present his unexhausted claims to the state court system. The Texas Court of
Criminal Appeals (“TCCA”) dismissed his subsequent state application as an abuse of the writ.
Ex parte Canales, No. WR-54,789-02, 2008 WL 383804 (Tex. Crim. App. Feb. 13, 2008).
Canales returned to this Court. On August 24, 2012, the Court dismissed Canales’s first,
second, fifth, sixth, seventh, eighth, tenth, eleventh and twelfth claims with prejudice as
procedurally defaulted and denied his third, fourth, ninth and thirteenth claims on the merits. The
Fifth Circuit remanded Canales’s claim that he received ineffective assistance of counsel during
the sentencing phase of the trial. Canales, 765 F.3d at 559. This Court’s decision regarding his
remaining claims was affirmed. Id.
Basis for Remand
The Fifth Circuit discussed the basis for remand as follows:
We turn next to Canales’s claim that he received ineffective assistance of trial
counsel during the sentencing phase of his trial. Canales argues his trial counsel
was ineffective because he failed to thoroughly investigate and present mitigation
evidence. He also argues that the performance of his state habeas counsel fell below
an objective standard of reasonableness. Canales’s state habeas counsel did not
conduct a mitigation investigation due to a misunderstanding of funding for habeas
investigations: his state habeas counsel thought his funding was capped at $25,000,
and so he only dedicated $2,500 to investigation—and most of that went to issues
2

44a

Case 2:03-cv-00069-JRG-RSP Document 237 Filed 09/27/17 Page 3 of 23 PageID #: 4522

related to innocence. Both parties agree, however, that funding was not capped at
$25,000.
First, we agree with Canales that the performance of his state habeas counsel fell
below an objective standard of reasonableness. The Supreme Court recently
considered a similar situation in which trial attorney failed to request additional
funding to replace an inadequate expert because of a mistaken belief about the
amount of funding available. Hinton v. Alabama, ––– U.S. ––––, 134 S. Ct. 1081,
1088, 188 L.Ed.2d 1 (2014) (per curiam). The Court held that the trial lawyer’s
decisions “based not on any strategic choice but on a mistaken belief that available
funding was capped [at a certain amount]” constituted deficient performance.
Hinton, 134 S. Ct. at 1088–89. Similarly, Canales’s state habeas counsel did not
make a strategic choice to forego a mitigation investigation. Instead, he chose not
to pursue that claim in any depth because he thought he could not receive any
additional funding to pursue those claims. Accordingly, his performance fell below
an objective standard of reasonableness.
Canales, 765 F.3d at 569. The Fifth Circuit went on to observe that the “question then becomes
whether Canales can actually prove prejudice due to the deficient performance of his habeas
counsel.” Id. at 571 (emphasis in original). Thus, the case was remanded to this Court “to consider
whether Canales can prove prejudice as a result of his trial counsel’s deficient performance, and if
so, to address the merits of his habeas petition on this claim.” Id.
Legal Standard
The claim remanded by the Fifth Circuit was not presented to the TCCA on direct appeal
or in the initial state habeas corpus proceedings. It was one of the claims that Canales presented
to the TCCA in his second application for a writ of habeas corpus, which was dismissed as an
abuse of the writ pursuant to Tex. Code Crim. Proc. Art. 11.071 § 5 (c). Ex parte Canales, 2008
WL 383804, at *1. This Court accordingly dismissed the claim as procedurally defaulted.
The procedural default doctrine was announced by the Supreme Court in Coleman v.
Thompson, 501 U.S. 722 (1991). The Court explained the doctrine as follows:
In all cases in which a state prisoner has defaulted his federal claims in state court
pursuant to an independent and adequate state procedural rule, federal habeas
review of the claims is barred unless the prisoner can demonstrate cause for the
3

45a

Case 2:03-cv-00069-JRG-RSP Document 237 Filed 09/27/17 Page 4 of 23 PageID #: 4523

default and actual prejudice as a result of the alleged violation of federal law, or
demonstrate that failure to consider the claims will result in a fundamental
miscarriage of justice.
Id. at 750. Dismissals pursuant to abuse of writ principles have regularly been upheld as a valid
state procedural bar foreclosing federal habeas review. See Moore v. Quarterman, 534 F.3d 454,
463 (5th Cir. 2008); Hughes v. Quarterman, 530 F.3d 336, 342 (5th Cir. 2008), cert. denied, 556
U.S. 1239 (2009); Coleman v. Quarterman, 456 F.3d 537, 542 (5th Cir. 2006), cert. denied, 549
U.S. 1343 (2007). The procedural bar may be overcome by demonstrating “cause for the default
and actual prejudice as a result of the alleged violation of federal law, or demonstrates that failure
to consider the claims will result in a fundamental miscarriage of justice.” Coleman, 501 U.S. at
750.
In the case at bar, the TCCA dismissed Canales’s claim as an abuse of the writ without
consideration of the merits of the claim pursuant to Tex. Code Crim. Proc. Art. 11.071 § 5(c).
Until just recently, the claim would have undoubtedly been dismissed as procedurally barred in
light of the decision by the TCCA dismissing it as an abuse of the writ. However, the Supreme
Court opened the door slightly for a showing of cause and prejudice to excuse the default in
Martinez and Trevino. In Martinez, the Supreme Court answered a question left open in Coleman:
“whether a prisoner has a right to effective counsel in collateral proceedings which provide the
first occasion to raise a claim of ineffective assistance at trial.” 566 U.S. at 8 (citing Coleman, 501
U.S. at 755). The Court held:
Where, under state law, claims of ineffective assistance of trial counsel must be
raised in an initial-review collateral proceeding, a procedural default will not bar a
federal habeas court from hearing a substantial claim of ineffective assistance of
counsel at trial if, in the initial-review collateral proceeding, there was no counsel
or counsel in that proceeding was ineffective.
Id. at 17.

4

46a

Case 2:03-cv-00069-JRG-RSP Document 237 Filed 09/27/17 Page 5 of 23 PageID #: 4524

The Supreme Court extended Martinez to Texas in Trevino. Although Texas does not
preclude appellants from raising ineffective assistance of trial counsel claims on direct appeal, the
Court held that the rule in Martinez applies because “the Texas procedural system - as a matter of
its structure, design, and operation - does not offer most defendants a meaningful opportunity to
present a claim of ineffective assistance of trial counsel on direct appeal.” Trevino, 133 S. Ct. at
1921. The Court left it to the lower courts to determine on remand whether Trevino’s claim of
ineffective assistance of counsel was substantial and whether his initial state habeas attorney was
ineffective. Id.
The Fifth Circuit subsequently summarized the rule announced in Martinez and Trevino as
follows:
To succeed in establishing cause to excuse the procedural default of his ineffective
assistance of trial counsel claims, [petitioner] must show that (1) his underlying
claims of ineffective assistance of trial counsel are “substantial,” meaning that he
“must demonstrate that the claim[s] ha[ve] some merit,” Martinez, 132 S. Ct. at
1318; and (2) his initial state habeas counsel was ineffective in failing to present
those claims in his first state habeas application. See id.; Trevino, 133 S. Ct. at
1921.
Preyor v. Stephens, 537 F. App’x 412, 421 (5th Cir. 2013), cert. denied, 134 S. Ct. 2821 (2014).
“Conversely, the petitioner’s failure to establish the deficiency of either attorney precludes a
finding of cause and prejudice.” Sells v. Stephens, 536 F. App’x 483, 492 (5th Cir. 2013), cert.
denied, 134 S. Ct. 1786 (2014). The Fifth Circuit reaffirmed this basic approach in Reed v.
Stephens, 739 F.3d 753, 774 (5th Cir.), cert. denied, 135 S. Ct. 435 (2014). The Fifth Circuit has
also reiterated that a federal court is barred from reviewing a procedurally defaulted claim unless
a petitioner shows both cause and actual prejudice. Hernandez v. Stephens, 537 F. App’x 531, 542
(5th Cir. 2013), cert. denied, 134 S. Ct. 1760 (2014). To show actual prejudice, a petitioner “must
establish not merely that the errors at his trial created a possibility of prejudice, but that they

5

47a

Case 2:03-cv-00069-JRG-RSP Document 237 Filed 09/27/17 Page 6 of 23 PageID #: 4525

worked to his actual and substantial disadvantage, infecting his entire trial with error of
constitutional dimensions.” Id. (citations omitted) (emphasis in original).
Discussion and Analysis
Canales is seeking relief pursuant to Wiggins v. Smith, 539 U.S. 510 (2003). The Supreme
Court found that counsel’s investigation into mitigating evidence “should comprise efforts to
discover all reasonably available mitigating evidence.” Id. at 524 (emphasis in original). The
Fifth Circuit has already determined that counsel’s representation fell below an objective standard
of reasonableness on this issue. Canales, 765 F.3d at 569. The Fifth Circuit remanded the case in
order to determine “whether Canales can actually prove prejudice.” Id. at 571. In reviewing the
issue of prejudice at capital sentencing, courts must reweigh the quality and quantity of the
available mitigating evidence, including that presented in post-conviction proceedings, against the
aggravating evidence. Williams v. Taylor, 529 U.S. 362, 397-98 (2000); Blanton v. Quarterman,
543 F.3d 230, 236 (5th Cir. 2008), cert. denied, 556 U.S. 1240 (2009). “In evaluating that question,
it is necessary to consider all the relevant evidence that the jury would have had before it if [the
petitioner] had pursued the different path - not just the mitigation evidence [the petitioner] could
have presented, but also the . . . evidence that almost certainly would have come with it.” Wong
v. Belmontes, 558 U.S. 15, 20 (2009) (emphasis in original). After reweighing all the mitigating
evidence against the aggravating, a court must determine whether the petitioner “has shown that,
had counsel presented all the available mitigating evidence, there is a reasonable probability that
a juror would have found that the mitigating evidence outweighed the aggravating evidence.”
Gray v. Epps, 616 F.3d 436, 442 (5th Cir. 2010), cert. denied, 563 U.S. 905 (2011).

6

48a

Case 2:03-cv-00069-JRG-RSP Document 237 Filed 09/27/17 Page 7 of 23 PageID #: 4526

1.

State’s Evidence During the Punishment Phase of the Trial
The State’s evidence during the punishment phase of the trial consisted of documentary

evidence, along with the testimony of Suzanne Hartbarger and Bruce Innis. The documentary
evidence included the pen packets showing Canales’s prior convictions. His prior convictions
included a five year sentence for theft, State v. Canales, No. 84CR-0012 (290th Dist. Ct., Bexar
County, Tex. April 23, 1984); a fifteen year sentence for sexual assault, State v. Canales, No.
83CR-3030 (290th Dist. Ct., Bexar County, Tex. March 12, 1984); and a fifteen year sentence for
aggravated sexual assault, State v. Canales, No. 93-CR-2039-G (319th Dist. Ct., Nueces County,
Tex. Jan. 6, 1995). The documentary evidence was admitted without objection. 12 RR 11.1
The victim of the Bexar County sexual assault testified that she was a student at San
Antonio College at the time of the assault. Canales approached her in a parking lot near the college,
showed her a badge, told her that he was a police officer, and said he was investigating a drug-sale
in which she had been named. 12 RR 12-13. He told her that she was going to jail. She got out
of her car, he got in the driver’s side, and he said he would drive her to the jail. Rather than driving
to the jail, Canales drove around. At some point in time, she realized that he was not a police
officer. 12 RR 13. She told him that she was going to jump out of the car. 12 RR 14. He
responded by telling her that he would “blow [her] away” if she jumped out of the car. Id. She
believed that he might have a gun. After stopping the car, he walked her into the woods and raped
her. 12 RR 16. She discussed the rape as follows:
He raped me. He had intercourse with me, and at the time -- and at the time it was
happening -- I had a cross in my hand and I was praying, ‘To our Father’ out loud
so -- it happened to me, but I felt I was shielded by God, because when I looked at
him as I was praying, I just saw like the devil in him.

1

“RR” refers to the reporter’s record of the transcribed testimony during the trial, preceded by the volume number and
followed by the page number. “CR” refers to the clerk’s record on direct appeal, followed by the page number.

7

49a

Case 2:03-cv-00069-JRG-RSP Document 237 Filed 09/27/17 Page 8 of 23 PageID #: 4527

12 RR 16. When he finished, he told her “you’d better not tell, or I’ll kill you.” 12 RR 17. He
drove off in her car with her “car keys, address book, house keys, everything.” Id. As for the
effect of the rape, the victim made the following statement to the jury:
It has made me bitter, and has weakened me, because I didn’t think I would ever
have to open up this door again, and I had to, and it has weakened me to somebody
I don’t want to be - didn’t want to because, you know. It just made me a weaker
person. I just feel weak, like I don’t have any - I don’t know how to explain it.
12 RR 17-18. On cross-examination, she testified that he called her house threatening to kill her
if she testified against him. 12 RR 20.
Inmate Bruce Innis testified that Canales wrote to him shortly before the trial. Canales
believed that Innis was still a member of the Texas Mafia prison gang, and he did not know that
Innis was planning to testify against him. 12 RR 22. Innis testified that Canales had sent him a
coded letter in which he asked Innis to arrange for the murder of inmate Larry Whited, whom
Canales suspected of cooperating with investigators. 12 RR 23-25.
The record also shows that the victim of the aggravated sexual assault in the early 1990s
did not testify. Among other reasons, it was explained that she did not communicate well in
English. 12 RR 8.
2.

Defense Evidence During the Punishment Phase of the Trial
The defense called seven witnesses in behalf of Canales, including inmates and officers.

They testified that Canales was not troublesome and had an aptitude for art. The defense also
elicited testimony that Canales’s mother was dead and that he received few visits from family. It
is noted that one inmate testified that he had seen Canales trying to stop inmates from fighting. 12
RR 56.
The docket sheet reveals that the jury started deliberating at 10:00 a.m. on November 1,
2000. CR at 12. A verdict was returned on that same day at 11:45. Id.
8

50a

Case 2:03-cv-00069-JRG-RSP Document 237 Filed 09/27/17 Page 9 of 23 PageID #: 4528

3.

Canales’s New Mitigating Evidence
In order to give Canales the opportunity to prove prejudice, the Court approved his motions

to retain Susan Herrero, Dr. Tora L. Brawley and Dr. Donna Maddox as experts. In his brief,
Canales initially provided an overview of their findings. Their reports (Dkt. #220) reveal a family
history of alcoholism, mental illness, and violence. Canales was born in Waukegan, Illinois on
December 1, 1964. Canales’s father suffered from alcoholism and drug abuse. He abandoned the
family when Canales was 2 1/2 years old. His mother was left to live in poverty. She was an
alcoholic and would beat her children. She often neglected them. There were times when the
family was homeless. For a while, Canales lived with his maternal grandparents. His grandparents
lived in poverty and were alcoholics. His mother married Carlos Espinoza in 1971. They lived in
Chicago. His mother and Espinoza drank heavily. Espinoza physically and sexually abused
Canales and his sister. Canales turned to the streets in order to make money to assist his family
by shining shoes and selling newspapers at the young age of 8 or 9 years old. He subsequently
joined the Latin Kings street gang. Gang leaders gave him alcohol before school. By 1974,
Canales had been shot during a drive-by shooting. His sister, Elizabeth, recalled another incident
where he was left all bloody in a ditch. His mother sent him to live with his father in Houston.
His father subsequently moved to Laredo, but he did not take his son with him. Canales was
abandoned in Houston. He was arrested at age 13 and spent time in juvenile detention. In 1978,
his mother left Espinoza and moved the family, including Canales, to California. By age 18,
Canales was living again in Houston with his mother, sisters, and John Ramirez, his mother’s livein boyfriend, another sexual predator. Canales was sent to prison for stealing a check from
Ramirez. After being paroled, he was sent back to prison for two sexual assault offenses. While
in prison, he joined the Texas Syndicate, a Latino prison gang.

9

51a

Case 2:03-cv-00069-JRG-RSP Document 237 Filed 09/27/17 Page 10 of 23 PageID #: 4529

Around 1992, after being paroled, Canales began dating Liz Hewitt, who lived at home and
came from a close, normal Catholic family. Her parents welcomed him into the family and treated
him as a son. His happiness came to an end, however, when his mother had an aneurysm, which
caused her to lose speech and motor functions. Canales’s life deteriorated, and he began using
drugs. He was never the same, and his parole was revoked.
In 1995, Canales suffered the first of three or four myocardial infarctions and was placed
on blood thinners and other medication. When the Texas Syndicate learned that he had a prior
sexual assault conviction and had been a member of the Latin Kings, the gang placed a hit on him.
Unable to defend himself because of his heart condition, Canales turned to another gang, the Texas
Mafia. His cellmate, Bruce Richards, was in the Texas Mafia, and he arranged for Canales to
transfer to that gang. The intercession by the Texas Mafia meant that Canales owed his life to the
gang, and he was thus in a vulnerable position of being under their control. That was Canales’s
predicament at the time he murdered Gary Dickerson in 1997.
In addition to presenting an overview of the mitigating evidence that could have been
offered during the punishment phase of the trial, Susan Herrero, a mitigation expert, provided a
more in-depth analysis of Canales’s life. She identified a number of significant factors impeding
Canales’s intellectual, cognitive, social, emotional and psychological development. These factors
included prenatal exposure to alcohol and parental alcoholism, poverty and homelessness, neglect,
parental rejection, abandonment, and physical and sexual abuse. Ms. Herrero observed that
“parenting is modeled,” and Canales grew up in an environment of alcoholics, who abused him.
His step-father, Carlos Espinoza, beat him and tried to sexually assault him when he was just six
years old.

10

52a

Case 2:03-cv-00069-JRG-RSP Document 237 Filed 09/27/17 Page 11 of 23 PageID #: 4530

Following his arrest but before sentencing, Canales lived with his cousin, Michele.
Michele and her mother recalled Canales getting along well with Michele and her husband.
Michele described Canales as a “good hearted person,” and that he responded to the guidance and
advice that she and her husband gave to him. Her mother described him as “a lost boy who just
needed some guidance.” Both Michele and her mother agreed that Ramirez pushed for Canales’s
prosecution to get him away from his family.
Ms. Herrero obtained evidence that Canales began drinking alcohol and smoking cigarettes
when he was about nine or ten years old. Gang leaders gave him alcohol before school. He smoked
marijuana while going to school in Houston. Drugs were readily available while he was confined
in juvenile institutions. Ms. Herrero stated that he was an alcoholic by age fourteen. He was fired
from a job working for a record company after he had an accident while driving the band members.
He was reported being intoxicated and driving at 70 mph at the time of the accident.
Ms. Herrero observed that Canales’s early school records reveal that he made progress and
managed to remain in an appropriate grade level. Later records show that he was in sixth grade
during the 1976-77 school year, when he should have been in the seventh grade. On October 28,
1978, he was in fifth grade in another school in Los Angeles, when he should have been in ninth
grade. Other records show that he attended eighth grade in Houston in 1978-79. During that year,
he was transferred to a seventh grade special education class for behavior disorder. He flunked
out of Sam Houston High School on March 12, 1980. His Iowa Test of Basic Skills, administered
in April 1975, while he was in fifth grade, revealed that he was reading on a third grade (3.0) level
and his arithmetic was at a second grade (2.7) level. On October 13, 1976, his Wechsler
Intelligence Scale for Children (“WISC”) scores showed a Verbal Score of 85, a Performance
Score of 101 and a Full Scale Score of 91. Later, at almost eighteen years of age at the Brownwood

11

53a

Case 2:03-cv-00069-JRG-RSP Document 237 Filed 09/27/17 Page 12 of 23 PageID #: 4531

State School, he completed his GED. His scores were low in writing (16th percentile) and math
(31st percentile).
Dr. Tora L. Brawley, a clinical psychologist, conducted an extended clinical interview and
neuropsychological test battery, which uncovered mild deficits in frontal lobe functioning, in
particular matrix reasoning and verbal fluency. The Court notes that she also found that his Full
Scale IQ was 92 on the Wechsler Adult Intelligence Scale - Fourth Edition (“WAIS-IV”) (Dkt.
#220-2 at 2).

She concluded that “Canales has had an improvement in overall cognitive

functioning. He has been undergoing a good deal of ‘self-teaching’ during the 23 years of his
incarceration. He appears to have benefitted significantly from the structured environment and the
cessation of drug and alcohol use.” Id. at 3.
Dr. Donna Maddox, a General and Forensic Psychiatrist, found that Canales has some
problems with concentration and language as well as deficits in short term memory. She found
that Canales suffered from Trauma and Stressor Related Disorder, consistent with PTSD. She
came to the following conclusions from her evaluation:
1.
2.
3.
4.
5.
6.
7.
8.

9.

Canales has a history of exposure to trauma beginning by latency age.
He has had multiple exposures to traumatic events during his life.
He meets the criteria for PTSD and developed a comorbid substance abuse and
mood disorder.
Canales was incarcerated during his most recent offense.
At the time his health was poor.
Various documents note that his life had been threatened due to the nature of his
prior charges and involvement in a gang.
He was suffering from mental illness at the time of his offense.
A recent study comparing prisoners who were involved in street gangs compared
to prisoners who were not involved in street gangs reveals that prisoners who were
involved in street gangs had more exposure to violence, symptoms of PTSD,
paranoia, anxiety and forced behavioral control. Wood, Jane L. and Dennard,
Sophie (2016) Gang membership: links to violence exposure, paranoia, PTSD,
anxiety and forced control of behavior in prison. Psychiatry: Interpersonal and
Biological Processes. ISSN 0033-2747. (In press)
Canales has never had treatment for his PTSD nor his mood symptoms.

12

54a

Case 2:03-cv-00069-JRG-RSP Document 237 Filed 09/27/17 Page 13 of 23 PageID #: 4532

10.

Canales has a medical condition and prescribed medication (Metroprolol) which
are associated with depression.

Dkt. #220-3 at 15-16.
In light of the reports provided by Susan Herrero, Dr. Tora L. Brawley, and Dr. Donna
Maddox, Canales discusses how this new mitigation evidence could have been used to rebut the
State’s case for future dangerousness. He observes that the State’s case during the penalty phase
focused on his violent actions and threats while incarcerated and as a member of the Texas Mafia
to establish future dangerousness. The case is made that the mitigating evidence of his mental
illness, his life-threatening heart conditions and factors about gang life in the Texas prisons would
have provided necessary context to understand the offense and to simultaneously diminish the
strength of the State’s case.
Canales places special emphasis on circumstances surrounding the murder of Gary
Dickerson, particularly with respect to gang activities in the Texas prison system. He notes that
he was a member of the Texas Syndicate gang while in prison in the mid-1980s. The Texas
Syndicate gang included Mexicans, Whites and Chicanos. The Texas Mafia formed as a “cousin”
to the Texas Syndicate. The Texas Mafia had mostly white inmates and included many former
Aryan Brotherhood gang members and other white supremacists. The Texas Mafia engaged in
criminal money-making ventures such as selling tobacco and other contraband. The two gangs
were close.
Canales returned to prison and became cellmates with Bruce Richards, a leader of the Texas
Mafia. Canales was especially vulnerable after suffering a heart attack in 1995. He used
nitroglycerine under his tongue. He bruised easily, and if he even pricked himself, he would bleed
for hours. As a result, he avoided fights.

13

55a

Case 2:03-cv-00069-JRG-RSP Document 237 Filed 09/27/17 Page 14 of 23 PageID #: 4533

Around this time, Texas Syndicate leaders learned that Canales had been a member of the
Latin Kings and had two prior sexual assault convictions. The Texas Syndicate ordered a hit on
Canales. Canales confided in Bruce Richards about his problems with the Texas Syndicate.
Because Richards had become friends with Canales, he decided to intervene. Richards approached
the leader of the Texas Syndicate and offered to take Canales into the Texas Mafia. In turn,
Richards owed the Syndicate a favor. This favor resulted in the murder of Gary Dickerson.
Gary Dickerson, another prisoner, learned about the tobacco-smuggling operation run by
the Texas Mafia. He threatened to expose it if he did not receive payment. According to Richards,
Dickerson was seen as a danger and had to be punished. After the Dickerson murder, Richards
ordered Canales and Speers to write to Bruce Innes to exaggerate their role in the murder. Richards
hoped to impress Innes to recruit him. Innes had money, and if he could recruit Innes, Richards
could get his money. Richards also pointed out that Canales and Speers were new recruits and had
to follow his orders. Richards explained: “If [Canales] refused to do what I told him I would have
sent him back to the Texas Syndicate, and he would be killed. I saved his life and he owed me.”
Dkt. #220-1 at 72. Canales also understood that Doyle Hill, another leader of the largely white
supremacist Texas Mafia, was after him. Facing danger from the Texas Syndicate and from a
leader of the Texas Mafia and being “unable to fight a lick after his heart attack,” “[Canales] was
willing to do whatever it took to get these hits off of him to save his life.” Id. at 76.
Canales argues that, in addition to providing context about the circumstances surrounding
the offense, trial counsel could have presented expert evidence about the well-established security
measures for those sentenced to life imprisonment. According to Steve Martin, a former consultant
with the Texas Attorney General’s Office and a former Legal Counsel, General Counsel, and
Executive Assistant with the Texas Department of Corrections, inmates receiving a life sentence

14

56a

Case 2:03-cv-00069-JRG-RSP Document 237 Filed 09/27/17 Page 15 of 23 PageID #: 4534

are placed in the most secure housing, under security conditions “essentially identical to those on
Texas’ death row.” Dkt. #7, Exhibit 30. Canales argues that a thorough investigation of his
medical and psychological condition as well as an investigation of the context of the murders
would have diminished the strength of the State’s case and placed his involvement in the murder
in a very different context.
4.

Ineffective Assistance of Counsel
The standard for evaluating ineffective assistance of counsel claims was established by the

Supreme Court in Strickland v. Washington, 466 U.S. 668 (1994). Strickland provides a twopronged standard, and a petitioner bears the burden of proving both prongs. 466 U.S. at 687.
Under the first prong, he must show that counsel’s performance was deficient. Id. To establish
deficient performance, he must show that “counsel’s representation fell below an objective
standard of reasonableness,” with reasonableness judged under professional norms prevailing at
the time counsel rendered assistance. Id. at 688. Under the second prong, the petitioner must show
that his attorney’s deficient performance resulted in prejudice. Id. at 687. To satisfy the prejudice
prong, the habeas petitioner “must show that there is a reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding would have been different. A reasonable
probability is a probability sufficient to undermine confidence in the outcome.” Id. at 694. An
ineffective assistance of counsel claim fails if a petitioner cannot satisfy either the deficient
performance or prejudice prong; a court need not evaluate both if he makes an insufficient showing
as to either. Id. at 697. The Strickland standard applies to ineffective assistance of counsel claims
in the context of Martinez and Trevino. See Martinez, 566 U.S. at 14.
Canales specifically argues that his attorneys were ineffective in failing to discharge their
duty of conducting an investigation into his life; thus, they failed to uncover powerful mitigating

15

57a

Case 2:03-cv-00069-JRG-RSP Document 237 Filed 09/27/17 Page 16 of 23 PageID #: 4535

evidence. The case law is abundantly clear that “in the context of a capital sentencing proceeding,
defense counsel has the obligation to conduct a ‘reasonably substantial, independent investigation’
into potential mitigating circumstances.” Neal v. Puckett, 286 F.3d 230, 236-37 (5th Cir. 2002)
(quoting Baldwin v. Maggio, 704 F.2d 1325, 1332-33 (5th Cir. 1983)), cert. denied, 537 U.S. 1104
(2003). See also Woods v. Thaler, 399 F. App’x 884, 891 (5th Cir. 2010), cert. denied, 563 U.S.
991 (2011). “Mitigating evidence that illustrates a defendant’s character or personal history
embodies a constitutionally important role in the process of individualized sentencing, and the
ultimate determination of whether the death penalty is an appropriate punishment.” Riley v.
Cockrell, 339 F.3d 308, 316 (5th Cir.2003) (citation omitted), cert. denied, 543 U.S. 1056 (2005).
In assessing whether counsel’s performance was deficient, courts look to such factors as what
counsel did to prepare for sentencing, what mitigation evidence he had accumulated, what
additional “leads” he had, and what results he might reasonably have expected from those leads.
Neal, 286 F.3d at 237. The reasonableness of counsel’s investigation involves “not only the
quantum of evidence already known to counsel, but also whether the known evidence would lead
a reasonable attorney to investigate further.” Wiggins, 539 U.S. at 527. “[C]ounsel should
consider presenting . . . [the defendant’s] medical history, educational history, employment and
training history, family and social history, prior adult and juvenile correctional experience, and
religious and cultural influences.” Id. at 524 (citing ABA Guidelines for the Appointment and
Performance of Counsel in Death Penalty Cases § 11.8.6, at 133 (1989)). The Supreme Court
stressed in Wiggins that the “investigation into mitigating evidence should comprise efforts to
discover all reasonably available mitigating evidence.” Id. (emphasis in original). As was
previously noted, the Fifth Circuit has already found that counsel’s representation fell below an
objective standard of reasonableness. Canales, 765 F.3d at 569.

16

58a

Case 2:03-cv-00069-JRG-RSP Document 237 Filed 09/27/17 Page 17 of 23 PageID #: 4536

The issue before the Court is prejudice. The Fifth Circuit remanded the case in order to
determine “whether Canales can actually prove prejudice.” Canales, 765 F.3d at 571. In
reviewing the issue of prejudice at capital sentencing, courts must reweigh the quality and quantity
of the available mitigating evidence, including that presented in post-conviction proceedings,
against the aggravating evidence. Williams, 529 U.S. at 397-98; Blanton, 543 F.3d at 236. “In
evaluating that question, it is necessary to consider all the relevant evidence that the jury would
have had before it if [the petitioner] had pursued the different path - not just the mitigation evidence
[the petitioner] could have presented, but also the . . . evidence that almost certainly would have
come with it.” Wong, 558 U.S. at 20 (emphasis in original). After reweighing all the mitigating
evidence against the aggravating, a court must determine whether the petitioner “has shown that,
had counsel presented all the available mitigating evidence, there is a reasonable probability that
a juror would have found that the mitigating evidence outweighed the aggravating evidence.”
Gray, 616 F.3d at 442. “The likelihood of a different result must be substantial, not just
conceivable.” Harrington v. Richter, 562 U.S. 86, 112 (2011) (citing Strickland, 466 U.S. at 693).
“[T]here is no prejudice when the new mitigating evidence ‘would barely have altered the
sentencing profile presented’ to the decisionmaker.” Sears v. Upton, 561 U.S. 945, 954 (2010)
(citing Strickland, 466 U.S. at 700). The inquiry requires a court to engage in a “probing and factspecific analysis.”

Id. at 955.

The Strickland standard in analyzing the prejudice prong

“necessarily requires a court to ‘speculate’ as to the effect of the new evidence - regardless of how
much or how little mitigation evidence was presented during the initial penalty phase.” Id. at 956.
In the present case, having reweighed all of the mitigating evidence, both old and new,
against the aggravating evidence, the Court finds that the aggravating evidence far outweighs the
mitigating evidence. The murder itself was cold and calculated. It was a heinous gang related

17

59a

Case 2:03-cv-00069-JRG-RSP Document 237 Filed 09/27/17 Page 18 of 23 PageID #: 4537

murder of a prisoner by other prisoners. Gang leaders ordered Canales and others to kill the victim
because the gang had a financial stake in contraband.

Under Texas substantive law, the

circumstances of the charged offense were sufficient to support an affirmative finding of future
dangerousness. White v. Dretke, 126 F. App’x 173, 177 (5th Cir.), cert. denied, 546 U.S. 940
(2005). The aggravating evidence also revealed a habitual criminal, who had a conviction for theft
and two convictions for sexual assault. The facts surrounding his Bexar County sexual assault
conviction reveal that he threatened to kill the victim - at both the time of the offense and later
while confined in jail awaiting trial. Furthermore, while waiting to go to trial in the present case,
he asked inmate Bruce Innis to arrange for the murder of inmate Larry Whited, whom Canales
suspected of cooperating with investigators. The three letters written by Canales reveal a cold and
callous murderer.
The mitigating evidence presented at trial showed that Canales was not troublesome and
that he had an aptitude for art. There was testimony that his mother was dead and that he had few
visits from family. One inmate testified that he had seen Canales try to stop inmates from fighting.
The additional mitigating evidence presented during these proceedings show that Canales had
prenatal exposure to alcohol and parental alcoholism, poverty and homelessness, neglect, parental
rejection, abandonment, and physical and sexual abuse. His Full Scale IQ score on one test was
91 and 92 on another. He did not complete school, but completed his GED at Brownwood State
School. The additional evidence delved further into his gang activities. At one time, he was a
member of the Texas Syndicate, who placed a hit on him. He then joined the Texas Mafia and
participated in the murder of Gary Dickerson. Prior to the murder, he had a heart attack and was
dependent on the gang.

18

60a

Case 2:03-cv-00069-JRG-RSP Document 237 Filed 09/27/17 Page 19 of 23 PageID #: 4538

Canales argues that this additional evidence provides proper context to the circumstances
surrounding the offense. The Director argues, in response, that the new mitigating evidence was
“double-edged” and “[m]itigation, after all, may be in the eye of the beholder.” Martinez v.
Cockrell, 481 F.3d 249, 258 (5th Cir. 2007) (quoting Burger v. Kemp, 483 U.S. 776, 794 (1987)),
cert. denied, 552 U.S. 1146 (2008). He further argues that even though the post-conviction
evidence of poverty, abuse, and neglect is compelling, it does not outweigh the aggravating
evidence in this case. In reply, Canales observes that the Fifth Circuit has rejected the notion that
a case with substantial evidence in aggravation can never be mitigated. Walbey v. Quarterman,
309 F. App’x 795, 804 (5th Cir. 2009).
Viewed collectively, the reports presented by Ms. Herrero, Dr. Brawley and Dr. Maddox
present a wealth of double-edged evidence, including evidence of gang violence, alcohol, drugs,
and physical and sexual abuse. The Fifth Circuit has observed that evidence of “brain injury,
abusive childhood, and drug and alcohol problems is all ‘double-edged.’ In other words, even if
his recent claims about this evidence is true, it could all be read by the jury to support, rather than
detract, from his future dangerousness claim.” Johnson v. Cockrell, 306 F.3d 249, 253 (5th Cir.
2002), cert. denied, 538 U.S. 926 (2003). Canales’s history of heart disease, while compelling, is
also doubled-edged in that it contributed to his act of murdering the victim in order to be protected
by the Texas Mafia.
In his objections, Canales asserts that the Magistrate Judge wrongly dismissed virtually all
of his new mitigation evidence as “double-edged.” Canales mischaracterizes the Magistrate
Judge’s analysis. The analysis was not dismissive of the wealth of new evidence of gang violence,
alcohol, drugs, and physical and sexual abuse. Such evidence was acknowledged and duly noted.
Moreover, the Magistrate Judge further observed that the Director recognized that the evidence of

19

61a

Case 2:03-cv-00069-JRG-RSP Document 237 Filed 09/27/17 Page 20 of 23 PageID #: 4539

poverty, abuse and neglect was compelling. Nonetheless, the new mitigation evidence was
correctly characterized as double-edged. The value of such evidence is “in the eye of the
beholder.” Martinez, 481 F.3d at 258. The Court finds that the objections on this issue lack merit.
Canales also argues in his objections that the Magistrate Judge misapplied the prejudice
inquiry. He stresses that Texas is not a “weighing state,” and he complains that the Magistrate
Judge weighed the aggravating and mitigating factors. Canales has confused unrelated concepts.
Arizona, for example, is a “weighing” system, in which the sentencer weighs the statutory
aggravating factors against the non-statutory mitigating factors, and the burden of establishing the
existence of aggravating factors lays on the prosecution. Walton v. Arizona, 497 U.S. 639, 643
(1990). Texas’s capital sentencing scheme, on the other hand, makes it a “non-weighing state” in
that it does not require the jury to “weigh” aggravating factors against mitigating factors. Hughes
v. Johnson, 191 F.3d 607, 623 (5th Cir.1999), cert. denied, 528 U.S. 1145 (2000). In non-weighing
states, “statutory aggravating factors serve principally to address the concerns of the Eighth
Amendment - that is, the role of the statutory aggravators is to narrow and channel the jury’s
discretion by separating the class of murders eligible for the death penalty from those that are not.”
Id. (citation omitted). In Texas, the jury considers aggravating factors in the guilt-innocence phase
of the trial where the defendant’s eligibility for a death sentence is determined. Woods v. Cockrell,
307 F.3d 353, 359 (5th Cir. 2002). If eligibility for a death sentence is determined, then the case
proceeds to the punishment phase of the trial. Id. During the punishment phase, the jury selects
either death or life imprisonment. Id. The final question asks the jury “whether the defendant’s
mitigating evidence is sufficient to warrant the imposition of a life sentence rather than the death
penalty.” Id. “The amount of weight that the factfinder might give any piece of mitigating
evidence is left to the range of judgment and discretion exercised by each juror.” Id. (citation and

20

62a

Case 2:03-cv-00069-JRG-RSP Document 237 Filed 09/27/17 Page 21 of 23 PageID #: 4540

internal quotation marks omitted). Canales’s objection focusing on Texas not being a weighing
state reveals a basic misunderstanding of issues underlying weighing versus non-weighing states.
With respect to a Wiggins claim, on the other hand, a court determines prejudice by
reweighing the quality and quantity of the available mitigating evidence, including that in postconviction proceedings against the aggravating evidence. Williams, 529 U.S. at 398-98; Blanton,
543 F.3d at 236. After reweighing all the mitigating evidence against the aggravating, a court must
determine whether the petitioner “has shown that, had counsel presented all the available
mitigating evidence, there is a reasonable probability that a juror would have found that the
mitigating evidence outweighed the aggravating evidence.”

Gray, 616 F.3d at 442. “The

likelihood of a different result must be substantial, not just conceivable.” Harrington, 562 U.S. at
112 (citing Strickland, 466 U.S. at 693). The Magistrate Judge did not err in applying the correct
standard in evaluating prejudice with respect to a Wiggins claim.
Having reweighed all of the mitigating evidence, both old and new, against the aggravating
evidence, the Court is of the opinion, and so finds, that there is no reasonable probability that a
juror would have found that the mitigating evidence outweighed the aggravating evidence. The
following conclusion by the Fifth Circuit is equally applicable to the present case: “the additional
mitigating evidence was not so compelling, especially in light of the horrific facts of the crime,
that the sentencer would have found a death sentence unwarranted.” Martinez, 481 F.2d at 259.
Canales has not proven prejudice. He has not shown that he is entitled to federal habeas corpus
relief.
As a final matter, Canales’s ineffective assistance of trial counsel claim remains
procedurally barred in light of his inability to prove prejudice under Coleman. The Fifth Circuit
held that “[t]o excuse the procedural default fully, Canales would then be required to prove that he

21

63a

Case 2:03-cv-00069-JRG-RSP Document 237 Filed 09/27/17 Page 22 of 23 PageID #: 4541

suffered prejudice from the ineffective assistance of his trial counsel.” Canales, 765 F.3d at 568
(citing Martinez, 566 U.S. at 18). Canales has not shown prejudice in order to excuse the
procedural default.
In conclusion, Canales has not shown prejudice under Strickland on the merits of his
ineffective assistance of trial counsel claim and, concomitantly, has not shown prejudice in order
to excuse the procedural default. Canales is not entitled to federal habeas corpus relief.
Certificate of Appealability
“A state prisoner whose petition for a writ of habeas corpus is denied by a federal district
court does not enjoy an absolute right to appeal.” Buck v. Davis, 137 S. Ct. 759, 773 (2017).
Instead, under 28 U.S.C. § 2253(c)(1), he must first obtain a certificate of appealability (“COA”)
from a circuit justice or judge. Id. Although Canales has not yet filed a notice of appeal, the court
may address whether he would be entitled to a certificate of appealability. See Alexander v.
Johnson, 211 F.3d 895, 898 (5th Cir. 2000) (A district court may sua sponte rule on a certificate
of appealability because “the district court that denies a petitioner relief is in the best position to
determine whether the petitioner has made a substantial showing of a denial of a constitutional
right on the issues before the court. Further briefing and argument on the very issues the court has
just ruled on would be repetitious.”).
A certificate of appealability may issue only if a petitioner has made a substantial showing
of the denial of a constitutional right. 28 U.S.C. § 2253(c)(2). To make a substantial showing, the
petitioner need only show that “jurists of reason could disagree with the district court’s resolution
of his constitutional claims or that jurists could conclude the issues presented are adequate to
deserve encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327 (2003). The
Supreme Court recently emphasized that the COA inquiry “is not coextensive with merits analysis”

22

64a

Case 2:03-cv-00069-JRG-RSP Document 237 Filed 09/27/17 Page 23 of 23 PageID #: 4542

and “should be decided without ‘full consideration of the factual or legal bases adduced in support
of the claims.’” Buck, 137 S. Ct. at 773 (quoting Miller-El, 537 U.S. at 336). Moreover, “[w]hen
the district court denied relief on procedural grounds, the petitioner seeking a COA must further
show that ‘jurists of reason would find it debatable whether the district court was correct in its
procedural ruling.’” Rhoades v. Davis, 852 F.3d 422, 427 (5th Cir. 2017) (quoting Gonzalez v.
Thaler, 565 U.S. 134, 140-41 (2012)).
In this case, reasonable jurists could not debate the denial of Canales’s § 2254 petition on
substantive or procedural grounds, nor find that the issues presented are adequate to deserve
encouragement to proceed. Canales argues in his objections that he should receive a certificate of
appealability, but the issues presented in this case on remand do not deserve encouragement to
proceed. Accordingly, the Court finds that Canales is not entitled to a certificate of appealability
as to his claims. It is accordingly
ORDERED that the petition for a writ of habeas corpus is DENIED and the case is
DISMISSED with prejudice. It is further
ORDERED that a certificate of appealability is DENIED. It is finally
ORDERED that all motions not previously ruled on are DENIED.

So Ordered this
Sep 27, 2017

23

65a

Case: 18-70009

Document: 00515545717

Page: 1

Date Filed: 08/31/2020

United States Court of Appeals
for the Fifth Circuit
___________
No. 18-70009
___________
Anibal Canales, Jr.,
Petitioner—Appellant,
versus
Lorie Davis, Director, Texas Department of Criminal
Justice, Correctional Institutions Division,
Respondent—Appellee.
______________________________
Appeal from the United States District Court
for the Eastern District of Texas
USDC No. 2:03-CV-69
______________________________
ON PETITION FOR REHEARING
Before Higginbotham, Southwick, and Haynes, Circuit Judges.
Per Curiam:
IT IS ORDERED that the petition for panel rehearing is DENIED.

66a

Case: 18-70009

Document: 00515545722

Page: 1

Date Filed: 08/31/2020

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

August 31, 2020
MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW:
No. 18-70009

Anibal Canales, Jr. v. Lorie Davis, Director
USDC No. 2:03-CV-69

Enclosed is an order entered in this case.

Sincerely,
LYLE W. CAYCE, Clerk

By: _________________________
Monica R. Washington, Deputy Clerk
504-310-7705
Mr.
Ms.
Mr.
Mr.

Matthew Hamilton Frederick
Tina J. Miranda
Joseph J. Perkovich
David Paul Voisin

67a

Case: 18-70009

Document: 00515498383

Page: 1

Date Filed: 07/21/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
_______________________
Fifth Circuit
No. 18-70009

_______________________
D.C. Docket No. 2:03-CV-69

FILED
July 21, 2020
Lyle W. Cayce
Clerk

ANIBAL CANALES, JR.,
Petitioner - Appellant
v.
LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,
Respondent - Appellee
Appeal from the United States District Court for the
Eastern District of Texas
Before HIGGINBOTHAM, SOUTHWICK, and HAYNES, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and was argued by
counsel.
It is ordered and adjudged that the judgment of the District Court is
affirmed.
PATRICK E. HIGGINBOTHAM, Circuit Judge, dissenting.

68a

CODE OF CRIMINAL PROCEDURE
TITLE 1. CODE OF CRIMINAL PROCEDURE
CHAPTER 37. THE VERDICT
Art. 37.071. PROCEDURE IN CAPITAL CASE
Sec. 1. (a) If a defendant is found guilty in a capital
felony case in which the state does not seek the death penalty,
the judge shall sentence the defendant to life imprisonment or
to life imprisonment without parole as required by Section
12.31, Penal Code.
(b) A defendant who is found guilty of an offense under
Section 19.03(a)(9), Penal Code, may not be sentenced to death,
and the state may not seek the death penalty in any case based
solely on an offense under that subdivision.
Sec. 2. (a)(1) If a defendant is tried for a capital
offense in which the state seeks the death penalty, on a finding
that the defendant is guilty of a capital offense, the court
shall conduct a separate sentencing proceeding to determine
whether the defendant shall be sentenced to death or life
imprisonment without parole. The proceeding shall be conducted
in the trial court and, except as provided by Article 44.29(c)
of this code, before the trial jury as soon as practicable. In
the proceeding, evidence may be presented by the state and the
defendant or the defendant's counsel as to any matter that the
court deems relevant to sentence, including evidence of the
defendant's background or character or the circumstances of the
offense that mitigates against the imposition of the death
penalty. This subdivision shall not be construed to authorize
the introduction of any evidence secured in violation of the
Constitution of the United States or of the State of Texas. The
state and the defendant or the defendant's counsel shall be
permitted to present argument for or against sentence of death.
The introduction of evidence of extraneous conduct is governed
by the notice requirements of Section 3(g), Article 37.07. The
Page 1

69a

court, the attorney representing the state, the defendant, or
the defendant's counsel may not inform a juror or a prospective
juror of the effect of a failure of a jury to agree on issues
submitted under Subsection (c) or (e).
(2) Notwithstanding Subdivision (1), evidence may not be
offered by the state to establish that the race or ethnicity of
the defendant makes it likely that the defendant will engage in
future criminal conduct.
(b) On conclusion of the presentation of the evidence, the
court shall submit the following issues to the jury:
(1) whether there is a probability that the defendant would
commit criminal acts of violence that would constitute a
continuing threat to society; and
(2) in cases in which the jury charge at the guilt or
innocence stage permitted the jury to find the defendant guilty
as a party under Sections 7.01 and 7.02, Penal Code, whether the
defendant actually caused the death of the deceased or did not
actually cause the death of the deceased but intended to kill
the deceased or another or anticipated that a human life would
be taken.
(c) The state must prove each issue submitted under
Subsection (b) of this article beyond a reasonable doubt, and
the jury shall return a special verdict of "yes" or "no" on each
issue submitted under Subsection (b) of this Article.
(d) The court shall charge the jury that:
(1) in deliberating on the issues submitted under
Subsection (b) of this article, it shall consider all evidence
admitted at the guilt or innocence stage and the punishment
stage, including evidence of the defendant's background or
character or the circumstances of the offense that militates for
or mitigates against the imposition of the death penalty;
(2) it may not answer any issue submitted under Subsection
(b) of this article "yes" unless it agrees unanimously and it
may not answer any issue "no" unless 10 or more jurors agree;
and
Page 2

70a

(3) members of the jury need not agree on what particular
evidence supports a negative answer to any issue submitted under
Subsection (b) of this article.
(e)(1) The court shall instruct the jury that if the jury
returns an affirmative finding to each issue submitted under
Subsection (b), it shall answer the following issue:
Whether, taking into consideration all of the evidence,
including the circumstances of the offense, the defendant's
character and background, and the personal moral culpability of
the defendant, there is a sufficient mitigating circumstance or
circumstances to warrant that a sentence of life imprisonment
without parole rather than a death sentence be imposed.
(2) The court shall:
(A) instruct the jury that if the jury answers
that a circumstance or circumstances warrant that a sentence of
life imprisonment without parole rather than a death sentence be
imposed, the court will sentence the defendant to imprisonment
in the Texas Department of Criminal Justice for life without
parole; and
(B) charge the jury that a defendant sentenced
to confinement for life without parole under this article is
ineligible for release from the department on parole.
(f) The court shall charge the jury that in answering the
issue submitted under Subsection (e) of this article, the jury:
(1) shall answer the issue "yes" or "no";
(2) may not answer the issue "no" unless it agrees
unanimously and may not answer the issue "yes" unless 10 or more
jurors agree;
(3) need not agree on what particular evidence supports an
affirmative finding on the issue; and
(4) shall consider mitigating evidence to be evidence that
a juror might regard as reducing the defendant's moral
blameworthiness.
(g) If the jury returns an affirmative finding on each
issue submitted under Subsection (b) and a negative finding on
Page 3

71a

an issue submitted under Subsection (e)(1), the court shall
sentence the defendant to death. If the jury returns a negative
finding on any issue submitted under Subsection (b) or an
affirmative finding on an issue submitted under Subsection
(e)(1) or is unable to answer any issue submitted under
Subsection (b) or (e), the court shall sentence the defendant to
confinement in the Texas Department of Criminal Justice for life
imprisonment without parole.
(h) The judgment of conviction and sentence of death shall
be subject to automatic review by the Court of Criminal Appeals.
(i) This article applies to the sentencing procedure in a
capital case for an offense that is committed on or after
September 1, 1991. For the purposes of this section, an offense
is committed on or after September 1, 1991, if any element of
that offense occurs on or after that date.

Page 4

72a

Case 2:03-cv-00069-JRG-RSP Document 236 Filed 09/22/17 Page 1 of 21 PageID #: 4499

UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
MARSHALL DIVISION
ANIBAL CANALES, JR,

PETITIONER

v.

Case No. 2:03-CV-69-JRG-RSP

DIRECTOR, Texas Department of Corrections,
Correctional Institutions Division,

RESPONDENT

PETITIONER’S OBJECTIONS TO THE REPORT AND RECOMMENDATION
OF THE UNITED STATES MAGISTRATE JUDGE
__________________
Pursuant to Fed. R. Civ. Proc. 72, Petitioner, Anibal (“Andy”) Canales, Jr., files these
Objections to the Report and Recommendation of the United States Magistrate Judge, who
concluded that Petitioner failed to show prejudice on his claim that trial counsel failed to develop
and present mitigating evidence and that Petitioner is not entitled to a certificate of appealability.
Doc 230. Pursuant to 28 U.S.C. § 636(b)(1), this Court “shall make a de novo determination of
those portions of the report or specified proposed findings or recommendations to which
objection is made.” Such a review will establish that this Court should reject the Report and
Recommendation of the Magistrate Judge.
In support of these Objections, Petitioner first summarizes the relevant procedural
history, summarizes the evidence presented following a remand from the Fifth Circuit, and
reviews the conclusions of the Magistrate Judge. Petitioner next examines the misapplication of
precedent in the Report and Recommendation. Finally, and in the alternative, Petitioner explains
why he is at least entitled to a certificate of appealability.
RELEVANT PROCEDURAL HISTORY
Applying Trevino v. Thaler, 133 S. Ct. 1911 (2012), the Fifth Circuit found that

1

73a

Case 2:03-cv-00069-JRG-RSP Document 236 Filed 09/22/17 Page 2 of 21 PageID #: 4500

Petitioner’s prior state habeas counsel performed deficiently in not raising a challenge to trial
counsel’s failure to develop and present mitigating evidence at the penalty phase of his trial.
Canales v. Stephens, 765 F. 3d 551, 569 (5th Cir. 2014). The panel also found that Petitioner
showed that the underlying Wiggins claim was “substantial.” The Fifth Circuit noted that trial
counsel did virtually no investigation into mitigating circumstances. “Considering all of the
circumstances here, Canales’s trial attorneys’ performance was not reasonable. His trial counsel
did not make a reasoned decision not to conduct a mitigation investigation.” Id. at 570. The
panel also found “some merit” to the allegation that Petitioner was prejudiced by trial counsel’s
failure to prepare for the penalty phase. Id.
The panel remanded the case to this Court “to consider whether Canales can prove
prejudice as a result of his trial counsel's deficient performance, and if so, to address the merits
of his habeas petition on this claim.” Id. at 571. After obtaining limited funding,1 Canales
expanded the record with declarations from Donna Maddox, M.D., Tora Brawley, Ph.D., and
mitigation investigator Susan Herrero. Numerous declarations and social history records were
attached to Ms. Herrero’s report. Doc 220-1, 220-2, 220-3. After reviewing briefing from
Petitioner and Respondent, the Magistrate Judge recommended that relief be denied and that a
certificate of appealability not issue. Doc 230.
SUMMARY OF MITIGATION EVIDENCE THE JURY NEVER HEARD
As even the Director recognized, “It would be difficult to refute Canales’s assertion that
the mitigation evidence counsel failed to present at trial paints a gripping picture of Canales’s
tragic, troubled childhood.” Doc 228 at 17. The Director also noted that expert reports establish
that Canales suffers from cognitive deficits, posttraumatic stress disorder, persistent depressive

1

Canales sought, but was denied, additional funding for Ms. Herrero to complete her investigation and to permit Dr.
Maddox to complete her psychiatric evaluation. Doc 209, 211.

2

74a

Case 2:03-cv-00069-JRG-RSP Document 236 Filed 09/22/17 Page 3 of 21 PageID #: 4501

disorder, and alcohol abuse disorder. Id. at 11.2
Petitioner discussed this extensive and compelling mitigation evidence in his brief and
supporting documents.

See Doc 220, 220-1, 220-2, 220-3.

The Magistrate Judge also

summarized this evidence:
Canales’s father suffered from alcoholism and drug abuse. He abandoned the
family when Canales was 2 1/2 years old. His mother was left to live in poverty.
She was an alcoholic and would beat her children. She often neglected them.
There were times when the family was homeless. For a while, Canales lived with
his maternal grandparents. His grandparents lived in poverty and were alcoholics.
His mother married Carlos Espinoza in 1971. They lived in Chicago. His mother
and Espinoza drank heavily. Espinoza physically and sexually abused Canales
and his sister. Canales turned to the streets in order to make money to assist his
family by shining shoes and selling newspapers at the young age of 8 or 9 years
old. He subsequently joined the Latin Kings street gang. Gang leaders gave him
alcohol before school. By 1974, Canales had been shot during a drive-by
shooting. His sister, Elizabeth, recalled another incident where he was left all
bloody in a ditch. His mother sent him to live with his father in Houston. His
father subsequently moved to Laredo, but he did not take his son with him.
Canales was abandoned in Houston. He was arrested at age 13 and spent time in
juvenile detention. In 1978, his mother left Espinoza and moved the family,
including Canales, to California. By age 18, Canales was living again in Houston
with his mother, sisters, and John Ramirez, his mother’s live-in boyfriend, another
sexual predator. Canales was sent to prison for stealing a check from Ramirez.
After being paroled, he was sent back to prison for two sexual assault offenses.
While in prison, he joined the Texas Syndicate, a Latino prison gang.
Doc 230 at10.
Susan Herrero, a mitigation expert, identified significant factors that adversely affected
Canales’s intellectual, cognitive, social, emotional, and psychological development, including
prenatal exposure to alcohol, parental alcoholism, poverty, homelessness, neglect, abandonment,
and physical and sexual abuse. Doc 220 at 9-20; Doc 230 at 11.
Ms. Herrero also enumerated several consequences of Andy’s traumatic life history.
First, Andy’s chaotic life disrupted his education. Although he made appropriate progress in his

2

Respondent also states that Petitioner’s experts diagnosed him with antisocial personality disorder. Doc 228 at 11.
Petitioner’s experts, however, did not reach that diagnosis. Compare Doc 221-1, 221-2, and 221-3.

3

75a

Case 2:03-cv-00069-JRG-RSP Document 236 Filed 09/22/17 Page 4 of 21 PageID #: 4502

early grades, having to cope with trauma in his home and the incredible instability of incessantly
having to move and change schools took a toll. Due to his family instability, Andy attended 16
schools in Texas, including special education in Southwest ISD and Northeast ISD in San
Antonio. He also attended two schools in Chicago, three schools in Wisconsin, and five schools
in California. Doc 220-3 at 4.
Second, Andy began drinking and using drugs at a very young age.

His mother’s

drinking made beer readily available, and adults turned a blind eye to his drinking. As Ms.
Herrero points out, Andy was an alcoholic by age 14. Doc. 220-1 at 39. Andy also reported
using LSD when he was 15 years old and using cocaine beginning when he was 16 years old. He
also developed an addiction to heroin. Doc 220-3 at 8.
Third, Andy was vulnerable to gangs. The Latin Kings controlled the neighborhood he
grew up in. Its method of operation included the forcible recruitment of young children to serve
as runners, lookouts, or dupes who held drugs if the police came. Doc 220-1 at 40. The Latin
Kings were associated with violence. In fact, when he was 6 years old, Andy witnessed a
shooting that left one man dead. Id.; see also Doc 220-3 at 2.
Andy was forced into the Latin Kings gang when he was 9 years old and working shining
shoes and selling newspapers. He was threatened with death if he refused to run errands. Doc
220-1 at 40. In 1974, when he was either in fourth or fifth grade, Andy was shot at during a
drive-by shooting. Doc 220-3 at 3. His sister Elizabeth also recalls that Andy had to be taken by
ambulance to a hospital. He may have been shot or stabbed by someone in the gang. Id.; 220-1
at 55. Shortly after this incident, Janie, Andy’s mother, moved the family to California.
Fourth, Andy’s background resulted in cognitive and psychological difficulties. In her
evaluation of Andy, Dr. Donna Maddox found problems with concentration and language as well

4

76a

Case 2:03-cv-00069-JRG-RSP Document 236 Filed 09/22/17 Page 5 of 21 PageID #: 4503

as deficits in short term memory. Doc 220-3 at 11. In neuropsychological testing, Dr. Tora
Brawley found mild deficits in frontal lobe functioning, particularly with regard to matrix
reasoning and verbal fluency. Doc 220-2 at 3. Dr. Brawley also concluded that a structured
environment has benefited Andy’s overall cognitive functioning. He would have been more
significantly impaired prior to incarceration. Id.
More significantly, Andy suffers from severe mental illness, primarily Posttraumatic
Stress Disorder (PTSD) and Persistent Depressive Disorder. Dr. Maddox carefully tracked
factors in Andy’s life and experiences that align with the criteria for that Trauma and Stressor
Related Disorder. Doc 220-3 at 14. The essential feature of the disorder is development of
specific symptoms after exposure to a traumatic event. Id. Highest rates of PTSD are found
among survivors of rape, military combat, and captivity. Id. at 15. Pre-traumatic risk factors
include prior traumatic experience, lower socioeconomic status, lower education, and family
dysfunction. Id. Andy experienced many of the factors placing him at risk, including witnessing
a shooting, being sexually assaulted, witnessing his sister being assaulted, and severe physical
beatings.
Pretraumatic risk factors include the severity of the trauma, perceived life threat and
interpersonal violence by a caregiver. Id. Again, Andy personally experienced extreme violence
at the hands of his father and other men with whom his mother became involved. Additionally,
when he was very young, he witnessed a shooting, and his early gang experience exposed him to
additional violence and trauma.3 As Dr. Maddox points out, Andy’s experience is consistent
with that of other prisoners involved with street gangs in that all had more exposure to violence,
symptoms of PTSD, paranoia, anxiety, and forced behavioral control. Id. at 16.
3

After consulting with Dr. Fred Sautter, Ms. Herrero believes it is possible that Andy suffers from even more severe
“Complex PTSD,” because of his “extensive exposure to trauma beginning early in life and continuing into
adolescence. Doc 220-1 at 34.

5

77a

Case 2:03-cv-00069-JRG-RSP Document 236 Filed 09/22/17 Page 6 of 21 PageID #: 4504

Dr. Maddox concluded as follows in her evaluation:
1. Mr. Canales has a history of exposure to trauma beginning by latency age.
2. He has had multiple exposures to traumatic events during his life.
3. He meets the criteria for PTSD and developed a comorbid substance abuse and
mood disorder.
4. Mr. Canales was incarcerated during his most recent offense.
5. At the time his health was poor.
6. Various documents note that his life had been threatened due to the nature of his
prior charges and involvement in a gang.
7. He was suffering from mental illness at the time of his offense.
8. A recent study comparing prisoners who were involved in street gangs compared
to prisoners who were not involved in street gangs reveal that prisoner who were
involved in street gangs had more exposure to violence, symptoms of PTSD,
paranoia, anxiety and forced behavioral control. Wood, Jane L. and Dennard,
Sophie (2016) Gang membership: links to violence exposure, paranoia, PTSD,
anxiety and forced control of behavior in prison. Psychiatry: Interpersonal and
Biological Processes. . ISSN 0033-2747. (In press)
9. Mr. Canales has never had treatment for his PTSD nor mood symptoms.
10. Mr. Canales has a medical condition and prescribed medication (Metoprolol)
which are associated with depression.
Doc 220-3 at 15-16; Doc 230 at 13.
Despite experiencing extreme trauma, Andy remained a positive, likeable person.
Around 1992, when he was on parole, he dated Liz Hewitt. Her parents welcomed him into the
family and treated him as a son. Unfortunately, Andy’s mother suffered an aneurysm, which
caused her to lose speech and motor functions. Andy deteriorated and was never the same. Doc
220-1 at 46; Doc 220-1 at 87.
Finally, Andy presented evidence of his chronic heart disease and the role his life
threatening medical condition played in the time leading to the capital offense. The Magistrate
Judge summarized this evidence:
In 1995, Canales suffered the first of three or four myocardial infarctions and was
placed on blood thinners and other medication. When the Texas Syndicate learned
that he had a prior sexual assault conviction and had been a member of the Latin
Kings, the gang placed a hit on him. Unable to defend himself because of his
heart condition, Canales turned to another gang, the Texas Mafia. His cellmate,
Bruce Richards, was in the Texas Mafia, and he arranged for Canales to transfer
6

78a

Case 2:03-cv-00069-JRG-RSP Document 236 Filed 09/22/17 Page 7 of 21 PageID #: 4505

to that gang. The intercession by the Texas Mafia meant that Canales owed his
life to the gang, and he was thus in a vulnerable position of being under their
control. That was Canales’s predicament at the time he murdered Gary Dickerson
in 1997.
Doc 230 at 10-11.
REVIEW OF THE MAGISTRATE JUDGE’S RECOMMENDATIONS
The Magistrate Judge recognized the immense difference between the scant mitigating
evidence presented at trial and what was presented before this Court. At trial, the jury heard that
“Canales was not troublesome and had an aptitude for art,” had lost his mother, and was seen
trying to break up fights in prison. Doc 230 at 6. Thus, the jury learned nothing of his life-long
history of abuse and deprivation or about his medical condition.
Despite reviewing the compelling mitigating evidence, the Magistrate Judge determined
that “the aggravating evidence far outweighs the mitigating evidence.” Doc 230 at 17. The
Report pointed out that the murder was cold and calculated and that the aggravating evidence
showed that Canales was “a habitual criminal.” Doc 230 at 17.
The Magistrate Judge also found the wealth of new evidence problematic for being
“double-edged”: “Viewed collectively, the reports presented by Ms. Herrero, Dr. Brawley, and
Dr. Maddox present a wealth of double-edged evidence, including evidence of gang violence,
alcohol, drugs, and physical and sexual abuse. . . .

‘In other words, even if his recent claims

about this evidence is true, it could all be read by the jury to support, rather than detract, from his
future dangerousness claim.’” Doc 230 at 18 (quoting Johnson v. Cockrell, 306 F.3d 249, 253
(5th Cir. 2002)). The Magistrate Judge also found that “Canales’ history of heart disease, while
compelling, is also double-edged in that it contributed to his act of murdering the victim in order
to be protected by the Texas Mafia.” Doc 230 at 19.
The Magistrate Judge concluded his discussion of the merits of Petitioner’s claim by
7

79a

Case 2:03-cv-00069-JRG-RSP Document 236 Filed 09/22/17 Page 8 of 21 PageID #: 4506

noting that “there is no reasonable probability that a juror would have found that the mitigating
evidence outweighed the aggravating evidence.” Doc 230 at 19. Finally, the Magistrate Judge
recommended that Petitioner be denied a certificate of appealability. Doc 230 at 20.
SPECIFIC OBJECTIONS TO THE REPORT AND RECOMMENDATION
A.

The Magistrate Judge Wrongly Dismissed Virtually All Mitigation Evidence as
“Double-edged.”

The Magistrate Judge characterized almost all of Canales’s most compelling evidence as
“double-edged.”

This broad and inaccurate categorization included childhood sexual and

physical abuse, brain injury, drug and alcohol problems, and even Canales’s life threatening
heart disease. Doc 230 at 18-19.
Such dismissal of so-called “double-edged” evidence is inconsistent with the Supreme
Court’s treatment of the prejudice inquiry in an ineffective assistance of trial counsel claim.
When conducting a prejudice analysis pursuant to Strickland v. Washington, 466 U.S. 668
(1984), a state court may not discount mitigation evidence because of its perceived aggravating
aspects. For instance, in Porter v. McCollum, 558 U.S. 30, 42 (2009), the Supreme Court found
it unreasonable for the state court to discount important mitigating evidence about the
defendant’s military record because it had aggravating components, including that the defendant
had gone AWOL more than once.4

In Porter, the capital habeas applicant had presented

evidence that trial counsel’s deficient sentencing investigation resulted in the omission from trial
of mitigating information about, inter alia, the applicant’s military service and childhood abuse.
558 U.S. at 34-35. In concluding that prejudice had not been established, the state court

4

In Porter, the Supreme Court addressed the prejudice inquiry under 28 U.S.C. § 2254(d) to determine whether the
state court’s adjudication was “unreasonable.” Because Canales did not receive merits review in state court of his
ineffectiveness claim, this Court is not bound by the highly deferential standards in the habeas statute and must
instead provide de novo review of his claim. See, e.g., Hughes v. Quarterman, 530 F.3d 336, 340-41 (5th Cir.
2008).

8

80a

Case 2:03-cv-00069-JRG-RSP Document 236 Filed 09/22/17 Page 9 of 21 PageID #: 4507

discounted the significance of this evidence because, in its view, it contained double-edged
aspects, including that applicant had gone AWOL more than once. Id. at 43. The Supreme Court
concluded that the state court’s discounting of the applicant’s military service in light of its
potentially aggravating components was an unreasonable application of Strickland. Id. The Court
observed that the aggravating components of the evidence were “consistent with” mitigation
themes of the stress and mental and emotional toll placed on the applicant by his service and that
the aggravating components “d[id] not impeach or diminish the evidence of his service.” Id.
1.

Under no circumstances could some of the mitigating evidence be
considered “double-edged”

The Report’s reliance on the alleged “double-edged” nature of Canales’s mitigation
evidence is even more far-fetched than the unreasonable treatment of mitigating evidence by the
state court in Porter. First, some of Canales’s evidence cannot be considered “double-edged”
under any reasonable interpretation of the evidence. Andy Canales suffered extreme deprivation
and abandonment by his parents. This neglect left him and his sisters vulnerable to sadistic and
violent sexual predators. This is the quintessential type of evidence to elicit sympathy from at
least one juror, and in no way can be construed in an aggravating manner.
Similarly, Canales presented expert evidence about the substantial and adverse
psychological effect caused by his upbringing. Dr. Maddox explained that the trauma, including
horrendous physical abuse in the home, caused Andy to have posttraumatic stress disorder and
depression. For instance, Andy was only six years old when Carlos Espinoza, his step-father,
beat him with belts and his fist. More ominously, Carlos often stripped Andy before beating
him. Doc 220-1 at 26; Doc 220-1 at 54. Elizabeth, Andy’s sister, graphically describes Carlos’
violence toward Andy:
Andy didn’t stand a chance with Carlos. Beatings were a regular thing at our
9

81a

Case 2:03-cv-00069-JRG-RSP Document 236 Filed 09/22/17 Page 10 of 21 PageID #: 4508

house. He would drag Andy around by his ears. Carlos would beat Andy with a
belt. He would beat Andy until he had welts all over his back, and butt, and arms
and legs. We were always having to kneel in a corner for punishment. Andy had
to strip sometimes to be beaten. Andy and I were always afraid we would do
something wrong around him. I remember seeing Andy lying naked, curled up in
a ball, and Carlos hitting him as hard as he could with the buckle end of the belt.
Carlos would beat Andy until he had welts and bruises all over his body.
Doc 220-1 at 26; Doc 7, Exhibit 17. Andy received the worst of the beatings because he did his
best to protect Elizabeth. Id.
Carlos began sexually molesting Elizabeth when she around five years old. Doc 220-1.
Andy witnessed Carlos rape his sister twice. Doc 220-3 at 2. The first time, Andy disclosed
what he saw to his mother; on the second occasion, Carlos beat him after Andy revealed what
happened. Doc 220-3 at 2.
Elizabeth courageously related the graphic details of one of the horrible rapes she
endured, which occurred when she was physically ill:
My most vivid memory I have of being molested was a time I was sick, I was
having fevers. I went in to sleep with my Mom, and Carlos put me in between
them, which I didn’t want. My mom got up in the morning and left, and I woke up
and Carlos was all over me. I was in my underwear, and Carlos started rubbing
me and putting his hands all over me and having me rub him and all that, it was
horrible. I was crying and crying, and he kept slapping me in the head to get me to
stop. I finally did because I just kept getting slapped. And he had me sit on him,
and then he flipped me over and he had my hands pinned above my head and he
took my leg and was getting my underwear off.
Doc 220-1 at 29; Doc 7, Exhibit 17, at 2. On that occasion, Andy tried to rescue her:
Andy was home--it must have been a Saturday morning--and he came in and
started yelling, “I’m gonna tell, I’m gonna tell!” Carlos got off me and ran after
Andy, and Andy dodged him, and came in and got me and we ran downstairs to
the neighbors. I was naked, and I was bleeding from a busted lip and we were just
trying to get them to call my mom. The neighbors knew what was going on, but
they were the type, they just didn’t want to know, didn’t want to be involved.
They finally got a hold of my Mom, and she came down and got me. She took me
to my uncle Joe and aunt Bonnie’s and we were there for a while. They didn’t
know what happened.

10

82a

Case 2:03-cv-00069-JRG-RSP Document 236 Filed 09/22/17 Page 11 of 21 PageID #: 4509

Id. When Andy was six years old, Carlos tried to rape him. Carlos also stripped Andy before he
beat his stepson. Doc 220-1 at 30; Doc 220-3 (report of Dr. Maddox). It is inconceivable that
Andy’s childhood victimization would somehow count against him or that any juror could
possibly view Andy’s efforts to protect his sister as a fact to be used against him when deciding
on the appropriate punishment.
2.

The jury heard some of the “double-edged” evidence anyway; the
mitigation aspect of this evidence would have provided jury with a better
understanding and more sympathetic account for this evidence.

Second, the jury heard the details of the murder, including testimony about Canales’s
membership in a prison gang. Consequently, mitigation evidence that acknowledged what the
jury already knew but that explained the factors that led to gang involvement would have been
considered mitigating and not as additional evidence in aggravation. For instance, since the jury
learned of gang involvement anyway, then evidence that Andy grew up in a gang-infested
neighborhood and that gang members preyed on vulnerable children would have helped the jury
better understand his circumstances. Similarly, evidence that older gang members provided
Andy with alcohol and that alcohol abuse was common in his family would have made his
subsequent alcoholism more understandable. As Dr. Maddox noted in her report, “prisoner[s]
who were involved in street gangs had more exposure to violence, symptoms of PTSD, paranoia,
anxiety and forced behavioral control. Doc 228-3 at 16 (citing Wood, Jane L. and Dennard,
Sophie (2016), Gang membership: links to violence exposure, paranoia, PTSD, anxiety and
forced control of behavior in prison. Psychiatry: Interpersonal and Biological Processes, ISSN
0033-2747. (In press)). Doc 220-3 at 15-16.
This same point also applies to Andy’s life-threatening heart condition. The jury learned
about the details of the offense, including the operation of the prison gang, regardless of what

11

83a

Case 2:03-cv-00069-JRG-RSP Document 236 Filed 09/22/17 Page 12 of 21 PageID #: 4510

kind of mitigating evidence the defense presented. As acknowledged by the Magistrate Judge,
evidence

of

Andy’s

heart

disease

is

“compelling.”

Doc

230

at

19.

Since the jury already heard about Andy’s involvement in the murder, evidence that would have
given the jury an understanding of how vulnerable Andy was and why he believed his own life to
be in danger could only have been mitigating and not “double-edged.” Doc 230 at 13-14.
3.

Mitigating evidence that presents the defendant as a whole person and
provides a coherent mitigation theory cannot be dismissed as “doubleedged”

Third, if all mitigating evidence, such as mental illness, substance abuse, or cognitive
deficits could always be discounted because they are “double-edged,” then it would be virtually
impossible for anyone to prevail on a claim arising under Wiggins. In fact, the Supreme Court
and other federal courts have recognized that the possibility that mitigation evidence might
portray the defendant in a negative light does not detract from its value in presenting the
defendant as a whole person. For instance, as the Supreme Court observed in Sears v. Upton,
[T]he fact that along with this new mitigation evidence there was also
some adverse evidence is unsurprising, given that counsel’s initial mitigation
investigation was constitutionally inadequate. Competent counsel should have
been able to turn some of the adverse evidence into a positive – perhaps in
support of a cognitive deficiency mitigation theory. In particular, evidence of
Sears’ grandiose self-conception and evidence of his magical thinking, were
features, in another well-credentialed expert’s view, of a “profound personality
disorder.” This evidence might not have made Sears any more likable to the jury,
but it might well have helped the jury understand Sears, and his horrendous acts –
especially in light of his purportedly stable upbringing.
Sears v. Upton, 561 U.S. at 951.
The Fifth Circuit has also recognized the value of mitigation evidence, despite its
negative aspects.

In Adams v. Quarterman, the court rejected the type of analysis

contained in the Report:
The State contends that the post-conviction affidavits are “double-edged,”
12

84a

Case 2:03-cv-00069-JRG-RSP Document 236 Filed 09/22/17 Page 13 of 21 PageID #: 4511

and that if the affiants had so testified at trial, the State would have impeached
any mitigating evidence with evidence of, inter alia, Adams's childhood thefts,
teenage marijuana use, absence without leave from the Army, gang affiliation,
and racist attitude. We recognize that the State may have followed such a strategy
at the trial's punishment phase, but we cannot conclude that the aggravating effect
of this evidence would have outweighed the mitigating evidence in a reasonable
jury's minds.
[. . . .]
We conclude that Pickett's insufficient investigation prevented his
discovery of substantial, readily available mitigating evidence of Adams's
childhood abuse, neglect, and abandonment. A reasonable probability exists that,
absent these errors (and even when considering the aggravating aspects of
Adams's crime), a jury would have determined that “‘the balance of aggravating
and mitigating circumstances did not warrant death.’”
Adams v. Quarterman, 324 F. App’x 340, 352, 2009 WL 1069330 * 8 (5th Cir. 2009).
Other courts have reached similar conclusions. In Thomas v. Horn, 570 F.3d 105
(3rd Cir. 2009), the court found prejudice even though some of the petitioner’s mental
health history could have been used by the prosecution as evidence in aggravation:
While we agree with the Commonwealth that some of Thomas’ mental
health history paints him in a negative light, we are not convinced that the death
penalty is a fait accompli even if evidence of Thomas’ mental health history were
available at sentencing. Certainly, evidence that Thomas is a sadistic and
dangerous sexual deviate who committed at least one prior act that bears
resemblance to the crime in this case is not mitigating. Additionally, the quantity
of aggravating evidence that the jury already did consider was significant. But
Thomas’ mental health history acts as a common thread that ties all this evidence
together. A single juror may well have believed that this unifying factor explained
Thomas' horrific actions in a way that lowered his culpability and thereby
diminished the justification for imposing the death penalty.
Id. at 129.
In Johnson v. Mitchell, 585 F.3d 923 (6th Cir. 2009), the court found prejudice
because in light of the new mitigating evidence, “a drastically different portrait of the
petitioner emerge[d].” Id. at 945. The new evidence showed that the petitioner “endured
hardships and traumatic experiences” and developed a personality disorder that helped
13

85a

Case 2:03-cv-00069-JRG-RSP Document 236 Filed 09/22/17 Page 14 of 21 PageID #: 4512

explain aspects of his conduct. There was evidence of cocaine abuse and a psychological
report found that the petitioner could react to situations in emotional outbursts. Id. The
court held that it was prejudicial for defense counsel not to present evidence of
petitioner’s personality disorder:
[A]lthough not absolving him of responsibility for his crimes, [the
disorder] helped explain why certain circumstances would be viewed by the
petitioner in certain ways and would prompt certain abnormal responses. The
jury might also have seen Johnson as an individual struggling to act appropriately
in the face of paranoia and a distorted world view, a struggle that was only
exacerbated by drug abuse. To hold in this case that serious consideration of such
evidence could not have “change[d] the calculation the jury previously made
when weighing the aggravating and mitigating circumstances of the murder,” . . .
is -- in our judgment -- to ignore reality.
Johnson, 585 F.3d at 945. See also Correll v. Ryan, 539 F.3d 938, 955 (9th Cir. 2008)
(finding prejudice even though mitigating evidence would have opened the door to
“damaging rebuttal” evidence, including escapes from mental health facilities and
hostage taking situations; evidence could “have been used to support Correll’s claims of
dysfunctional upbringing and continuing mental disorder.”); Davidson v. State, 453
S.W.3d 386, 405 (Tenn. 2014) (finding prejudice despite State’s argument about “doubleedged” mitigation because the new mitigating evidence “had great potential to help
explain the invisible mental machinations that made him behave this way”).
4.

Treating mitigation evidence as “double-edged” results in a
misapplication of the Strickland prejudice test.

Finally, the State’s argument about the potential adverse impact of “doubleedged” mitigation turns the Strickland prejudice test on its head. The question is not
whether it is possible that some juror could have applied the mitigating evidence in a
negative manner. Rather, the question is whether there is a reasonable probability that at
least one juror would have declined to vote for a death sentence after hearing evidence
14

86a

Case 2:03-cv-00069-JRG-RSP Document 236 Filed 09/22/17 Page 15 of 21 PageID #: 4513

that both the Magistrate Judge and Director recognized as compelling.
Here, jurors were instructed that they should “consider mitigating evidence to be
evidence that a juror might regard as reducing the defendant’s moral blameworthiness.”
Court Record at 106. Here, there is certainly a reasonable probability that at least one of
the jurors would have regarded this evidence in a mitigating manner and voted for a life
sentence.
Because of trial counsel’s deficient performance, the jury knew virtually nothing about
Canales and or the terrible circumstances in his life that led to severe mental illness and cognitive
impairments. As the Supreme Court explained in Sears v. Upton, adequate defense counsel
would have used the type of evidence presented to this court to place Petitioner’s conduct in
context and help jurors understand how he came to be in the situation he was in. Sears v. Upton,
561 U.S. at 951. This new evidence, then, “might well have influenced the jury’s appraisal of
[Petitioner’s] moral culpability” and led to a sentence less than death. Wiggins v. Smith, 539 U.S.
at 538 (citation omitted).
B.

The Magistrate Judge Misapplied the Prejudice Inquiry.

The Magistrate Judge recommended that relief be denied because “the aggravating
evidence far outweighs the mitigating evidence.” Doc 230 at 17. Here, however, the jury was
not asked to weigh the aggravating evidence, primarily evidence of future dangerousness, against
the mitigating evidence. The instructions at the penalty phase required the jury to answer
whether there is a probability that the defendant would commit criminal acts of violence that
would constitute a continuing threat to society (the “future dangerousness special issue”). TEX.
CODE CRIM. PROC. art. 37.071, § 2(b)(1); Court Record at 105. Second, the jury had to answer
whether the defendant actually caused or intended to cause the death of the victim. Court Record

15

87a

Case 2:03-cv-00069-JRG-RSP Document 236 Filed 09/22/17 Page 16 of 21 PageID #: 4514

at 105. Finally, jurors had to answer whether, taking into consideration all of the evidence,
including the circumstances of the offense, the defendant’s character and background, and the
personal moral culpability of the defendant, there are sufficient mitigating circumstances to
warrant a life sentence (the “mitigation special issue”). Id., § 2(e); Court Record at 106. If the
jury unanimously answered “yes” to future dangerousness and “no” to mitigation, then the trial
court would have had to impose a death sentence. If any juror dissented on either question, the
trial court would have been required to assess a life sentence. Id., § 2(g).
Texas is not a “weighing state,” so a defendant’s capital sentencing jury is not asked to
weigh aggravating evidence against mitigating evidence when considering a capital sentence. See
Ex parte Gonzales, 204 S.W.3d 391, 394 (Tex. Crim. App. 2006) (“Texas’ capital sentencing
scheme does not involve the direct balancing of aggravating and mitigating circumstances.”); Ex
parte Davis, 866 SW 2d 234, 239 (Tex. Crim. App. 1993) (“Unlike Florida, where Strickland
arose, we do not have a capital sentencing scheme that involves the direct balancing of
aggravating and mitigating circumstances.”). Indeed, “[t]he issue of future dangerousness is
completely independent of the [mitigation] special issue[.]” Eldridge v. State, 940 S.W.2d 646,
654 (Tex. Crim. App. 1996). Regardless of how much the record supports the future
dangerousness finding, sufficient evidence of mitigation precludes a capital sentence. Moreover,
Texas law imposes no burden of proof on any party with respect to the mitigation special issue.
Blue v. State, 125 S.W.3d 491, 501 (Tex. Crim. App. 2003) (“neither party bears the burden of
proof at punishment on the mitigating evidence special issue”) (quoting Basso v. State, No. AP73,672, slip op. at 36–37, 2003 WL 1702283 (Tex. Crim. App. Jan. 15, 2003)). Thus, a juror at a
Texas capital trial could answer the mitigation special issue affirmatively even where very little
mitigating evidence was offered.

16

88a

Case 2:03-cv-00069-JRG-RSP Document 236 Filed 09/22/17 Page 17 of 21 PageID #: 4515

As the Texas Court of Criminal Appeals has observed, by the time a jury begins
considering the mitigation special issue, it has already answered the future dangerousness special
issue affirmatively. Prystash v. State, 3 S.W.3d 522, 535 (Tex. Crim. App. 1999) (“The jury does
not decide the mitigation special issue until after the State has proven the elements of capital
murder and that the defendant is a future danger”). Thus, by the time a jury is considering the
mitigation special issue, it has already answered affirmatively to the future dangerousness issue
and its focus is strictly on the mitigation evidence. The aggravating components are therefore
irrelevant to a Strickland prejudice analysis for a Texas capital trial.
At one point in the Report, the Magistrate Judge appeared to suggest that the
ineffectiveness claim could not be prejudicial because of the evidence supporting a finding of
future dangerousness.

In quoting Johnson v. Cockrell, 306 F.3d 249 (5th Cir. 2002), the

Magistrate Judge noted that the so-called “double-edged” evidence could “support, rather than
detract, from his future dangerousness claim.” Doc 230 at 18 (quoting Johnson, 306 F.3d at
253). As noted above, the future dangerousness question is distinct from the juror’s question
about mitigating evidence.
Furthermore, federal and state law provides that jurors are free to vote for a life sentence
even if they answer the future danger issue in the affirmative. The Supreme Court addressed this
very point in Williams v. Taylor, 529 U.S. 362 (2000). There, the Commonwealth presented
evidence that Williams had prior convictions for armed robbery, burglary, grand larceny, and
auto theft. In addition, it showed that Williams had attacked elderly victims on two separate
occasions and that one of them was in a “vegetative state” and not expected to recover. Id. at
368. Furthermore, two experts testified for the State that there was a “high probability” that
Williams “would pose a serious continuous threat to society.” Id. When the case reached the

17

89a

Case 2:03-cv-00069-JRG-RSP Document 236 Filed 09/22/17 Page 18 of 21 PageID #: 4516

Fourth Circuit, that Court found the evidence that Williams was a future danger to society was
“simply overwhelming.” Id. at 374 (citing 163 F.3d 860, 868 (4th Cir. 1998)).
Even reviewing the case under the deferential provisions of the Antiterrorism and
Effective Death Penalty Act (“AEDPA”), the Supreme Court found the state court’s failure to
find prejudice unreasonable.

The Court found that “[m]itigating evidence unrelated to

dangerousness may alter the jury’s selection of penalty, even if it does not undermine or rebut
the prosecution’s death-eligibility case.” Id. at 398. Thus, the Supreme Court recognized that
“the graphic description of Williams’ childhood, filled with abuse and privation, or the reality
that he was ‘borderline mentally retarded,’ might well have influenced the jury’s appraisal of his
moral culpability.” Id. (citing Boyde v. California, 494 U. S. 370, 387 (1990)). Here, where the
AEDPA review does not apply, there is no question that Petitioner is entitled to relief.
C.

The Magistrate Judge Erred in Not Recommending the Issuance of a Certificate of
Appealabilty (“COA”).

The Magistrate Judge concluded the recommendation by stating that “reasonable jurists
could not debate the denial of Canales’s § 2254 petition on procedural or substantive grounds,
nor find that the issues presented are adequate to deserve encouragement to proceed.” Doc 230
at 20 (citing Miller-El v. Cockrell¸ 537 U.S. 322, 327 (2003)). Given the unique facts of this
case and the Magistrate Judge’s questionable application of controlling law, this Court should
grant a certificate of appealability on the question of whether he can show prejudice to overcome
any procedural default and the related question about prejudice on the substance of his Strickland
claim.
To receive a COA, a habeas petitioner must show “that reasonable jurists could debate
whether (or, for that matter, agree that) the petition should have been resolved in a different
manner or that the issues presented were ‘adequate to deserve encouragement to proceed
18

90a

Case 2:03-cv-00069-JRG-RSP Document 236 Filed 09/22/17 Page 19 of 21 PageID #: 4517

further.’” Slack v. Daniel, 529 U.S. 473, 484 (2000) (quoting Barefoot v Estelle, 463 U.S. 880,
893, n.4 (1983)). A COA does not require a showing that the appeal will succeed. Miller-El, 537
U.S. at 337; see also Buck v. Davis, 137 S. Ct. 759, 773 (2017) (“The COA inquiry, we have
emphasized, is not coextensive with a merits analysis.”). Furthermore, “[i]t is consistent with §
2253 that a COA will issue in some instances where there is no certainty of ultimate relief.
Indeed, a claim can be debatable even though every jurist of reason might agree, after the COA
has been granted and the case has received full consideration, that petitioner will not prevail.” Id.
at 338; Buck, 137 S. Ct. at 774. “Any doubt whether to grant a COA is resolved in favor of the
petitioner, and the severity of the penalty may be considered in making this determination.”
Miller v. Johnson, 200 F.3d 274, 280 (5th Cir. 2000).
There are a number of factors weighing heavily in favor of issuing a COA in this case
even if the Court adopts the merits of the Report and Recommendation. First, the Fifth Circuit
was aware of all of the aggravating evidence and evidence regarding the murder in this case and
still found the ineffectiveness claim substantial, which in the context of a challenge to the
performance of state habeas counsel is similar to the standard for the issuance of a COA. See
Martinez v. Ryan, 132 S. Ct. 1309, 1318B19 (2012) (citing Miller-El v. Cockrell, 537 U.S. 322
(2003)). If the claim was substantial enough on the limited mitigation record before the Fifth
Circuit, then it is certainly substantial enough for a certificate of appealability now that Petitioner
has supplemented the record.
Second, a COA should issue because even the Magistrate Judge and the Director have
recognized the compelling nature of Petitioner’s mitigating evidence. See, e.g., Doc. 228 at 11,
17. Given the significant amount of mitigating evidence presented during these proceedings
compared with the absence of any trial evidence about Canales’s background and mental health,

19

91a

Case 2:03-cv-00069-JRG-RSP Document 236 Filed 09/22/17 Page 20 of 21 PageID #: 4518

this issue is at least debatable.
Finally, this issue is at least debatable because the Magistrate Judge’s resolution of the
issue involved a questionable application of controlling precedent. The Supreme Court has
expressly recognized that mitigation evidence cannot be disregarded as “double-edged” merely
because the Magistrate Judge speculated that some juror could have viewed some of this
evidence as a reason to vote for a death sentence rather than a life sentence. Additionally, it
would be at least debatable were the Court to deny relief due to its treatment of Texas as a
weighing state or because it focused narrowly on the question of future dangerousness.
CONCLUSION
Wherefore, for the foregoing reasons, the Court should reject the Report and
Recommendation of the United States Magistrate Judge and find that Petitioner has shown
prejudice to overcome the default and prevail on the merits of his ineffectiveness of trial counsel
claim. In the alternative, the Court should grant an evidentiary hearing. Finally, even if the
Court adopts the Report and Recommendation, Petitioner asks the Court to grant a COA.
Respectfully submitted on September 22, 2017.
/s DAVID P. VOISIN

/s TERESA L. NORRIS
Teresa L. Norris
101 Meeting Street, 5th Floor
Charleston, SC 29401
(843) 958-1858
tlnorris@charlestoncounty.org

David P. Voisin
P.O. Box 13984
Jackson, MS 39236
(601) 949-9486
david@dvoisinlaw.com

20

92a

Case 2:03-cv-00069-JRG-RSP Document 236 Filed 09/22/17 Page 21 of 21 PageID #: 4519

CERTIFICATE OF SERVICE
I certify that I have served the foregoing Motion via the Court’s ECF system on
Counsel for Respondent:
This the 22nd day of September 2017.
/s DAVID P. VOISIN

21

93a

Case: 18-70009

Document: 00514733249

Page: 1

Date Filed: 11/21/2018

Case No. 18-70009
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
ANIBAL CANALES, JR., Petitioner-Appellant
v.
LORIE DAVIS, DIRECTOR,
TEXAS DEPARTMENT OF CRIMINAL JUSTICE, CORRECTIONAL
INSTITUTIONS DIVISION, Respondent-Appellee. _________________
APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
___________________
PETITIONER-APPELLANT’S BRIEF ON APPEAL
___________________
THIS IS A DEATH PENALTY CASE
David P. Voisin
Mississippi Bar # 100210
P. O. Box 13984
Jackson MS 39236
(601) 949-9486
david@dvoisinlaw.com

Joseph J. Perkovich
New York Bar # 4481776
Phillips Black, Inc.
P.O. Box 4544
New York, NY10163-4544
(212) 400-1660
j.perkovich@phillipsblack.org

Members of Fifth Circuit Bar
Counsel for Anibal Canales, Jr.

i

94a

Case: 18-70009

Document: 00514733249

Page: 2

Date Filed: 11/21/2018

CERTIFICATE OF INTERESTED PERSONS
Case No. 18-70009.
The undersigned counsel of record certifies that the following listed persons
and entities as described in the fourth sentence of Rule 28.2.1 have an interest in
the outcome of this case. These representations are made in order that the judges of
this court may evaluate possible disqualification or recusal:
Anibal Canales, Jr., Petitioner-Appellant
Lorie Davis, Respondent-Appellee
Jack Carter, Bowie County, state court judge who presided at trial
Family of Gary Dickerson
Mr. Canales’s prior counsel:
Counsel for the State of Texas
Paul Hoover, trial counsel
Mark Mullin, trial prosecutor
Jeff Harrelson, trial counsel
Candace Norris, trial prosecutor
Troy Hornsby, state habeas counsel
Counsel for Respondent-Appellee:
Tina Miranda
s/ Joseph J. Perkovich
Attorney of record for Anibal Canales, Jr.
Petitioner-Appellant

ii

95a

Case: 18-70009

Document: 00514733249

Page: 3

Date Filed: 11/21/2018

REQUEST FOR ORAL ARGUMENT
Petitioner-Appellant, Anibal Canales, Jr., respectfully requests oral argument
in this capital case. The district court’s decision, which is not subject to AEDPA1
deference, concerns extensive new evidence developed upon the 2014 remand
from the Court’s ruling that trial counsel’s performance in the penalty phase was
deficient for failing to investigate and present available mitigating evidence. Oral
argument will considerably assist the Court in evaluating the extensive new
evidence bearing upon the adequacy of the district court’s prejudice review, which
treated that concededly compelling new evidence as “double-edged.”

1

Antiterrorism and Effective Death Penalty Act (“AEDPA”), Pub. L. No. 104-132, 110 Stat.
1214, codified across 28 U.S.C. § 2244 et seq.

iii

96a

Case: 18-70009

Document: 00514733249

Page: 4

Date Filed: 11/21/2018

TABLE OF CONTENTS
CERTIFICATE OF INTERESTED PERSONS ...................................... II
REQUEST FOR ORAL ARGUMENT .................................................... III
TABLE OF CONTENTS ........................................................................... IV
TABLE OF AUTHORITIES ..................................................................... VI
STATEMENT OF JURISDICTION ...........................................................1
STATEMENT OF THE ISSUE....................................................................1
STATEMENT OF THE CASE ....................................................................2
A. Procedural Background. ....................................................................2
B. Factual Background. ..........................................................................5
C. Nature And Quality Of The New Mitigation Evidence. .................7
D. The District Court’s Analysis. .........................................................12
SUMMARY OF THE ARGUMENT .........................................................14
ARGUMENT................................................................................................16
I.

LEGAL INQUIRY .............................................................................16
A. Standard of Review. .........................................................................16
B. AEDPA Does Not Govern This Court’s De Novo Review Because
The State Courts Did Not Address This Issue...............................17
C. The Test For Wiggins Prejudice Is Whether It Is Reasonably
Probable The New Mitigation Would Have Raised Doubt In At
Least One Juror. ..............................................................................21

II. THE NEW EVIDENCE WAS BROADLY, INHERENTLY
MITIGATING AND NOT VULNERABLE TO MEANINGFUL
DOUBLE-EDGED ANALYSIS. .....................................................22
A. This Court’s 2014 Remand Opinion Finding Deficient
Performance Recognized That Prejudice Was Likely. ..............22
B. The New Mitigation Evidence In This Case Was Not “DoubleEdged.” ...........................................................................................25
iv

97a

Case: 18-70009

Document: 00514733249

Page: 5

Date Filed: 11/21/2018

1. Any aggravating “edge” was already before the jury, courtesy of
the State’s case against Mr. Canales, and the new evidence opened
no door to further aggravation........................................................25
2. The district court accepted Respondent-Appellee’s unconstitutional
categorical version of the “double-edged” argument, preempting
actual weighing of the new evidence. ..............................................28
a. The district court categorically discredited the new mitigation
evidence on the inaccurate premise that it created an
aggravating effect. .......................................................................28
b. Employing the “brutality trumps” approach, the district court
side-stepped the mitigating quality of the new evidence. ............31
3. There is no principled basis for taking the new mitigation as
aggravating......................................................................................37
a. The new mitigation would have supplied the jurors with
multifarious reasons for punishment by a sentence less than
death ............................................................................................37
b. The district court’s cynical use of “double-edged” would swallow
the Sixth Amendment right protected by Wiggins. ......................40
III. THE DISTRICT COURT’S AMORPHOUS, INCORRECT USE
OF
THE
“DOUBLE-EDGED”
CONCEPT
UNCONSTITUTIONALLY PROHIBITS CONSIDERATION
OF THE INDEPENDENT MITIGATING EFFECT OF THE
NEW EVIDENCE. ...........................................................................41
A. The District Court’s Analysis Violates The Foundational PostGregg v. Georgia Jurisprudence On Mitigation Leading To
Penry v. Lynaugh. ............................................................................41
B. After Penry, The Supreme Court Still Corrected Attempts To
Limit Consideration Of The Independent Mitigating Effect Of
Evidence. ...........................................................................................45
IV.

PETITIONER-APPELLANT’S MERITORIOUS WIGGINS
CLAIM ESTABLISHES CAUSE AND PREJUDICE TO
OVERCOME STATE POST-CONVICTION COUNSEL’S
DEFAULT.........................................................................................47

CONCLUSION ............................................................................................49

v

98a

Case: 18-70009

Document: 00514733249

Page: 6

Date Filed: 11/21/2018

TABLE OF AUTHORITIES
Cases

Abdul-Kabir v. Quarterman, 550 U.S. 233 (2007) ............................... 15, 19, 45, 46
Atkins v. Virginia, 536 U.S. 304 (2002)...................................................................42
Blanton v. Quarterman, 543 F.3d 230 (5th Cir. 2008), cert. denied, 556 U.S. 1240
(2009) ...................................................................................................................12
Boyle v. Johnson, 93 F.3d 180 (5th Cir. 1996) ........................................................38
Buck v. Davis, 137 S. Ct. 759 (2017) ............................................................... passim
California v. Brown, 479 U.S. 538 (1987)...............................................................43
Canales v. State, 98 S.W.3d 690 (Tex.Crim.App. 2003) ................................ passim
Canales v. Stephens, 765 F.3d 551 (5th Cir. 2014) ......................................... passim
Coleman v. Thompson, 501 U.S. 722 (1991) ...........................................................47
Davila v. Davis, 137 S. Ct. 2058 (2017) ..................................................................49
Eddings v. Oklahoma, 455 U.S. 104 (1982) ..................................................... 42, 45
Ex parte Canales, No. 54,789-01 (Tex.Crim.App. Apr. 5, 2003) .............................2
Ex parte Canales, No. WR-54,789-02, 2008 WL 383804 (Tex. Crim. App. Feb. 13,
2008) ........................................................................................................... 2, 6, 18
Gardner v. Johnson, 247 F.3d 551 (2001) ............................................ 15, 35, 36, 37
Graham v. Collins, 506 U.S. 461 (1993) .................................................................19
Gregg v. Georgia, 428 U.S. 153 (1976) ........................................................... 41, 43
Hitchcock v. Dugger, 481 U.S. 393 (1987) .............................................................45
vi

99a

Case: 18-70009

Document: 00514733249

Page: 7

Date Filed: 11/21/2018

Johnson v. Cockrell, 306 F.3d 249 (5th Cir. 2002), cert denied, 538 U.S. 926
(2003) ............................................................................................................ 13, 25
Lewis v. Dretke, 355 F.3d 364 (5th Cir. 2003) ................................................ passim
Locket v. Ohio, 438 U.S. 586 (1978) .......................................................... 19, 41, 45
Lockett v. Ohio, 438 U.S. 586 (1978). .....................................................................41
Martinez v. Quarterman, 481 F.3d 249 (5th Cir. 2007) ................................... 33, 34
Martinez v. Ryan, 566 U.S. 1 (2012) .................................................................. 2, 47
Moore v. Johnson, 194 F.3d 586 (5th Cir 1999)......................................................41
Motley v. Collins, 18 F.3d 1223 (5th Cir. 1994) ......................................................38
Pape v. Thaler, 645 F.3d 281 (5th Cir. 2011)..........................................................17
Penry v. Lynaugh, 492 U.S. 302 (1989) ..................................................... 15, 42, 43
Rector v. Johnson, 120 F.3d 551 (5th Cir. 1997), cert. denied, 522 U.S. 1120
(1998) ...................................................................................................................24
Robertson v. Cockrell, 325 F.3d 242 (5th Cir. 2003) ..............................................38
Skipper v. South Carolina, 476 U.S. 1 (1986) .........................................................45
St. Aubin v. Quarterman, 470 F.3d 1096 (5th Cir. 2006) ................................. 24, 25
Strickland v. Washington, 455 U.S. 558, 694 (1994) ....................................... 12, 21
Tennard v. Dretke, 542 U.S. 274 (2004) .................................................................38
Trevino v. Davis, 138 S. Ct. 1793 (2018) ................................................................40
Trevino v. Davis, 829 F.3d 328 (5th Cir. 2016) .......................................................41
Trevino v. Thaler, 569 U.S. 413 (2013) .....................................................................2
vii

100a

Case: 18-70009

Document: 00514733249

Page: 8

Date Filed: 11/21/2018

United States v. Shepherd, 880 F.3d 734 (5th Cir. 2018) ........................................17
Vanderbilt v. Collins, 994 F.2d 189 (5th Cir. 1993) ................................................36
Walbey v. Quarterman, 309 F. App’x 795 (5th Cir. 2009) ............................. passim
Walbey v. State, 926 S.W.2d 307 (Tex. Crim. App. 1996)......................................36
Wiggins v. Smith, 539 U.S. 510 (2003) ............................................................ passim
Williams v. Taylor, 529 U.S. 362 (2000) ......................................................... passim
Wong v. Belmontes, 558 U.S. 15 (2009) ........................................................... 25, 26
Statutes

Antiterrorism and Effective Death Penalty Act (“AEDPA”), Pub. L. No. 104-132,
110 Stat. 1214, codified across 28 U.S.C. § 2244 et seq. .................. iii, 18, 19, 37
28 U.S.C. § 1291 ........................................................................................................1
28 U.S.C. § 2253 ........................................................................................................1
28 U.S.C. § 2254 ..................................................................................... 1, 17, 18, 49
28 U.S.C. § 2255 ......................................................................................................17
Tex. Code Crim. Proc. Ann., § 27.071(c)-(e) (West 1985) .....................................42
1991 Tex. Sess. Law Serv. Ch. 838 (West) .............................................................43
Tex. Crim. Proc. Code Ann. § 11.071(5)(a) (West) ......................................... 18, 43
Tex. Crim. Proc. Code Ann. § 37.071 (West 2013) ......................................... 21, 43
Other Authorities

ABA Supplementary Guidelines for the Mitigation of Defense Teams in Death
Penalty Cases, 36 Hofstra L. Rev. 677 (2008) ....................................... 35, 39, 45
viii

101a

Case: 18-70009

Document: 00514733249

Page: 9

Date Filed: 11/21/2018

John H. Blume & Sheri L. Johnson, The Fourth Circuit’s “Double-Edged
Sword”: Eviscerating the Right to Present Mitigating Evidence and Beheading
the Right to the Assistance of Counsel, 58 MARYLAND L. REV. 1480, 1502
(1999). ..................................................................................................... 29, 30, 40
Stephen P. Garvey, Aggravation and Mitigation in Capital Cases: What do Jurors
Think?, 98 COLUM. L. REV. 1538 (1998) .............................................................30
Samuel P. Gross, Update: American Public Opinion on the Death Penalty—It’s
Getting Personal 83 CORNELL L. REV. 1448, 1469 (1998) .................................30

ix

102a

Case: 18-70009

Document: 00514733249

Page: 10

Date Filed: 11/21/2018

STATEMENT OF JURISDICTION
The district court exercised jurisdiction over the matters addressed herein
pursuant to 28 U.S.C. § 2254. This Court has jurisdiction pursuant to 28 U.S.C.
§§ 1291 and 2253. On September 27, 2017, the district court simultaneously
denied relief and a certificate of appealability (COA). ROA.4520. The district
court then denied a timely filed motion to alter or amend the judgment on January
26, 2018. ROA.4578. The notice of appeal was filed on February 21, 2018.
ROA.4587. This Court granted Mr. Canales’s COA application on the single issue
described herein on October 22, 2017. Doc. 00514691721.
STATEMENT OF THE ISSUE
Whether the district court, upon remand, erred in concluding that PetitionerAppellant was not prejudiced by his trial counsel’s previously adjudged deficient
performance in failing to develop and present mitigating evidence reasonably
likely to show that “at least one juror would have struck a different balance” in the
penalty phase. Canales v. Stephens, 765 F.3d 551, 571 (5th Cir. 2014) (quoting
Wiggins v. Smith, 539 U.S. 510, 537 (2003)).

1

103a

Case: 18-70009

Document: 00514733249

Page: 11

Date Filed: 11/21/2018

STATEMENT OF THE CASE
A. Procedural Background.
Mr. Canales’s conviction and death sentence in the capital murder of Gary
Dickerson was affirmed on direct appeal. Canales v. State, 98 S.W.3d 690
(Tex.Crim.App. 2003). His petition for writ of certiorari was denied, Canales v.
Texas, 540 U.S. 1051 (2003), as was his first state habeas application, Ex parte
Canales, No. 54,789-01 (Tex.Crim.App. Apr. 5, 2003).
Mr. Canales’s federal habeas petition, filed November 29, 2004 in the
Eastern District of Texas, ROA.24, was stayed to allow him to pursue a successive
state habeas petition on his four unexhausted claims. ROA.850. After the
successive state habeas petition was denied, Ex parte Canales, No. WR-54,789-02,
2008 WL 383804 (Tex. Crim. App. Feb. 13, 2008), federal proceedings resumed.
The district court denied relief accepting the recommendation of the magistrate
judge, finding all but one of his claims procedurally defaulted, denying
his shackling claim on the merits. ROA.3781-83. The district court found that
Mr. Canales could not rely on the ineffective assistance of state habeas
counsel to overcome the default. ROA.3869-70. During the pendency of the
appeal, the Supreme Court decided Trevino v. Thaler, 569 U.S. 413 (2013),
clarifying that the exception announced in Martinez v. Ryan, 566 U.S. 1
(2012), for excusing procedural defaults from ineffective assistance of initial
2

104a

Case: 18-70009

Document: 00514733249

Page: 12

Date Filed: 11/21/2018

collateral review counsel applies to Texas cases.
This

Court

then

applied

Trevino

in

finding

that

state

habeas

counsel’s performance “fell below an objective standard of reasonableness” in their
failure to litigate trial counsel’s failure to investigate and present mitigation
evidence in the penalty phase based on their mistaken belief before trial that
no investigation funding was available. Canales v. Stephens, 765 F.3d 551,
569-70 (5th Cir. 2014) (citing Wiggins v. Smith, 539 U.S. 510, 533 (2003)). In
assessing whether Mr. Canales’s underlying Wiggins claim was meritorious,
this Court found “that Canales’s trial counsel’s performance was deficient
during the sentencing phase.” Id. at 559. It “reverse[d] the district court on
Canales’s claim that he received ineffective assistance of counsel during
sentencing,” and remanded on the question of prejudice after ruling thusly:

Canales has not yet had the chance to develop the factual basis for this
claim because, until Trevino, it was procedurally defaulted. While
there is sufficient information before this Court for us to conclude that
there is some merit to Canales’s claim of ineffective assistance of
counsel, we think the district court should address the prejudice
question in the first instance.
Id. at 571.
In remanding the case, this Court further recognized the apparently vast gap
between trial counsel’s paltry penalty phase presentation and the truth:
3

105a

Case: 18-70009

Document: 00514733249

Page: 13

Date Filed: 11/21/2018

The jury did not hear any evidence regarding Canales’s childhood,
which was full of violence and privation. While there was certainly
evidence to support a finding of future dangerousness, we are not
convinced that evidence is enough to say that Canales’s claim is not
substantial. We are persuaded that the Supreme Court’s decisions in
Williams v. Taylor, 529 U.S. 362 (2000), and Rompilla v. Beard, 545
U.S. 374 (2005) show that Canales’s claim has, at the very least, some
merit.
Id. at 570.
On remand, Petitioner-Appellant, in pursuit of an evidentiary hearing,
presented and briefed extensive new evidence developing the mitigating issues
highlighted in this Court’s opinion (infra). Despite the Respondent-Appellee’s
concession that the new mitigation evidence was “compelling,” and relying heavily
on the magistrate judge’s report and recommendation, the district court dismissed
the petition without an evidentiary hearing, ruling that much of the new mitigation
evidence “was correctly characterized as double-edged,” and could not therefore
outweigh the aggravating evidence, “especially in light of the horrific facts of the
crime,” ROA.4538-40 (quotation omitted), which, as shown at trial, concerned Mr.
Canales acting under orders of the Texas Mafia in restraining the victim’s arms in
order for another inmate to strangle him. Canales v. State, 98 S.W.3d 690, 693
(Tex. Crim. App. 2003).
Mr. Canales appeals, arguing the district court erred in deeming the new
mitigation evidence “double-edged”—despite the fact that any aggravating edge
4

106a

Case: 18-70009

Document: 00514733249

Page: 14

Date Filed: 11/21/2018

had already been presented to the jury—and in failing to conduct a full reweighing
by considering the mitigating effect of the new evidence. After giving the district
court this “prejudice question in the first instance” in 2014, Canales, 765 F.3d at
571, the Court now must simply determine whether the lower court has since erred:
did the district court erroneously adopt the magistrate judge’s view of the
new

mitigation

evidence

unconstitutionally jettison

as

entirely

consideration

of

“double- edged”
its

mitigating

and
effects

thereby
in

a

proper reweighing—a reweighing that must conclude with a finding that it is
reasonably likely “‘at least one juror would have struck a different balance’” in
the penalty phase if the jury had the benefit of Mr. Canales’s full array of
mitigating evidence. Canales, 765 F.3d at 570-71 (quoting Wiggins, 539 U.S. at
537).
B. Factual Background.
Mr. Canales was convicted of capital murder for his role in the gang-related
murder of Gary Dickerson in 1997 while an inmate at the Telford Unit of the Texas
Department of Criminal Justice. Canales, 98 S.W.3d at 693; ROA.4338. The
murder was in retaliation for the victim’s interference in the Texas Mafia’s
business dealings. Canales, 98 S.W.3d at 690. At sentencing, trial counsel, having
conducted essentially no mitigation investigation, presented virtually nothing in
mitigation. As this Court described it:
5

107a

Case: 18-70009

Document: 00514733249

Page: 15

Date Filed: 11/21/2018

By Canales’s trial counsel’s own admission, they did not
conduct any mitigation investigation. A declaration from his trial
counsel shows that trial counsel did not hire a mitigation specialist,
interview family members or others who knew him growing up, or
“collect any records or any historical data on his life.” During
sentencing, the only mitigation evidence his counsel presented was
that he was “a gifted artist” and “a peacemaker in prison.” Even the
prosecutor noticed the dearth of any mitigating evidence, stating “it’s
an incredibly sad tribute that when a man’s life is on the line about the
only good thing we can say about him is that he’s a good artist.”
Id. at 569. Based on this, Mr. Canales was sentenced to death.
Mr. Canales first raised his Wiggins claim in his successive state habeas
petition (which was ultimately dismissed as procedurally barred, infra). Ex parte
Canales, 2008 WL 383804, at *1. State habeas counsel conducted no mitigation
investigation “due to a misunderstanding of funding for habeas investigations: [Mr.
Canales’s] state habeas counsel thought his funding was capped at $25,000, and so
he only dedicated $2,500 to investigation—and most of that went to issues related
to innocence.” Canales, 765 F.3d at 569. The state court dismissed his successive
habeas as procedurally barred. Ex parte Canales, 2008 WL 383804, at *1.
Federal habeas counsel finally investigated the many red flags of substantial,
compelling mitigation and, despite the lack of opportunity to develop the bases for
the claim in the district court, Canales, 765 F.3d at 571, presented a provisional
depiction of the deep and varied sources of mitigating evidence entirely ignored by

6

108a

Case: 18-70009

Document: 00514733249

Page: 16

Date Filed: 11/21/2018

trial counsel. In finding trial counsel’s performance deficient and remanding the
case to the district court, this Court summarized some of the results:
If Canales’s trial attorneys had conducted a mitigation investigation,
they would have discovered an extensive history of physical abuse,
emotional abuse, and neglect. Canales’s mother was an alcoholic who
neglected her children, and his father was violent, angry, and
irrational. After Canales’s parents separated, his mother married a
man who was physically abusive, beating Canales with a belt and fist
and forcing him to strip naked prior to these beatings. Canales’s stepfather sexually abused his sister, and Canales attempted, in vain, to
protect her. The family lived in poor housing, infested with flea and
lice and located in “gang central.” Canales’s grandparents were also
physically and verbally abusive. Eventually, Canales’s mother left
him with his father. The beatings then resumed, and Canales’s father
would beat him “until his father got tired.” This led Canales to abuse
drugs and alcohol, “hook[ ] up with the wrong people,” and begin
committing crimes. He lived in half-way houses for part of his teenage
years. Canales’s sister stated that the death of Canales’s mother
impacted Canales severely and that he “went off the deep end” after
she passed away.
Id. at 569-70.
C. Nature And Quality Of The New Mitigation Evidence.
As this Court noted in 2014, the new mitigation evidence developed by
federal habeas counsel’s initial investigation effort, covered a wide range of topics
going far beyond trial counsel’s presentation merely that Mr. Canales was a
peacemaker in prison and a good artist. After the Court’s 2014 remand, federal
counsel extensively developed and presented new mitigation evidence in the
district court and, despite the lack of an evidentiary hearing, built an extensive,
7

109a

Case: 18-70009

Document: 00514733249

Page: 17

Date Filed: 11/21/2018

powerful record in the district court of the range of penalty phase evidence that Mr.
Canales’s jury would have heard had he received the assistance of counsel required
under the Sixth Amendment. ROA.4383-403. A full discussion of this new
mitigation evidence is set forth in the COA application to this Court. Doc.
00514515500 at 5-37. In the place of a complete rehearsal of that compelling
evidence, the following overview is offered here.2
The new evidence falls into two broad categories: evidence (i) rebutting
future dangerousness addressing facts “already introduced [via] the aggravating
‘edge’ of [the State’s evidence],” Walbey v. Quarterman, 309 F. App’x 795, 806
(5th Cir. 2009), and (ii) manifesting extensive childhood trauma and deprivation
supplying a compelling, mitigating explanation of Mr. Canales’s conduct, see id. at
802-03 (citing Williams v. Taylor, 529 U.S. 362, 397 (2000)). These interrelated
categories show a repeated pattern of trauma and deprivation going a considerable
distance to explaining Mr. Canales’s individual vulnerability to the intense,
existential pressures he felt at the Telford Unit leading up to the tragic killing of
Mr. Dickerson.
2

In recognition of this Court’s directive to “avoid repetition” with previously filings, the
summary of the new mitigation evidence provided here is extremely abbreviated. It is prayed that
the Court freely considers the gravity of the evidence marshalled in Mr. Canales’s abovereferenced, granted application for a COA (Doc. 00514515500 at 5-37), and that the abbreviated
treatment herein in no way detracts from the force of that body of evidence.

8

110a

Case: 18-70009

Document: 00514733249

Page: 18

Date Filed: 11/21/2018

As a child, all of Andy’s primary caretakers were substance abusers. He and
his siblings suffered persistent violence at the hands of their fathers and
stepfathers, while their alcoholic mother failed to protect them. ROA.4383-93.
Sexual and physical abuse was rampant—in Andy’s immediate and extended
family—especially when Andy’s mother became involved with Carlos Espinoza,
who was abusive to Andy’s mother and viciously beat Andy and his younger sister.
ROA.4394. Espinozo stripped Andy before whipping him with a belt, and
molested both Andy and his sister Elizabeth, Andy’s sister, recalls “seeing Andy
lying naked, curled up in a ball, and Carlos hitting him as hard as he could with the
buckle end of the belt.” ROA.4264.
Besides the on-going physical abuse, Andy and his sister were sexually
molested by Espinoza. Elizabeth recalls Andy desperately trying to protect her
even though as a young boy he was no match for a grown man. ROA.4267.
As a result of neglect, poverty, and abuse in the home, and a backdrop of
anti-Hispanic racism that would impinge on his life in a variety of ways from
several directions, Andy was especially vulnerable to coerced gang involvement as
a young teenager. ROA.4386, 4400-01. Andy became an alcoholic by age 14, and
soon thereafter had his first experiences in the criminal justice system in
connection with John Ramirez, another abusive sexual predator his mother moved
9

111a

Case: 18-70009

Document: 00514733249

Page: 19

Date Filed: 11/21/2018

in with. ROA.4386. Ramirez was happy to have Andy out of the picture because he
stood as the primary barrier between Ramirez and his younger sister, Gabriela.
ROA.4269-70, 4294. In prison, Andy joined the Texas Syndicate, a Latino prison
gang, after he was exposed to prison violence. He thought that involvement ended
when he was paroled.
Andy began rebuilding a stable life with the positive influence of his
girlfriend, Liz Hewitt, and her family, but it all unraveled when Andy’s mother
suffered an aneurysm, causing her to lose her speech and motor functions.
ROA.4386-87. Andy began using drugs and ended up back in prison in 1995 when
his parole was revoked. ROA.4387.
Andy then experienced several heart attacks, and his poor health made him
vulnerable to gang targeting such that he had to avail himself of the protection of a
rival gang. Their protection put Andy in their debt, leading up to the Dickerson
murder in 1997. ROA.4387.
At sentencing, the State focused on Andy’s violent acts and threats in prison
as a member of the Texas Mafia to show future dangerousness. ROA.4403. Andy’s
particular vulnerability due to his heart condition would have undermined that case
by placing his conduct in the proper context, showing the coercive pressures Andy
then faced. Andy avoided fights because his heart medicines caused him to bruise
10

112a

Case: 18-70009

Document: 00514733249

Page: 20

Date Filed: 11/21/2018

easily and prevent normal blood clotting so if cut, even superficially, he would
bleed for hours. ROA.4404. But when Andy’s former gang, the Texas Syndicate
learned Andy was formerly a member of the Latin Kings and had two prior sex
convictions, they targeted him. Andy’s roommate, Bruce Richards, offered Andy
the protection of the Texas Mafia, a cousin to the Aryan Brotherhood white
supremacist gang. ROA.4404-05. The protection came with a price, however, and
Andy was ordered, effectively under threat to his life, to participate in the
Dickerson killing and to write letters exaggerating his role and the voluntariness of
his involvement. Repetition of these circumstances in the future is highly unlikely
given that under a sentence of life without possibility of parole, Andy would be
kept in enhanced custody status providing essentially the same degree of
incapacitation as death row. ROA.4405.
Furthermore,

mitigation

expert

Susan

Herrero,

ROA.4239-85;

neuropsychologist, Dr. Tora L. Brawley, ROA.4327-29; and a general and forensic
psychiatrist, Dr. Donna Maddox, ROA.4330-78, helped explain the causes and
consequences of this abundant new mitigation evidence. For example, Ms. Herrero
was able to track Andy’s deteriorating school performance, as he was moved from
school to school and in tandem with his traumatic home life. ROA.4273-75. Ms.
Herrero also noted the effects of multi-generational violence in modeling parenting
11

113a

Case: 18-70009

Document: 00514733249

Page: 21

Date Filed: 11/21/2018

styles. ROA.4262-66. Dr. Brawley administered neuropsychological testing and
found evidence of frontal lobe functioning deficits especially with matrix
reasoning and verbal fluency. ROA.4329. Dr. Donna Maddox, diagnosed Andy
with Trauma and Stressor Related Disorder, consistent with PTSD. ROA.4341.
D. The District Court’s Analysis.
The district court correctly noted that the sole question before it was whether
the new mitigation evidence, taken with the evidence already presented at trial,
would have raised a reasonable probability of a different sentencing outcome. The
lower court’s error with this “prejudice question in the first instance,” Canales, 765
F.3d at 571, was not in the identification of the controlling constitutional
precedent; rather, it was in its failure to apply the constitutional authority to the
new evidence adduced on this Court’s remand.
“A reasonable probability is a probability sufficient to undermine confidence
in the outcome.” ROA.4534 (quoting Strickland v. Washington, 455 U.S. 558, 694
(1994)). “In reviewing the issue of prejudice at capital sentencing, courts must
reweigh the quality and quantity of the available mitigating evidence, including
that presented in post-conviction proceedings, against the aggravating evidence.”
ROA.4536 (citing Williams, 529 U.S. at 397-98; Blanton v. Quarterman, 543 F.3d
230, 236 (5th Cir. 2008), cert. denied, 556 U.S. 1240 (2009)). The district court
12

114a

Case: 18-70009

Document: 00514733249

Page: 22

Date Filed: 11/21/2018

failed to note that the prejudice standard means Mr. Canales’s burden was to show
it was reasonably probable that “at least one juror would have harbored a
reasonable doubt” whether Mr. Canales deserved the death penalty. Buck v. Davis,
137 S. Ct. 759, 765 (2017); accord Wiggins, 539 U.S. at 537; Canales, 765 F.3d at
570-71; Lewis v. Dretke, 355 F.3d 364, 369 (5th Cir. 2003).
The district court recited that it conducted such an analysis: “In the present
case, having reweighed all of the mitigating evidence, both old and new, against
the aggravating evidence, the Court finds that the aggravating evidence far
outweighs the mitigating evidence.” ROA.4536. It recited what it treated as
insurmountable aggravating circumstance, and then recited in brief, the bare facts
of the new evidence leaving out many of the contextual connections. ROA.452627. It rejected that these facts could provide “proper context to the circumstances
surrounding the offense” because it agreed with the Respondent-Appellee’s
argument that this evidence was all “double-edged” and could be taken as adding
to the evidence in aggravation. ROA.4538.
The evidence, it said, was “a wealth of double-edged evidence, including
evidence of gang violence, alcohol, drugs, and physical and sexual abuse.”
ROA.4538. It cited Johnson v. Cockrell, 306 F.3d 249, 253 (5th Cir. 2002), cert
denied, 538 U.S. 926 (2003), for the proposition that all of this evidence could be
13

115a

Case: 18-70009

Document: 00514733249

Page: 23

Date Filed: 11/21/2018

read by the jury to support future dangerousness. ROA.4538. Both the
magistrate and the district court agreed with the Respondent-Appellant’s
concession that the new mitigation evidence was “compelling,” but said since
it was “double-edged,” it did not outweigh the evidence in aggravation.
ROA.4538. The only explanation it gave was that the compelling evidence of
Mr. Canales’s heart condition supported future dangerousness because it meant
he would continue to be vulnerable to gang coercion, ROA.4538, ignoring
the evidence that with a life sentence he would be in enhanced security, as he is
now, under a death sentence, ROA.4472-73.

SUMMARY OF THE ARGUMENT
The Court’s de novo review of the district court’s erroneous denial of habeas
relief by finding that Mr. Canales’s deficiently performing counsel did not
prejudice him in his penalty phase by failing to develop and present an array of
compelling mitigation evidence is not subject to AEDPA deference. Thus the
Court now should weigh directly the evidence submitted in pleadings to the district
court upon its remand in Canales v. State, 765 F.3d 551, 571 (5th Cir. 2014).
The new evidence developed and submitted after the 2014 remand (i) rebuts
future dangerousness addressing facts “already introduced [via] the aggravating
‘edge’ of [the State’s evidence],” Walbey v. Quarterman, 309 F. App’x 795, 806
14

116a

Case: 18-70009

Document: 00514733249

Page: 24

Date Filed: 11/21/2018

(5th Cir. 2009), and (ii) manifests extensive childhood trauma and deprivation
supplying a compelling, mitigating explanation of Mr. Canales’s conduct, see id. at
802-03 (citing Williams v. Taylor, 529 U.S. 362, 397 (2000)).
The district court globally failed to conduct the proper inquiry and yielded
an unconstitutional result requiring reversal. With respect to the Texas special
issue of future dangerousness,3 the court failed to recognize that the State had
already fully introduced the aggravating edge of the evidence relating to Mr.
Canales’s vulnerability, due to a severe heart condition, to prison gang coercion.
The extensive evidence explaining Mr. Canales’s circumstances would not have
introduced any new aggravation and would have only served to assist his cause.
Further, the district court entirely failed to conduct the reweighing of the
wealth of new mitigating evidence of chronic trauma, poverty, deprivation,
extreme sexual depredation, and substance abuse in Mr. Canales’s childhood
against the State’s aggravating evidence, employing the “brutality trumps”
approach—viz., the “stereotypical fall-back argument that the heinous and
egregious nature of the crime would have ensured assessment of the death
penalty.” Gardner v. Johnson, 247 F.3d 551 (2001); see Walbey, 309 F. App’x at
3

The district court further ignored that reweighing the evidence presents a question distinct from
the question of future dangerousness and that the Supreme Court has repeatedly struck down
schemes that limit the consideration of mitigation evidence to future dangerousness. Penry v.
Lynaugh, 492 U.S. 302 (1989); Abdul-Kabir v. Quarterman, 550 U.S. 233, 241 (2007).

15

117a

Case: 18-70009

Document: 00514733249

Page: 25

Date Filed: 11/21/2018

804. This approach is roundly condemned and plainly unconstitutional—yet the
district court embraced it in discarding meaningful consideration of the evidence
rehearsed in the opinion under review. The district court nowhere discussed
its exculpatory or any other effects that would redound toward mercy at sentencing.
Thus, the district court flouted this Court’s order to determine whether it is
reasonably likely that “‘at least one juror would have struck a different balance.’”
Canales, 765 F.3d at 571 (quoting Wiggins, 539 U.S. at 537); see Buck v. Davis,
137 S. Ct. 759, 765 (2017) (applying standard that “at least one juror would have
harbored a reasonable doubt” in weighing effect of unconstitutional expert
testimony on race and violence concerning future dangerousness).

ARGUMENT
I. LEGAL INQUIRY
A. Standard of Review.
In an appeal from denial of habeas relief, this Court reviews district court
legal conclusions de novo and its fact findings for clear error. Walbey v.
Quarterman, 309 F. App’x 795, 799 (5th Cir. 2009). This Court’s remand was
premised on affording Mr. Canales his first “chance to develop the factual basis for
his claim.” Canales v. Stephens, 765 F.3d 551, 571 (5th Cir. 2014). The remand
16

118a

Case: 18-70009

Document: 00514733249

Page: 26

Date Filed: 11/21/2018

was limited to the question of prejudice, a mixed question of law and fact. Id. at
578; Lewis v. Dretke, 355 F.3d 364, 366 (5th Cir. 2003) (“As claims of ineffective
assistance of counsel involve mixed questions of law and fact, they are reviewed
de novo.”); see also United States v. Shepherd, 880 F.3d 734, 740 (5th Cir. 2018)
(in § 2255 cases where there are likewise no state court decisions to which
deference can possibly be owed, “district court’s determination concerning
ineffective-assistance claims are reviewed de novo”); Pape v. Thaler, 645 F.3d
281, 287 (5th Cir. 2011) (review of state court denial of claims is de novo for
“mixed questions of law and fact” ); but see Walbey, 309 F. App’x at 799
(explaining only that the Wiggins inquiry—in that case, under AEDPA analysis
pursuant to 28 U.S.C. § 2254(d)—concerns application of “governing legal rule”).
B. AEDPA Does Not Govern This Court’s De Novo Review Because The
State Courts Did Not Address This Issue.
The Texas Court of Criminal Appeals (“TCCA”) never adjudicated Mr.
Canales’s Wiggins claim on the merits. Instead, it disposed of the claim in his
successive state habeas petition, the only time it was presented to the state courts,
by finding it procedurally barred. There is no state court opinion to which this
Court can possibly defer.

17

119a

Case: 18-70009

Document: 00514733249

Page: 27

Date Filed: 11/21/2018

Even under the onerous AEDPA deference,4 the record presently before this
Court would compel reversal, as it is strongly analogous to that found in Walbey—
a case governed by AEDPA. Walbey, 309 F. App’x at 799 (under AEDPA, the
state court opinion can only be reversed if “the state court decision denying relief
was ‘contrary to’ or ‘an unreasonable application of[] clearly established Federal
law, as determined by the Supreme Court of the United States.’”) (modification in
Walbey). Thus, the district court’s penurious treatment of Petitioner-Appellant’s
new evidence, developed and advanced upon this Court’s remand, dictates a clear
resolution of the issue presented on this appeal.
Here, there was no state court adjudication on the merits of Mr. Canales’s
Wiggins claim generally or, of course, of Wiggins prejudice, the sole issue now
presented to this Court. Ex parte Canales, No. WR-54,789-02, 2008 WL 383804
(Tex. Crim. App. Feb. 13, 2008) (citing Tex. Crim. Proc. Code Ann. § 11.071(5)(a)
(West)) (summarily denying the claim citing state criminal procedural rule stating
the “court may not consider the merits”).

4

Under AEDPA, this Court would have to determine that the state court decision “adjudicated
on the merits in State court proceedings” “was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme Court of the
United States” or “was based on an unreasonable determination of the facts.” 28 U.S.C.
§ 2254(d).

18

120a

Case: 18-70009

Document: 00514733249

Page: 28

Date Filed: 11/21/2018

Walbey granted Wiggins relief despite the invocation of “double-edged”
argument, and even under the deferential standard of AEDPA, ruling that the state
court denial of the Wiggins claim was unreasonable under Williams v. Taylor, 529
U.S. 362 (2000). Walbey, 309 F. App’x at 805-06. Walbey explained that Williams
addressed “double-edged evidence in the context of a performance inquiry, but
subsequently [found] the failure to introduce the mitigating evidence which
contained the double-edged evidence, prejudicial.” Id. at 805 n. 46.5
Crucially, in Walbey—as is true for Mr. Canales—”[t]he state had already
introduced the aggravating ‘edge’ of some of the evidence it now contends is
double edged.” Id. at 806. Even when evidence may contribute to evidence of
future dangerousness, it may also be mitigating in helping the jury understand that
“[the appellant’s] actions could be explained (even though not justified of course).”
Id. at 803. Thus, the Walbey Court did not merely disagree with the state court
denial of relief. Under the deferential standard of AEDPA, Walbey concluded that
the denial of relief was unreasonable under clearly established federal law. Here,
the Court must entertain the district court’s application of these same authorities to

5

The Supreme Court cited, in addition to Williams, a fuller line of its opinions “establishing the
importance of allowing juries to give meaningful effect to any mitigating evidence providing a
basis for a sentence of life rather than death Abdul-Kabir v. Quarterman, 550 U.S. 233, 241
(2007) (citing Locket v. Ohio, 438 U.S. 586 (1978); Penry v. Lynaugh, 492 U.S. 302,321 (1989);
Graham v. Collins, 506 U.S. 461 (1993)).

19

121a

Case: 18-70009

Document: 00514733249

Page: 29

Date Filed: 11/21/2018

the new evidence presented on remand on behalf of Mr. Canales. The far less
demanding standard of review for Mr. Canales dictates that he obtain the result Mr.
Walbey secured, viz., reversal of the district court due to the underlying
misapplication of the governing constitutional rule and a remand with instructions
to grant a writ of habeas corpus. Id. at 806.
Lewis, 355 F.3d at 366, which also concerned a Wiggins claim but was
subject to pre-AEDPA deference rules, sheds additional light on the profound
implications for Mr. Canales’s appellate review resulting from this procedural
history devoid of state court consideration of the Sixth Amendment violation at
bar. Id. at 366.1 For Lewis, “[b]ecause the state court did not make any factual
findings regarding these claims … , no deference is owed to the state court’s
resolution of the instant claims.” Id. In Lewis, the district court erroneously
disregarded new mitigation evidence related to childhood abuse. Id. at 369. In
reviewing prejudice, Lewis drew from both Williams and Wiggins, which relied on
“[m]itigating evidence of childhood abuse.” Id. (citing Williams, 529 U.S. at 398;
Wiggins, 539 U.S. at 535-36). Lewis concluded, “It is obvious to us that the level
of abuse to which Lewis was exposed mandates the conclusion that, had this
evidence been produced, it is quite likely that it would have affected the sentencing
decision of at least one juror.” Id. at 369. Especially given the lack of fact findings
20

122a

Case: 18-70009

Document: 00514733249

Page: 30

Date Filed: 11/21/2018

to which it must defer, Lewis observed, “Although as a general proposition, we
might remand for further fact finding by the district court, such a disposition would
not be appropriate in this case.” Id. It reversed, instructing the district court to grant
the writ. Id. at 370.
In Mr. Canales’s case, this Court has a freer hand than in either Walbey or
Lewis because Petitioner-Appellant has simply had no state court adjudication of
his Wiggins claim.
C. The Test For Wiggins Prejudice Is Whether It Is Reasonably
Probable The New Mitigation Would Have Raised Doubt In At Least
One Juror.
To prove he is entitled to relief under Strickland and Wiggins, Mr. Canales
must prove “a reasonable probability that, but for counsel’s unprofessional errors,
the result of the proceeding would have been different.” Buck v. Davis, 137 S. Ct.
759, 765 (2017). Texas law requires that before imposing a death sentence, capital
jurors must find unanimously, after “taking into consideration all of the evidence,
including the circumstances of the offense, the defendant’s character and
background, and the personal moral culpability of the defendant,” that “sufficient
mitigating circumstance or circumstances to warrant that a sentence of life
imprisonment without parole rather than a death sentence” are absent. Tex. Code
Crim. Proc. art. 37.071. §§ 1(e)(1), (f). This means Petitioner-Appellant needed to
21

123a

Case: 18-70009

Document: 00514733249

Page: 31

Date Filed: 11/21/2018

show that but for trial counsel’s failure to investigate and present the new
mitigation evidence, “at least one juror would have harbored a reasonable doubt“
whether Mr. Canales deserved the death penalty. Buck, 137 S. Ct. at 765 (applying
standard to unconstitutional expert testimony on race and violence concerning
future dangerousness); accord Lewis, 355 F.3d at 369 (“It is obvious to us that the
level of abuse to which Lewis was exposed mandates the conclusion that, had this
evidence been produced, it is quite likely that it would have affected the sentencing
decision of at least one juror.”); Canales, 765 F.3d at 570-71 (“[T]here is some
merit to the notion that, had trial counsel’s performance not be deficient during
sentencing, ‘at least one juror would have struck a different balance.’”) (quoting
Wiggins, 539 U.S. at 537).
II. THE NEW EVIDENCE WAS BROADLY, INHERENTLY MITIGATING
VULNERABLE TO MEANINGFUL DOUBLE-EDGED ANALYSIS.

AND

NOT

A. This Court’s 2014 Remand Opinion Finding Deficient Performance
Recognized That Prejudice Was Likely.
In 2014, this Court remanded this case for the sole purpose of determining
prejudice, Canales, 765 F.3d at 578, having already determined that Mr. Canales
has shown cause to overcome the procedural default, and that determination
included finding that Mr. Canales’s underlying claim is “substantial,” meaning Mr.
Canales has shown his claim “has some merit.” Id. at 568. “Based on these facts,
22

124a

Case: 18-70009

Document: 00514733249

Page: 32

Date Filed: 11/21/2018

we hold that Canales’s ineffective assistance of trial counsel claim has some
merit.” Id. at 570. In addition to finding trial counsel’s performance deficient, the
Court also conducted a preliminary assessment of prejudice, and concluded:
Canales has shown that there is some merit to the claim that he was
prejudiced by his trial counsel’s deficient behavior during
sentencing. The only mitigation evidence put forward during
sentencing was that Canales was a gifted artist and a peacemaker in
prison. The jury did not hear any evidence regarding Canales’s
childhood, which was full of violence and privation. While there was
certainly evidence to support a finding of future dangerousness, we
are not convinced that evidence is enough to say that Canales’s claim
is not substantial. We are persuaded that the Supreme Court’s
decisions in Williams v. Taylor, 529 U.S. 362, 120 S.Ct. 1495, 146
L.Ed.2d 389 (2000), and Rompilla v. Beard, 545 U.S. 374, 125 S.Ct.
2456, 162 L.Ed.2d 360 (2005) show that Canales’s claim has, at the
very least, some merit. See Rompilla, 545 U.S. at 390–93, 125 S.Ct.
2456 (state court decision denying habeas relief was unreasonable
where additional mitigation investigation regarding the defendant’s
abusive, impoverished childhood and alcohol-related causes of the
defendant’s juvenile incarcerations might have influenced the jury’s
evaluation of culpability); Williams, 529 U.S. at 398–99, 120 S.Ct.
1495 (state court decision denying habeas relief was unreasonable
where new mitigation evidence, including “the graphic description of
[the defendant’s] childhood, filled with abuse and privation, or the
reality that he was ‘borderline mentally retarded,’ might well have
influenced the jury’s appraisal of his moral culpability” despite the
“strength of the prosecution evidence supporting the future dangerous
aggravating circumstance”). Given all this, there is some merit to the
notion that, had trial counsel’s performance not been deficient during
sentencing, “at least one juror would have struck a different
balance.” See Wiggins, 539 U.S. at 537, 123 S.Ct. 2527.
Id. at 570-71.

23

125a

Case: 18-70009

Document: 00514733249

Page: 33

Date Filed: 11/21/2018

Frequently in Wiggins claim reviews, the court of appeals has bypassed
deficiency analysis by finding no prejudice. E.g., St. Aubin v. Quarterman, 470
F.3d 1096, 1103 (5th Cir. 2006) (“Furthermore, ‘a tactical decision not to pursue
and present potentially mitigating evidence on the grounds that it is double-edged
in nature is objectively reasonable, and therefore does not amount to deficient
performance.’”) (quoting Rector v. Johnson, 120 F.3d 551, 564 (5th Cir.
1997), cert. denied, 522 U.S. 1120 (1998)). The Court’s adjudication of trial
counsel’s deficient performance, which includes the determination that counsel’s
lack of investigation could not have been strategic, strongly points to its prejudicial
effect. The Court’s very decision to remand the case strongly points to a likely
finding of prejudice, as underscored in the opinion’s language. The preliminary
look at the reweighing suggests that taking the totality of the new evidence against
existing aggravation will almost certainly yield a different result from taking only
the fact that Mr. Canales was a peacemaker in prison and a gifted artist against the
exact same evidence in aggravation.

24

126a

Case: 18-70009

Document: 00514733249

Page: 34

Date Filed: 11/21/2018

B. The New Mitigation Evidence In This Case Was Not “DoubleEdged.”
1. Any aggravating “edge” was already before the jury, courtesy of
the State’s case against Mr. Canales, and the new evidence opened
no door to further aggravation.
The district court expressly adopted the magistrate judge’s “findings,
conclusions, and recommendations” in his report and recommendation, ROA.4521,
which characterized Mr. Canales’s new evidence as “double-edged” in that “it
could all be read by the jury to support, rather than detract, from his future
dangerousness claim.” Johnson v. Cockrell, 306 F.3d 249, 253 (5th Cir. 2002),
cert. denied, 538 U.S. 926 (2003). ROA.4476-77. But any legitimately aggravating
edge to the new mitigation had already been presented by the State and thus
presented only a salutary change to the overall evidence bearing upon the future
dangerousness special issue. Walbey, 309 F. App’x at 806 (“The state had thus
already introduced the aggravating ‘edge’ of some of the evidence it now contends
is double-edged.”); cf. St. Aubin, 470 F.3d at 1103 (“[I]ntroducing St. Aubin’s
mental-health history as mitigating evidence would have opened the door for the
State to introduce numerous violent incidents which had not been introduced
during the guilt phase.”).
The district court emphasized the implications of Wong v. Belmontes, 558
U.S. 15, 20 (2009), on weighing under Williams v. Taylor and the potential
25

127a

Case: 18-70009

Document: 00514733249

Page: 35

Date Filed: 11/21/2018

negative consequences for a defendant resulting from new evidence: “it is
necessary to consider all the relevant evidence that the jury would have had before
it if [the petitioner] had pursued the different path—not just the mitigation
evidence [the petitioner] could have presented, but also the … evidence that almost
certainly would have come with it.” ROA.4536. This point from Wong, however, is
inapposite to evaluating the evidence in regard to Mr. Canales’s future
dangerousness; his new evidence explained the “aggravating edge” evidence that
the State introduced, it did not open any doors to permit additional, potentially
damaging evidence to “come with it,” Wong, 558 U.S. at 20, as that evidence was
already there courtesy of the State’s case. Thus, there was no concern that placing
the crime in its full context could have had anything but a mitigating effect.
At the guilt phase, the State introduced evidence of Mr. Canales’s gang
membership and gang information as evidence of the “combination” element of
capital murder.6 Canales, 98 S.W.3d 690, 696-97 (Tex.Crim.App. 2003), cert
denied 540 U.S. 1051 (2003). The State’s theory of the case was primarily that the
murder was a gang retaliation for the victim’s interference with the gang’s business
interests. Id. at 693. Had trial counsel presented evidence of Mr. Canales’s serious
6

The statute defines what would otherwise be simple murder as capital murder when “(5) the
person, while incarcerated in a penal institution, murders another…with the intent to establish,
maintain, or participate in a combination or in the profits of a combination.” Tex. Penal Code
Ann. § 19.03(5) (West).

26

128a

Case: 18-70009

Document: 00514733249

Page: 36

Date Filed: 11/21/2018

heart condition that necessitated his accepting the protection of the Texas Mafia
from threats to his life posed by the Texas Syndicate, the only new “edge” to such
evidence would be mitigating. Like in Walbey, this evidence could help the jury
understand Mr. Canales’s actions (even though it would not excuse them), with a
“reasonable probability that one juror would have voted for life in prison rather
than death.” Walbey, 309 F. App’x at 803, 806. Thus, the mitigating effect of
introducing this evidence at sentencing comes with no added aggravation. See id.
at 805 n.46 (citing Williams, 529 U.S. at 396 as a case “addressing double-edged
evidence in the context of a performance inquiry, but subsequently finding the
failure to introduce the mitigating evidence, which contained the doubled-edged
evidence, prejudicial”). It did not open the door to any new aggravating evidence
the jury had not already seen. In fact, it would have gone a long way to defusing
the aggravating edge of the gang evidence, by showing that Mr. Canales was
behaving under great duress.

27

129a

Case: 18-70009

Document: 00514733249

Page: 37

Date Filed: 11/21/2018

2. The
district
court
accepted
Respondent-Appellee’s
unconstitutional categorical version of the “double-edged”
argument, preempting actual weighing of the new evidence.
a. The district court categorically discredited the new mitigation
evidence on the inaccurate premise that it created an
aggravating effect.
The district court recited Respondent-Appellee’s argument that the
aggravation in this case was so great that no mitigation could possibly outweigh it,
ROA.4538, thereby advancing the “stronger version” of the double-edged
argument that the Fifth Circuit has previously held to be unconstitutional and
simply “foreclosed by Williams [529 U.S. at 396].” Walbey, 309 F. App’x at 805.
What properly remains with respect to any double-edged analysis is the “weaker
version,” which contemplates that mitigation may come with some aggravating
effect that may or may not change the balance. Id.7 While the proscribed “stronger

7

Given that prejudice is measured as the reasonable probability that at least one juror would find
the balance comes out the other way, the Respondent-Appellee must defend use of the strong
version:
Stated in this weak form, the underlying empirical proposition is undoubtedly
true. However, stated in this weak form, no inference concerning prejudice is
warranted. If, for example, only one juror in 100 took this view, it is unlikely that
such a juror would sit on the defendant’s jury. Thus, his or her views would be
irrelevant to the assessment of prejudice.
Given the structure of capital sentencing, a much stronger empirical claim would
have to be made to justify an inference of no prejudice. Even if jurors were
equally split about the net effect of a neglected kind of mitigation evidence, the
double-edged sword conclusion would be unwarranted.

28

130a

Case: 18-70009

Document: 00514733249

Page: 38

Date Filed: 11/21/2018

version” bypasses reweighing upon the faulty premise that “the unhelpful and
aggravating” effect of the new evidence results in making “a stronger case for the
death penalty,” id. at 804, that facile treatment of the evidence runs afoul of the
constitutional authorities.
As Walbey noted, Williams “address[ed] double-edged evidence in the
context of a performance inquiry, but subsequently f[ound] the failure to introduce
the mitigating evidence, which contained the double-edged evidence, prejudicial.”
Id. at 805 n.46. Walbey continued, explaining that the “double-edged” argument’s
weaker version, that the aggravating features of some mitigating evidence could
overwhelm any mitigating effect, is not controversial, but neither is it the case
here.” Id. at 805. This is to say, what is called for is that an actual weighing of the
evidence occur, rather than a bald assertion that weighing need not take place.
As for the matter of surmising how to assign relative weight to mitigation
evidence, empirical research reflects that evidence generally understood to be
mitigating in nature is not susceptible to yielding a net aggravating effect. Blume
& Johnson, supra note 7, at 1502. In fact, the available empirical data has long

John H. Blume & Sheri L. Johnson, The Fourth Circuit’s “Double-Edged Sword”: Eviscerating
the Right to Present Mitigating Evidence and Beheading the Right to the Assistance of Counsel,
58 Maryland L. Rev. 1480, 1502 (1999).

29

131a

Case: 18-70009

Document: 00514733249

Page: 39

Date Filed: 11/21/2018

provided “that failure to present significant psychologically based mitigating
evidence is prejudicial.” Id. One poll indicated that:
[o]nly forty-seven percent of the population favor imposition of the
death penalty on persons who were severely abused as a child; only
fifty-five percent favor its imposition on persons who were under the
influence of drugs or alcohol at that time of the offense. Most
strikingly, in 1995, only nine percent of the population favored
imposition of the death penalty on mentally retarded defendants.
Id. at 1503 (citing Samuel P. Gross, Update: American Public Opinion on the
Death Penalty—It’s Getting Personal 83 CORNELL L. REV. 1448, 1469 (1998)).
Data collected by the Capital Jury Project supports this approach:
Seventy-four percent of the surveyed capital jurors from South
Carolina said that if the defendant were mentally retarded, they would
be less likely to vote for the death penalty, and only three percent said
that mental retardation would make them more likely to vote for the
death penalty. A history of mental illness also influences far more of
those jurors surveyed away from the death penalty (fifty-six percent)
than toward it (three percent). Serious abuse as a child made thirtyseven percent less likely to impose the death penalty and only one
percent more likely to do so. Even with respect to alcoholism, more
than twice as many jurors were less inclined to impose the death
penalty if the defendant were alcoholic (thirteen percent) than were
more likely to impose it (five percent).
Id. at 1503-04 (citing Stephen P. Garvey, Aggravation and Mitigation in Capital
Cases: What do Jurors Think?, 98 Colum. L. Rev. 1538 (1998)).

30

132a

Case: 18-70009

Document: 00514733249

Page: 40

Date Filed: 11/21/2018

b. Employing the “brutality trumps” approach, the district court
side-stepped the mitigating quality of the new evidence.
The district court failed to engage in a meaningful consideration of the new
evidence, brushing it aside as double-edged even while conceding its “compelling”
quality. ROA.4538. The district court’s nominal reweighing under Wiggins
prejudice analysis did not seriously engage the actual new evidence. While the
Order invoked the term “reweighing,” it bypassed any meaningful review of the
work each juror would have needed to do in weighing the totality of Mr. Canales’s
mitigation evidence.
The court began its prejudice analysis by concluding that “the aggravating
evidence far outweighs the mitigating evidence.” ROA.4536. It recited the
evidence in aggravation, all of which was already presented to the jury at trial,
ROA.4536-37, and found that the aggravating evidence supported future
dangerousness. ROA.4537. It then recited the mitigating evidence, including the
two facts the jury heard, that he was a peacemaker in prison and that he had an
aptitude for art, and flatly summarized the voluminous new evidence.8
8

The district court wrote:
The additional mitigating evidence presented during these proceedings shows that
Canales had prenatal exposure to alcohol and parental alcoholism, poverty and
homelessness, neglect, parental rejection, abandonment, and physical and sexual abuse.
His Full Scale IQ score on one test was 91 and 92 on another. He did not complete
school, but completed his GED at Brownwood State School. The additional evidence
delved further into his gang activities. At one time, he was a member of the Texas

31

133a

Case: 18-70009

Document: 00514733249

Page: 41

Date Filed: 11/21/2018

The court paid special attention to the new evidence that showed the
coercive circumstances of Mr. Canales’s participation in the crime, characterizing
it as “additional evidence [that] delved further into his gang activities.” Id. It was
dismissive of the argument that this evidence could help the jury understand those
circumstances and accepted the Respondent-Appellant’s argument that the new
evidence going into Mr. Canales’s gang activity was aggravating, and that the
“evidence of poverty, abuse, and neglect” though “compelling…does not outweigh
the aggravating circumstances in this case.” ROA.4538.
The district court defended the magistrate judge’s treatment of this evidence
against the challenge that he wrongly dismissed the new evidence without properly
weighing it: “The analysis was not dismissive of the wealth of new evidence of
gang violence, alcohol, drugs, and physical and sexual abuse. Such evidence was
acknowledged and duly noted.” Id.
The district court, similarly recited and “duly noted” the new evidence,
without once considering its mitigating effect. Although it recited that the
aggravation far outweighs the evidence in mitigation, it never actually considered
the new evidence as mitigating, adopting instead the view that “the new mitigation
Syndicate, who placed a hit on him. He then joined the Texas Mafia and participated in
the murder of Gary Dickerson. Prior to the murder, he had a heart attack and was
dependent on the gang.
ROA.4537.

32

134a

Case: 18-70009

Document: 00514733249

Page: 42

Date Filed: 11/21/2018

evidence was correctly characterized as double-edged.” ROA.4539. The court
never considered that the aggravating effect of the new evidence, particularly Mr.
Canales’s involvement with the two competing gangs, was already presented to the
jury and therefore the effect of the new evidence could only have been mitigating.
The court did not consider whether any of the new evidence was evidence bearing
on moral culpability or capable of explaining (without excusing) Mr. Canales’s
conduct, his particular vulnerabilities, or any reason to extend compassion and
make it reasonably likely that at least one juror would believe Mr. Canales should
be punished by a sentence less than death. It adopted Respondent-Appellee’s
opinion that the new mitigation evidence was “compelling,” ROA.4538, without
ever considering exactly what it compels.
The district court concluded “there is no reasonable probability that a juror
would have found that the mitigating evidence outweighed the aggravating
evidence.” ROA.4540. The lower court then quoted Martinez v. Quarterman, 481
F.3d 249, 259 (5th Cir. 2007): “The following conclusion by the Fifth Circuit is
equally applicable to the present case: ‘the additional mitigating evidence was not
so compelling, especially in light of the horrific facts of the crime, that the
sentencer would have found a death sentence unwarranted.’” ROA.4540.

33

135a

Case: 18-70009

Document: 00514733249

Page: 43

Date Filed: 11/21/2018

The district court thus found Mr. Canales’s role in restraining a prisoner
while another man strangled him to have been “horrific” like Virgil Martinez’s
crime of “four murders in which the victims were shot multiple times, requiring
Martinez to reload [his firearm].” Id. at 255. The aggravation from a triggerman’s
quadruple-homicide is not commensurable to Mr. Canales’s coerced role in the
killing of prisoner Dickerson. Additionally, the district court’s comparison to
Martinez is problematic on the further basis that the prejudice analysis concerned
the strategic decision of Martinez’s trial counsel not to introduce evidence
concerning an aspect of the defendant’s temporal lobe epilepsy;9 Mr. Canales’s
trial counsel utterly failed to investigate his background at all and thus was in no
position to weigh whether to introduce such evidence. Mr. Canales’s new evidence
offers a rich picture of his life circumstances. Returning to Martinez’s language
diminishing the mitigation evidence that Martinez’s trial counsel strategically
chose to withhold as “not so compelling, especially in light of the horrific facts of
the crime,” the Court must distinguish the extensive and rich quality of Mr.
Canales’s new evidence now under review. Mr. Canales’s evidence draws upon, as

9

Martinez’s trial counsel had secured expert opinion that identified defendant’s temporal lobe
epilepsy as a potential explanation for the homicide in question. Trial counsel extensively
weighed various factors concerning the issue and prospective expert testimony, ultimately
making the strategic decision neither to conduct further investigation nor present expert
evidence. Id. at 254-55.

34

136a

Case: 18-70009

Document: 00514733249

Page: 44

Date Filed: 11/21/2018

phrased in the ABA Supplemental Guidelines (infra), the “diverse frailties of
humankind” applicable to his particular life circumstances, and that body of new
evidence is not simply eclipsed by the details of Dickerson’s killing. ABA
Supplementary Guidelines for the Mitigation of Defense Teams in Death Penalty
Cases, 36 HOFSTRA L. REV. 677 (2008), (“ABA Supp. Guidelines”) Guideline 1.1
at 679
The Fifth Circuit has discredited this sort of “stereotypical fall-back
argument that the heinous and egregious nature of the crime would have ensured
assessment of the death penalty.” Gardner v. Johnson, 247 F.3d 551 (2001)
(finding prejudice from State’s introduction of psychiatric testimony about future
dangerousness in violation of right against self-incrimination). Walbey referred to
this as the “brutality trumps” argument, 309 F. App’x at 804, while applying it to
penalty phase deficient performance of trial counsel with respect to failing to
prepare a testifying expert. Walbey explained that the argument that the petitioner
“suffered no prejudice because the brutality of his crime eclipses any mitigating
evidence” was simply “a non-starter.” Id. Incorporating the discussion from
Gardner, Walbey discredited the approach employed in Mr. Canales’s district court
opinion now before this Court:
First, that [brutality trumps] argument cannot prevail without
eviscerating the Supreme Court-approved Texas “special issues”
35

137a

Case: 18-70009

Document: 00514733249

Page: 45

Date Filed: 11/21/2018

scheme. To permit a jury to impose the death sentence solely because
the facts are heinous and egregious would be to return to the days of
inflicting capital punishment based on emotion and revenge,
supplanting altogether the questions of deliberateness and future
dangerousness which make the Texas scheme constitutional. Second,
in this particular case, the details of the crime, as horrific as they are
on an absolute scale, are not significantly more egregious than those
in [a case compared to which Walbey’s crime is not significantly
more egregious].
Id. at 804 (second alteration in Walbey).
Walbey next adapted Gardner’s point that “the details of the crime, as
horrific as they are on an absolute scale, are not significantly more egregious than
those in, [for example, Vanderbilt v. Collins, 994 F.2d 189 (5th Cir. 1993)].”10 Id.

10

Comparisons of the crimes in question in these three cases, Walbey, Gardner, and Vanderbilt,
underscores that Mr. Canales’s crime was comparatively far less aggravated than many others,
including particular cases (Walbey and Gardner) wherein the Fifth Circuit rejected application of
the “brutality trumps” approach:
In Walbey, the defendant invaded a young woman’s home, lay in wait for the woman to come
home, then killed her brutally causing her to suffer over at least 10 to 15 minutes by stabbing her
numerous times with a butcher knife and a barbecue fork (one wound so deep into a bone that the
knife could not be pulled out), before bludgeoning her to death with blows to the head by a fire
extinguisher, and then maimed the body by stabbing her more times after she was dead. Walbey
v. State, 926 S.W.2d 307, 309 (Tex. Crim. App. 1996).
In Gardner, 247 F.3d at 553-54, the defendant was convicted of capital murder in the course of a
kidnapping for stabbing to death one of two 14-year-old runaway hitchhikers he abducted (the
other, also stabbed multiple times was left for dead but survived). Gardner stabbed each of his
victims multiple times and struck the decedent’s head with a rock.
In Vanderbilt, 994 F.2d at 191-92, the defendant abducted a 16-year-old girl in handcuffs
intending to rape her, but fatally shot her before accomplishing his goal. The State presented
substantial additional aggravating evidence including that he previously kidnapped and sexually
molested another young girl and expert testimony that he was “extremely well controlled, wellguarded, [and] extremely deliberate in his actions.”

36

138a

Case: 18-70009

Document: 00514733249

Page: 46

Date Filed: 11/21/2018

Walbey, a case controlled by AEDPA deference review—unlike Mr.
Canales’s, further noted that federal habeas applications from Texas’s death row
“[a]lmost without exception … arise from extremely egregious, heinous, and
shocking facts.11 But if that were all that is required to offset prejudicial legal error
and convert it to harmless error, habeas relief … would virtually never be
available, so testing for it would amount to a hollow judicial act.” Id. at 804
(quoting Gardner, 247 F.3d at 563).
3. There is no principled basis for taking the new mitigation as
aggravating.
a. The new mitigation would have supplied the jurors with
multifarious reasons for punishment by a sentence less than
death
There is no principled way of portraying the vast quantity of new mitigating
evidence—including evidence of extensive childhood physical and sexual abuse,
addiction, deprivation, neglect, poverty, and racism, as well as the context of the
crime, supra—as other than purely mitigating.
Courts have wrestled with the idea that certain types of evidence is
inherently double-edged—that its net effect is to tip the weighing of all the

11

The facts concerning the murder at bar are deplorable but they hardly elevate to the most
aggravated of murders. It is recognized, however, that other aggravating circumstances apart
from the killing of Mr. Dickerson itself were in evidence and properly under consideration in the
weighing on remand. See, e.g., ROA.4462-63.

37

139a

Case: 18-70009

Document: 00514733249

Page: 47

Date Filed: 11/21/2018

mitigation against the evidence in aggravation in the wrong direction. This Court
has accepted in some instances that evidence of childhood abuse is double-edged,”
Boyle v. Johnson, 93 F.3d 180, 187-88 (5th Cir. 1996) (giving credence to the
argument that it was strategic to forego evidence of physical abuse by the father
because the jury might think, “like father, like son”), and elsewhere that such
evidence is not. Robertson v. Cockrell, 325 F.3d 242, 254 (5th Cir. 2003).12 Motley
v. Collins, 18 F.3d 1223, 1235 (5th Cir. 1994), reasoned that evidence of
intellectual disability and organic brain damage were categorically double-edged,
but abuse suffered in childhood is not because it “indicate[s] that [the defendant]
was subject to change and that [he] was not unable to learn from his mistakes.”13
Here, there is no reasoned way to construe the effect of the new mitigation
as tipping the scales in favor of death—especially considering the only evidence in
mitigation presented to the jury was that Mr. Canales was a peacemaker in prison
and a gifted artist. Some of the confusion arises, perhaps, from improper focus on
Texas’s second special issue on future dangerousness (see infra). But the effect of

12

Abrogated by Tennard v. Dretke, 542 U.S. 274 (2004) (abrogating numerous Fifth Circuit
opinions due to use of a restrictive definition of what is constitutionally relevant mitigation that
effectively limited relevent mitigation to evidence with some nexus to the crime).
13

Similarly, this Court rejected the attempt by a district court to limit consideration of mitigation
evidence by requiring a temporal nexus to the crime in assessing prejudice. Lewis, 355 F.3d at
369.

38

140a

Case: 18-70009

Document: 00514733249

Page: 48

Date Filed: 11/21/2018

mitigation goes far beyond that one consideration. The ABA Supplementary
Guidelines describe mitigation:
Mitigation evidence includes, but is not limited to, compassionate
factors stemming from the diverse frailties of humankind, the ability
to make a positive adjustment to incarceration, the realities of
incarceration and the actual meaning of a life sentence, capacity for
redemption, remorse, execution impact, vulnerabilities related to
mental health, explanations of patterns of behavior, negation of
aggravating evidence regardless of its designation as an aggravating
factor, positive acts or qualities, responsible conduct in other areas of
life (e.g. employment, education, military service, as a family
member), any evidence bearing on the degree of moral culpability,
and any other reason for a sentence less than death.
ABA Supp. Guideline 1.1 at 679. Even assuming arguendo there is some
aggravating edge the jury has not already seen, the mitigating edge must be fully
considered. Here, the district court failed to do so. Although it recognized the new
mitigation as “compelling,” it failed to examine what about it was compelling, and
to consider what effect it might have on jurors in deciding the ultimate sentencing
question. As Justice Sotomayor argued, invoking the “double-edged” label should
never truncate the full reweighing required by Wiggins:
That truncated approach is in direct contravention of this Court’s
precedent, which has long recognized that a court cannot simply
conclude that new evidence in aggravation cancels out new evidence
in mitigation; the true impact of new evidence, both aggravating and
mitigating, can only be understood by asking how the jury would have
considered that evidence in light of what it already knew.

39

141a

Case: 18-70009

Document: 00514733249

Page: 49

Date Filed: 11/21/2018

Trevino v. Davis, 138 S. Ct. 1793, 1794 (2018) (Sotomayor, J., dissenting from
denial of certiorari).
b. The district court’s cynical use of “double-edged” would
swallow the Sixth Amendment right protected by Wiggins.
The cynical use of “double-edged” whereby the failure to present virtually
any and all evidence in mitigation is not prejudicial would completely swallow the
rights protected by Wiggins.14 Instead of asking whether there is a reasonable
probability that one juror would have voted for a life sentence, the RespondentAppellee would have the Court foreclose further inquiry into prejudice if there is
any chance (however remote) that someone could perceive an aggravating side to
some mitigating evidence. As noted, this Court has reversed denial of relief based
on such cynical use in the district courts concerning the same types of mitigation in
question in Williams and Wiggins. See, e.g., Walbey, 309 F. App’x at 806; Lewis,

14

Blume & Johnson, supra note 7 at 1501, 1505, writing before Wiggins, similarly observed that
the “the hard-boiled cynic[’s]” imagining “some way in which this type of evidence really is
‘double-edged’” “robs ineffective assistance of counsel doctrine of coherence.” They observe
that the rationales of Strickland do not support this approach. Id. at 1507. Instead, the practice:
usurps the trial lawyer’s function of choosing among strategies with a mechanical
rule: No mitigation is as good as some mitigation-no matter how powerful the
available mitigation, no matter how marginal the aggravating factors in the case,
no matter how sympathetic the defendant. Following this line of reasoning, one
might next ask: Is no lawyer as good as some lawyer? Lawyers themselves are
also two-edged swords, sometimes helping defendants and sometimes harming
them.
Id.

40

142a

Case: 18-70009

Document: 00514733249

Page: 50

Date Filed: 11/21/2018

355 F.3d at 369; Moore v. Johnson, 194 F.3d 586 (5th Cir 1999); Trevino v. Davis,
829 F.3d 328 (5th Cir. 2016).
III. THE DISTRICT COURT’S AMORPHOUS, INCORRECT USE OF THE “DOUBLEEDGED” CONCEPT UNCONSTITUTIONALLY PROHIBITS CONSIDERATION OF THE
INDEPENDENT MITIGATING EFFECT OF THE NEW EVIDENCE.
A. The District Court’s Analysis Violates The Foundational Post-Gregg
v. Georgia Jurisprudence On Mitigation Leading To Penry v.
Lynaugh.
To avoid unfettered jury discretion to “wantonly and freakishly” impose
death, the foundational cases have required the guidance and limitation of
discretion in the punishment phase by “focus[ing] the jury’s attention on the
particularized nature of the crime and the particularized characteristics of the
individual defendant.” Gregg v. Georgia, 428 U.S. 153, 206 (1976). The Court
struck down statutory schemes that “prevent[] the sentencer in all capital cases
from giving independent mitigating weight to aspects of the defendant’s character
and record and to the circumstances of the offense proffered in mitigation. Lockett
v. Ohio, 438 U.S. 586, 605 (1978). Curtailing the jury’s ability to give
“independent mitigating weight” is unconstitutional because it “creates the risk that
the death penalty will be imposed in spite of factors which may call for a less
severe penalty.” Id.

41

143a

Case: 18-70009

Document: 00514733249

Page: 51

Date Filed: 11/21/2018

Drawing on Lockett and Eddings v. Oklahoma, 455 U.S. 104 (1982), Penry
v. Lynaugh, 492 U.S. 302 (1989),15 found Texas’s pre-1991 scheme
constitutionally inadequate because “in the absence of appropriate jury
instructions, a reasonable juror could well have believed that there was no vehicle
for expressing the view that Penry did not deserve to be sentenced to death based
upon his mitigating evidence.” Id. at 328. Under that scheme, “if a juror concluded
that Penry acted deliberately and was likely to be dangerous in the future, but also
concluded that because of [the mitigating evidence] he was not sufficiently
culpable to deserve the death penalty, that juror would be unable to give effect to
that mitigating evidence under the instructions given in this case.”16 Id. at 326. The
problem with the pre-1991 Texas scheme was that “[t]he jury was never instructed
that it could consider the evidence offered by Penry as mitigating evidence and that
it could give mitigating effect to that evidence in imposing sentence.” Id. at 321
(emphasis added). The Court cited Gregg for the idea that while a jury’s discretion
to impose death must be guided, it must be permitted “‘to dispense mercy on the

15

Abrogated, in part, by Atkins v. Virginia, 536 U.S. 304 (2002) on the separate issue of whether
the “mentally retarded” are categorically ineligible for the death penalty.

16

The statute in question asked the jury three special issues, 1) whether the killed deliberately, 2)
whether the defendant was a future danger, and 3) whether the defendant did not act act
reasonably in response to provocation. “If the jury unanimously answers ‘yes’ to each issue
submitted, the trial court must sentence the defendant to death.” Id. at 310 (citing Tex. Code
Crim. Proc. Ann., § 27.071(c)-(e) (West 1985).

42

144a

Case: 18-70009

Document: 00514733249

Page: 52

Date Filed: 11/21/2018

basis of factors too intangible to write into a statute.’” Id. at 327 (quoting Gregg,
428 U.S. at 222 (White, J., concurring)). “‘Thus, the sentence imposed at the
penalty stage should reflect a reasoned moral response to the defendant’s
background, character, and crime.’” Id. at 319 (quoting California v. Brown, 479
U.S. 538, 545 (1987) (O’Connor, J., concurring) (emphasis in Brown). As in
Lockett, the scheme prohibited jurors from giving effect to the “independent
mitigating weight” of the evidence.
After Penry, Texas amended the statute. 1991 Tex. Sess. Law Serv. Ch. 838
(West). By its plain language, the special issues now serve to rule out death before
the jury reaches the step of considering whether the mitigation in light of the
aggravation means the defendant should be sentenced to less than death. Tex.
Crim. Proc. Code Ann. § 37.071 (West 2013). Only if jurors unanimously agree
that the answer is “yes” to the future dangerousness special issue can the jury then
proceed to answer the ultimate issue: “Whether, taking into consideration all of the
evidence, including the circumstances of the offense, the defendant’s character and
background, and the personal moral culpability of the defendant, there is a
sufficient mitigating circumstance or circumstances to warrant a sentence of life
imprisonment without parole rather than a death sentence be imposed.”
§ 37.01(e)(1).
43

145a

Case: 18-70009

Document: 00514733249

Page: 53

Date Filed: 11/21/2018

While capital juries after Penry are now properly instructed, Mr. Canales’s
district court conducted reweighing of his new mitigation evidence as though, in
effect, the jury’s consideration was under the unconstitutional pre-Penry scheme.
The court’s use of the double-edged metaphor focused only on the effect the new
evidence had on future dangerousness, as if the answer to that special issue were
still enough to require imposition of death. The district court’s analysis did not
provide the hypothetical reasonable juror a vehicle for expressing the view that Mr.
Canales did not deserve to be sentenced to death based upon his mitigating
evidence. Canales, 765 F.3d at 570-71 (remanding on basis of “merit to the notion
that, had trial counsel’s performance not been deficient during sentencing, ‘at least
one juror would have struck a different balance.’”) (quoting Wiggins, 539 U.S. at
537); see Walbey, 309 F. App’x at 803 (reversing under AEDPA upon finding
“reasonable probability that one juror would have voted for life in prison rather
than death.”); Buck, 137 S. Ct. at 765 (applying standard that “at least one juror
would have harbored a reasonable doubt” in weighing effect of unconstitutional
expert testimony on race and violence concerning future dangerousness). The
district court’s misuse of double-edged functions to make the final question one
solely about future dangerousness without considering the actual mitigating effect
of the new evidence.
44

146a

Case: 18-70009

Document: 00514733249

Page: 54

Date Filed: 11/21/2018

The correct analysis, as recited supra, requires reweighing the evidence to
determine whether it is reasonably likely that “‘at least one juror would have struck
a different balance.’” Canales, 765 F.3d at 571 (quoting Wiggins, 539 U.S. at 537).
This analysis requires considering whether at least one juror would have found the
new evidence to bear “on the degree of moral culpability, [or] any other reason for
a sentence less than death.” ABA Supp. Guideline 1.1 at 679. As in the current
statutory scheme, answering “yes” to future dangerousness is a threshold question,
not the end of the analysis.
B. After Penry, The Supreme Court Still Corrected Attempts To Limit
Consideration Of The Independent Mitigating Effect Of Evidence.
Abdul-Kabir v. Quarterman, 550 U.S. 233, 241 (2007), involved evidence
proffered not to contradict the Texas’s case for future dangerousness “but instead
sought to provide an explanation for his behavior that might reduce his moral
culpability.” The high Court noted that Texas did not correct its statutory scheme
following Lockett “until after our unanimous decision in Hitchcock v. Dugger, 481
U.S. 393 (1987), unequivocally confirmed the settled quality of the Lockett rule.”
Id. at 248. Relying on the line of cases including (but not limited to) Hitchcock,
Skipper v. South Carolina, 476 U.S. 1 (1986), Eddings, 455 U.S. 104, and Lockett,
438 U.S. 586 (plurality opinion), the Court concluded that it is unconstitutional to
prohibit consideration of the mitigating effect of this evidence. Id. at 249, 264-65.
45

147a

Case: 18-70009

Document: 00514733249

Page: 55

Date Filed: 11/21/2018

And it is not enough simply to say the evidence has been presented; the jury
must be permitted to give weight to the mitigating effect and therefore in habeas
proceedings the reviewing court must evaluate what the jury would consider and
determine whether but for the failure to investigate and present this evidence, at
least one juror would have struck a different balance:
The same principles originally set forth in earlier cases such
as Lockett and Eddings have been articulated explicitly by our later
cases, which explained that the jury must be permitted to “consider
fully” such mitigating evidence and that such consideration “would be
meaningless” unless the jury not only had such evidence available to
it, but also was permitted to give that evidence meaningful, mitigating
effect in imposing the ultimate sentence. Penry I, 492 U.S., at 321,
323, 109 S.Ct. 2934 (internal quotation marks omitted); Graham, 506
U.S., at 475, 113 S.Ct. 892 (acknowledging that a “constitutional
defect” has occurred not only when a jury is “precluded from even
considering certain types of mitigating evidence,” but also when “the
defendant’s evidence [i]s placed before the sentencer but the sentencer
ha[s] no reliable means of giving mitigating effect to that evidence”).
Id. at 260. More generally, “Our cases following Lockett have made clear that
when the jury is not permitted to give meaningful effect or a ‘reasoned moral
response’ to a defendant’s mitigating evidence—because it is forbidden from doing
so by statute or a judicial interpretation of a statute—the sentencing process is
fatally flawed.” Id. at 264.
Like in Abdul-Kabir and the line of cases going back to Lockett, here, the
district court’s reweighing prevented consideration of independent mitigating
46

148a

Case: 18-70009

Document: 00514733249

Page: 56

Date Filed: 11/21/2018

weight of the evidence and thereby created the risk that the death penalty will be
imposed in spite of factors which may call for a less severe penalty.
IV. PETITIONER-APPELLANT’S MERITORIOUS WIGGINS CLAIM ESTABLISHES
CAUSE AND PREJUDICE TO OVERCOME STATE POST-CONVICTION COUNSEL’S
DEFAULT
This Court’s remand order made clear that a finding of prejudice in the
underlying Wiggins claim, in addition to showing Mr. Canales was entitled to
relief, would complete the analysis showing Mr. Canales has overcome the
procedural bar of claims denied in state court due to default of state procedural
rules. Canales, 765 F.3d at 562-67, 569, 578.
Generally, claims denied in state court on adequate and independent state
grounds may not be raised in federal habeas, and denial for the failure to meet state
procedural rules qualifies as such adequate grounds. Coleman v. Thompson, 501
U.S. 722, 729-30 (1991). But an exception exists whereby “[a] federal court may
consider the merits of a procedurally defaulted claim if the petitioner shows ‘cause
for the default and prejudice from a violation of federal law.’” Canales, 765 F.3d at
562 (quoting Martinez v. Ryan, 566 U.S. 1, 7 (2012)). Such cause exists when the
state procedural default was the result of ineffective assistance of counsel at initial
collateral review. Martinez, 566 U.S. at 9.

47

149a

Case: 18-70009

Document: 00514733249

Page: 57

Date Filed: 11/21/2018

This Court held that Mr. Canales established the threshold showing required
to establish cause by evincing that “his counsel in the initial-review collateral
proceeding was deficient.” Canales, 765 F.3d at 567-68, 569. Mr. Canales’s state
habeas counsel’s performance “fell below an objective standard of reasonableness”
because they “did not conduct a mitigation investigation due to a misunderstanding
of funding.” Id. at 569. But cause also required Mr. Canales to show that his
underlying Wiggins claim has “some merit.” Id. As set forth above, the Court
concluded that “trial counsel’s performance was deficient” because their decision
not to investigate mitigation was not reasonable or the result of a reasoned
decision, leaving as the last step to establishing cause the requirement that Mr.
Canales establish prejudice by showing his claim was substantial. Id. at 570.
Before remanding the matter, the Court’s own assessment of Mr. Canales’s case
for prejudice was that it is substantial, noting that “there is some merit to the notion
that, had trial counsel’s performance not been deficient during sentencing, ‘at least
one juror would have struck a different balance.’” Id. at 570-71 (quoting Wiggins,
539 U.S. at 537).
Having established cause, the only thing remaining to overcome the
procedural default is “whether Canales can actually prove prejudice.” Id. at 571.
Prejudice, for purposes of the Martinez-Trevino exception to procedural default
48

150a

Case: 18-70009

Document: 00514733249

Page: 58

Date Filed: 11/21/2018

means “actual prejudice resulting from the alleged constitutional violation.” Davila
v. Davis, 137 S. Ct. 2058, 2065 (2017). Because Mr. Canales’s underlying
ineffectiveness of counsel claim is governed by Strickland, proving both the
remaining prong of cause and prejudice to overcome procedural default, and that
he is entitled to relief, Mr. Canales must prove “a reasonable probability that, but
for counsel’s unprofessional errors, the result of the proceeding would have been
different.” Buck, 137 S. Ct. at 765. This means, Mr. Canales’s showing (explicated
supra), that in light of the new mitigation evidence, at least one juror would have
struck a different balance overcomes the procedural default in addition to showing
he is entitled to relief.
CONCLUSION
For the foregoing reasons, Petitioner-Appellant respectfully requests this
Court to reverse the district court’s denial of his § 2254 petition for habeas corpus
relief and remand the matter with instructions to grant such relief.
Respectfully submitted,
Joseph Perkovich
Phillips Black, Inc.
PO Box 4544
New York, NY10163-4544
(212) 400-1660
j.perkovich@phillipsblack.org
By: s/ Joseph J. Perkovich
Counsel for Petitioner-Appellant, Anibal Canales, Jr.
49

David P. Voisin
Miss. Bar # 100210
P. O. Box 13984
Jackson MS 39236
(601) 949-9486
david@dvoisinlaw.com

151a

Case: 18-70009

Document: 00514733249

Page: 59

Date Filed: 11/21/2018

CERTIFICATE OF SERVICE
This is to certify that I, Joseph J. Perkovich, have electronically served a
copy of this document upon Respondent-Appellee’s counsel by filing same with
the United States Court of Appeals for the Fifth Circuit’s Electronic Case Filing
system on November 21, 2018.
s/ Joseph J. Perkovich
Counsel for Anibal Canales, Jr.
Petitioner-Appellant

50

152a

Case: 18-70009

Document: 00514733249

Page: 60

Date Filed: 11/21/2018

CERTIFICATE OF COMPLIANCE
Pursuant to 5th Cir. R. 32.2.7(c), the undersigned certifies this brief
complies with the type-volume limitations of 5th Cir. R. 32.2.7(b) because,
excluding the parts of the document exempted by Fed. R. App. P. 32(f)
this document contains 11,645 words.
s/ Joseph J. Perkovich
Attorney for Anibal Canales, Jr.
Petitioner-Appellant

51

153a

Case: 18-70009

Document: 00514806976

Page: 1

Date Filed: 01/23/2019

Case No. 18-70009
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
ANIBAL CANALES, JR., Petitioner-Appellant
v.
LORIE DAVIS, DIRECTOR,
TEXAS DEPARTMENT OF CRIMINAL JUSTICE, CORRECTIONAL
INSTITUTIONS DIVISION, Respondent-Appellee.
___________________
APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
___________________
PETITIONER-APPELLANT’S REPLY BRIEF
___________________
THIS IS A DEATH PENALTY CASE
David P. Voisin
Mississippi Bar # 100210
P. O. Box 13984
Jackson MS 39236
(601) 949-9486
david@dvoisinlaw.com

Joseph J. Perkovich
New York Bar # 4481776
Phillips Black, Inc.
P.O. Box 4544
New York, NY10163-4544
(212) 400-1660
j.perkovich@phillipsblack.org

Members of Fifth Circuit Bar
Counsel for Anibal Canales, Jr.

i

154a

Case: 18-70009

Document: 00514806976

Page: 2

Date Filed: 01/23/2019

TABLE OF CONTENTS
TABLE OF CONTENTS ...................................................................................... II
TABLE OF AUTHORITIES ...............................................................................III
PRELIMINARY STATEMENT ........................................................................... 1
REPLY ..................................................................................................................... 4
I. THE COMPELLING EVIDENCE IN MITIGATION DEMONSTRATES
IT IS REASONABLY PROBABLE THAT AT LEAST ONE JUROR
WOULD HAVE STRUCK A DIFFERENT BALANCE AND VOTED FOR
LIFE. ................................................................................................................... 4
A. Wiggins Reweighing Requires Consideration Of Any And All
Mitigating Effects And Its Resulting Consequences For The Twelve Jurors’
Individual Sentencing Decisions. ........................................................................... 5
B. The District Court’s Invocation Of The Double-Edged Sword Doctrine
Frustrates The Mitigating Effect Of The New Evidence. ................................... 9
1. This Court Has Already Found The Deficient Performance Of PetitionerAppellant’s Trial Counsel; In Contrast, None Of This Court’s Double-Edged
Precedents Include A Deficient Performance Finding. ............................................ 9
2. The District Court’s Erroneous Prejudice Decision Is Reviewed De Novo.
................................................................................................................................ 10
3. The New Evidence Is Not “Double-Edged” Because Any Aggravating Edge
Was Already Before The Jury. ................................................................................ 12
II. THE NEW EVIDENCE IS PROPERLY BEFORE THIS COURT. .......... 18
A. This Court Already Rejected Appellee’s § 2254(e)(2) Argument And
Considered The New Evidence. ........................................................................... 18
B. The Magistrate Report & Recommendation And The District Court
Opinion Under Review Are Explicitly Based On The New Evidence. ............. 19
C. Nothing In § 2254(e)(2) Or Established Case Law Provides That A
District Court Is Barred From Considering New Evidence In Resolving A
Claim Relying On Martinez-Trevino To Overcome A Default.......................... 19
D. Barring New Evidence Would Make Federal Review Of Viable
Strickland Claims Raised Under the Martinez-Trevino Exception Impossible
and Violate Due Process ....................................................................................... 26
CONCLUSION ..................................................................................................... 27
ii

155a

Case: 18-70009

Document: 00514806976

Page: 3

Date Filed: 01/23/2019

TABLE OF AUTHORITIES
Cases
Atkins v. Virginia, 536 U.S. 304 (2002) ................................................................... 8
Ayestas v. Davis, 138 S. Ct. 1080 (2018) ............................................................... 24
Barrientes v. Johnson, 221 F.3d 741 (5th Cir. 2000) ............................................. 22
Bell v. Burson, 402 U.S. 535 (1971) ....................................................................... 28
Brown v. Thaler, 684 F.3d 482 (5th Cir. 2012) ...................................................... 10
Canales v. State, 98 S.W.3d 690 (Tex. Crim. App. 2003) ..................................... 18
Canales v. Stephens, 765 F.3d 551 (5th Cir. 2014) ......................................... passim
Coleman v. Thompson, 501 U.S. 722 (1991) .......................................................... 22
Crane v. Kentucky, 476 U.S. 683 (1983) ................................................................ 28
Cullen v. Pinholster, 563 U.S. 170 (2011) ............................................................. 20
Davila v. Davis, 137 S. Ct. 2058 (2017) ................................................................. 23
Detrich v. Ryan, 740 F.3d 1237 (9th Cir. 2013) ..................................................... 28
Dickens v. Ryan, 740 F.3d 1302 (9th Cir. 2014) .................................................... 26
Gardner v. Johnson, 247 F.3d 551 (5th Cir. 2001) .......................................... 13, 14
Graham v. Collins, 506 U.S. 461 (1993) .................................................................. 7
Graham v. Collins, 950 F.2d 1009 (5th Cir. 1992)................................................... 7
Gray v. Epps, 616 F.3d 436 (5th Cir. 2010) .................................................... passim
Holland v. Jackson, 542 U.S. 649 (2004) ............................................................... 23
iii

156a

Case: 18-70009

Document: 00514806976

Page: 4

Date Filed: 01/23/2019

Ibarra v. Davis, 738 F. App’x 814 (5th Cir. 2018) .......................................... 26, 27
Johnson v. Cockrell, 306 F.3d 249 (5th Cir. 2002) ................................................ 10
Johnson v. Williams, 568 U.S. 289 (2013) ............................................................. 20
Jurek v. Texas, 428 U.S. 262 (1976)......................................................................... 7
Keeney v. Tamayo-Reyes, 504 U.S. 1 (1992) ......................................................... 21
Lewis v. Dretke, 355 F.3d 364 (5th Cir. 2002) ....................................................... 11
Martinez v. Dretke, 404 F.3d 878 (5th Cir. 2005) .................................................. 10
Martinez v. Quarterman, 481 F.3d 249 (5th Cir. 2007) ................................... 10, 12
Martinez v. Ryan, 566 U.S.1 (2012) ................................................................ passim
Mejia v. Davis, 906 F.3d 307 (5th Cir. 2018) ......................................................... 10
Murray v. Carrier, 477 U.S. 478 (1986) ................................................................ 21
Penry v. Lynaugh, 492 U.S. 302 (1989) ................................................................... 8
Saldano v. State, 232 S.W.3d 77 (Tex. Crim. App. 2007) ....................................... 6
Segundo v. Davis, 831 F.3d 345 (5th Cir. 2016) .................................................... 27
Townsend v. Sain, 372 U.S. 293 (1963) ................................................................. 21
Trevino v. Davis, 138 S. Ct. 1793 (2018) ........................................................ passim
Trevino v. Davis, 861 F.3d 545 (5th Cir. 2017) ................................................ 24, 25
United States v. Shepherd, 880 F.3d 734 (5th Cir. 2018) ....................................... 12
Walbey v. Quarterman, 309 F. App’x 795 (5th Cir. 2009) .................................... 13
Washington v. Davis, 715 F. App’x. 380 (5th Cir. 2017) ....................................... 25
iv

157a

Case: 18-70009

Document: 00514806976

Page: 5

Date Filed: 01/23/2019

Wiggins v. Smith, 539 U.S. 510 (2003)............................................................. 1, 7, 9
Williams v. State, 273 S.W.3d 200 (Tex. Crim. App. 2008) .................................... 6
Williams v. Taylor, 529 U.S. 362 (2000) ...................................................... 6, 20, 21
Wilson v. Beard, 426 F.3d 653 (3d Cir. 2005) ........................................................ 26
Statutes
18 U.S.C. § 3599(f)................................................................................................. 24
28 U.S.C. § 2254(d) ................................................................................................ 20
28 U.S.C. § 2254(e)(2) .................................................................................... passim
Tex. Crim. Proc. Code Ann. § 37.071(b) .................................................................. 7
Tex. Crim. Proc. Code Ann. § 37.071(e) .................................................................. 6
Other Authorities
Habeas Rule 8 ......................................................................................................... 21

v

158a

Case: 18-70009

Document: 00514806976

Page: 6

Date Filed: 01/23/2019

PRELIMINARY STATEMENT
The sole issue raised in this appeal is whether the district court, upon remand,
erred in concluding that Petitioner-Appellant was not prejudiced by his trial
counsel’s previously adjudged deficient performance in failing to develop and
present mitigating evidence reasonably likely to show that “at least one juror would
have struck a different balance” in the penalty phase and not voted for a death
sentence. Canales v. Stephens, 765 F.3d 551, 571 (5th Cir. 2014) (quoting Wiggins
v. Smith, 539 U.S. 510, 537 (2003)). Notwithstanding the clear terms of this Court’s
certificate of appealability, Respondent-Appellee’s Brief injects a second issue, one
already considered and rejected by this Court in the course of its 2014 remand.
Perplexingly, Respondent-Appellee now argues that 28 U.S.C. § 2254(e)(2)
prohibits the district court, and this Court,1 from even considering new mitigation
evidence developed by federal habeas counsel pursuant to investigative funding
upon remand.
Despite Respondent-Appellee’s distraction, the single issue before this Court,
which is subject to de novo review, arises from the district court’s failure to conduct
adequate re-weighing of the evidence. Although the district court recited the
evidence in mitigation, it dismissed it as “double-edged” without considering that

1

See Pet. Br. at 13 n.4 (“In the district court, the Director did not invoke § 2254(e)(2) to bar
Petitioner’s new evidence.”).

1

159a

Case: 18-70009

Document: 00514806976

Page: 7

Date Filed: 01/23/2019

any aggravating edge already had been squarely before the jury. Furthermore, the
district court’s blinkered focus on the threshold special issue of future dangerousness
diverted any meaningful consideration of the broad array of mitigating effects of the
new evidence on the actual sentencing outcome, including reduced culpability for
the crime, help understanding why Mr. Canales behaved as he did, and many other
facts reasonably likely to lead a reasonable juror to find Mr. Canales sympathetic
enough to vote for life. These two failings are interrelated. It is apparently the district
court’s fixation on future dangerousness, rather than the jury sentencing verdict—
the actual outcome upon which prejudice analysis depends—that led the court to
mischaracterize the compelling evidence in mitigation as “double-edged,” ignoring
its mitigating effect on the outcome.
Rather than sustaining engagement with the single issue before this Court,
Respondent-Appellee has attempted to derail the bounded inquiry of the present
COA with argument centered upon § 2254(e)(2) aimed at preempting the Court’s
review of the district court’s determination of the new evidence with respect to cause
and prejudice excusing procedural default in state court. This argument is not even
properly before this Court and it is legally wrong. The Supreme Court has clearly
established that Congress did not mean for § 2254(e)(2)’s “failed to develop”
language to announce a no-fault rule. The provision does not apply at all to the
analysis of prejudice to overcome a procedural bar (which is not itself a ground for
2

160a

Case: 18-70009

Document: 00514806976

Page: 8

Date Filed: 01/23/2019

relief), and excluding new evidence as to an underlying Strickland claim would
render any such claim raised under the Martinez-Trevino exception impossible to
implement in every case, clearly a legal position antithetical to Martinez itself.
Martinez v. Ryan, 566 U.S.1 (2012); Trevino v. Davis, 138 S. Ct. 1793 (2018).

3

161a

Case: 18-70009

Document: 00514806976

Page: 9

Date Filed: 01/23/2019

REPLY
I. THE COMPELLING EVIDENCE IN MITIGATION DEMONSTRATES IT IS
REASONABLY PROBABLE THAT AT LEAST ONE JUROR WOULD HAVE STRUCK
A DIFFERENT BALANCE AND VOTED FOR LIFE.
The district court erred in failing to reweigh the new mitigating evidence in
light of all the existing relevant evidence to determine whether, but for trial counsel’s
ineffectiveness, it is reasonably likely at least one juror would have struck a different
balance and voted for life. Respondent-Appellee’s brief fails to advance grounds for
upholding the district court’s improper fixation upon the threshold question of future
dangerousness, a prerequisite finding to considering the ultimate sentencing
question but not a finding dispositive of the prejudice question. Further, the district
court’s cynical invocation of the “double-edged sword” doctrine exacerbated its
siloed approach to future danger. The district court thereby ignored the fact that any
aggravating edge to Petitioner-Appellant’s new evidence had already been before
the jury and the opposing brief before this Court offers no defensible rationale for
that fatal flaw in the court’s decision below. By its pinched inquiry, the district court
ignored the actual mitigating effect of the new mitigating evidence on the probable
sentencing outcome. The faulty invocation of the “double-edge sword doctrine”
resulted in the district court failing to make a valid finding on the question of
prejudice.

4

162a

Case: 18-70009

Document: 00514806976

Page: 10

Date Filed: 01/23/2019

A. Wiggins Reweighing Requires Consideration Of Any And All
Mitigating Effects And Its Resulting Consequences For The Twelve
Jurors’ Individual Sentencing Decisions.
Upon this Court’s remand, the district court erroneously cabined its inquiry
within the future dangerousness question to the exclusion of meaningful
consideration of the mitigating quality of the new evidence developed by federal
habeas counsel. The district court thus broadly dismissed the new mitigation based
solely on the assumption that the evidence supports future dangerousness. For
example:
Viewed collectively, the reports presented by Ms. Herrero, Dr. Brawley
and Dr. Maddox present a wealth of double-edged evidence, including
evidence of gang violence, alcohol, drugs, and physical and sexual
abuse. The Fifth Circuit has observed that evidence of “brain injury,
abusive childhood, and drug and alcohol problems is all ‘doubleedged.’ In other words, even if his recent claims about this evidence is
true, it could all be read by the jury to support, rather than detract, from
his future dangerousness claim.” Johnson v. Cockrell, 306 F.3d 249,
253 (5th Cir. 2002), cert. denied, 538 U.S. 926 (2003).
ROA.3230. Assuming arguendo the new mitigation evidence is “double-edged”
because it supports a finding of future dangerousness, the district court erred in not
meaningfully considering the effect this evidence would have on the actual outcome
of sentencing, the ultimate question of whether the mitigating effect was sufficient
to warrant life rather than death in Mr. Canales’s particular case. This error is
especially conspicuous in light of the remand opinion: “While there was certainly
evidence to support a finding of future dangerousness, we are not convinced that
5

163a

Case: 18-70009

Document: 00514806976

Page: 11

Date Filed: 01/23/2019

evidence is enough to say that Canales’s claim is not substantial.” Canales, 765 F.3d
at 570.
Under Texas’s scheme, when all twelves jurors agree on the penalty phase
special issues, the jurors then moves on to consider the ultimate sentencing question
of whether, when taking into account “the circumstances of the offense, the
defendant’s character and background, and the personal moral culpability of the
defendant,” the punishment should be death or life without possibility of parole. Tex.
Crim. Proc. Code Ann. § 37.071(e); see also, e.g., Saldano v. State, 232 S.W.3d 77,
99 (Tex. Crim. App. 2007) (acknowledging that a hypothetical potential juror who
indicated he would not consider any evidence in mitigation after the jury answered
“yes” to the future dangerousness special issue would have to be struck for cause);
Williams v. State, 273 S.W.3d 200, 219 (Tex. Crim. App. 2008) (although the jury
must be allowed to consider all evidence in mitigation, “not all evidence of
mitigating value is relevant to [the future dangerousness special issue]”); cf.
Williams v. Taylor, 529 U.S. 362, 398 (2000) (graphic description of petitioner’s
childhood, abuse and privation may not have overcome a finding of future
dangerousness but “might well have influenced the jury’s appraisal of his moral
culpability”).
Since Jurek v. Texas, 428 U.S. 262 (1976), the special issue of future
dangerousness has operated in the Texas statutory scheme as merely a threshold
6

164a

Case: 18-70009

Document: 00514806976

Page: 12

Date Filed: 01/23/2019

question that must be found before the jury can consider whether death is appropriate
in light of the mitigating evidence. Indeed, the very “constitutionality of the Texas
procedures turns on whether the enumerated questions allow consideration of
particularized mitigating factors.” Graham v. Collins, 950 F.2d 1009 (5th Cir. 1992),
quoted in Graham v. Collins, 506 U.S. 461 (1993). The Texas special issues allow
for such consideration; Mr. Canales’s district court, however, failed to entertain the
new evidence’s “particularized mitigating factors” that govern their deliberation
after unanimity on the special issues under Tex. Crim. Proc. Code Ann. § 37.071(b).
Id.
But the approach Respondent-Appellee advocates, like the mistaken path the
magistrate judge and the district court had taken, effectively cordons off the new
evidence, leaving it only for future dangerousness scrutiny. This approach fails to
consider whether that new evidence makes it reasonably likely that “‘at least one
juror would have struck a different balance.’” Canales, 765 F.3d at 571 (quoting
Wiggins, 539 U.S. at 537).
The opposition brief entirely ignores this fundamental aspect of the jury’s
inquiry, characterizing the weighing undertaking as the whole jury’s determination
rather than a collection of individual balancing exercises to be undertaken be each
of the twelve jurors. The central question in Wiggins of whether the mitigating effect
should be considered to cause “at least one juror to strike a different balance” is a
7

165a

Case: 18-70009

Document: 00514806976

Page: 13

Date Filed: 01/23/2019

dramatically different process from the one implicit throughout RespondentAppellee’s argument, which suggests jury unanimity on the question is needed
instead of an assessment of the probability of merely one of twelve jurors “strik[ing]
a different balance.” Id. Respondent-Appellee’s mistaken orientation to this question
cloaks the district court’s faulty approach.
The basic result of the district court’s mistaken approach shuts down the
needed “vehicle” for the jury to consider factors indicating the defendant “did not
deserve to be sentenced to death based upon his mitigating evidence.” Penry v.
Lynaugh, 492 U.S. 302, 328 (1989) (invalidating pre-1991 statute that made death
decision dependent only on future dangerousness special issue).2 Under Texas’s prePenry statute, if the jury answered “yes” to future dangerousness, but also believed
there was mitigation that meant the defendant did not deserve death, the jury simply
“would be unable to give effect to that mitigating evidence.” Id. at 326. The postPenry statute is constitutional because the future dangerousness special issue serves
only to rule out death, and death may not be imposed unless the jury considers all
the mitigation and every single juror individually concludes that the defendant
deserves death. See Pet. Br. at 43.

2

Abrogated, in part, by Atkins v. Virginia, 536 U.S. 304 (2002) on the separate issue of whether
the “mentally retarded” are categorically ineligible for the death penalty.

8

166a

Case: 18-70009

Document: 00514806976

Page: 14

Date Filed: 01/23/2019

B. The District Court’s Invocation Of The Double-Edged Sword Doctrine
Frustrates The Mitigating Effect Of The New Evidence.
1. This Court Has Already Found The Deficient Performance Of
Petitioner-Appellant’s Trial Counsel; In Contrast, This Court’s
Double-Edged Precedents Do Not Include A Deficient Performance
Finding.
Respondent-Appellee ignores the thrust of this Court’s 2014 opinion in this
case, which reversed the district court’s finding on trial counsel’s deficient
performance and repeatedly recognized that—even without the benefit of factual
development by Mr. Canales’s counsel—Petitioner-Appellant’s underlying Wiggins
claim possessed merit: “Given all this, there is some merit to the notion that, had
trial counsel’s performance not been deficient during sentencing, ‘at least one juror
would have struck a different balance.’” Canales, 765 F.3d at 570-71 (quoting
Wiggins, 539 U.S. at 537). Further, this Court explained the purpose of its remand:
“While there is sufficient information before this Court for us to conclude that there
is some merit to Canales’s claim of ineffective assistance of counsel, we think the
district court should address the prejudice question in the first instance.” Id. at 571;
Pet. Br. at 3, 22-23.
In this context, it is conspicuous that the opposing brief dedicated much of its
argument to the “double-edged sword” doctrine’s fundamental application to the
first prong of Strickland, the deferential standard for assessing whether trial
counsel’s inaction or commissions fell within the broad spectrum of viable trial
9

167a

Case: 18-70009

Document: 00514806976

Page: 15

Date Filed: 01/23/2019

strategy. Here, this Court has already determined that trial counsel’s performance
was deficient, and the decision to refrain from investigating and presenting
mitigation—despite the many red flags calling for attention—based on the
misapprehension that no funds were available, was not strategic. Canales, 765 F.3d
at 569-70.
Overall, the “double-edged sword” doctrine cases Respondent-Appellee relies
on are distinguishable. Some involved application of the doctrine to deficient
performance only. Mejia v. Davis, 906 F.3d 307, 316 (5th Cir. 2018) (“Because we
limit our analysis to deficient performance, we need not reach prejudice.”); Martinez
v. Dretke, 404 F.3d 878, 889 (5th Cir. 2005). Most of them applied it to both prongs
simultaneously. Brown v. Thaler, 684 F.3d 482, 499 (5th Cir. 2012); Clark v. Thaler,
673 F.3d 410, 421, 423 (5th Cir. 2012); Martinez v. Quarterman, 481 F.3d 249, 25556, 258 (5th Cir. 2007); Johnson v. Cockrell, 306 F.3d 249, 253 (5th Cir. 2002).
None involved cases where deficient performance and cause for procedural default
had already been found, leaving only the sole question of whether prejudice resulted
from that deficiency. See, e.g., Gray v. Epps, 616 F.3d 436, 449 (5th Cir. 2010).
2. The District Court’s Erroneous Prejudice Decision Is Reviewed De
Novo.
Respondent-Appellee fails to address the profound implications of this case’s
history in the state and federal courts. Mr. Canales’s case is unique with respect to
the nature of the inquiry before the district court upon this Court’s remand and, now,
10

168a

Case: 18-70009

Document: 00514806976

Page: 16

Date Filed: 01/23/2019

with regard to this Court’s de novo review of the lower court’s erroneous
determination of the resulting Wiggins related claims. Pet. Br. at 16-20. “Because
the state court did not make any factual findings regarding these claims . . . , no
deference is owed to the state court’s resolution of the instant claims.” Lewis v.
Dretke, 355 F.3d 364, 366 (5th Cir. 2002); Pet. Br. at 20. Lewis, a pre-AEDPA
habeas action, offers guidance for the Court’s review of the district court’s
superficial treatment—without an evidentiary hearing—of Mr. Canales’s substantial
Wiggins evidence. Namely, because there was no Wiggins evidence in state court
and, of course, no state court decision on Wiggins, Mr. Canales’s evidence was
developed only upon this Court’s remand. The Court thus reviews de novo the
district court’s treatment of the mixed questions of law and fact. Pet. Br. at 17; Lewis,
355 F.3d at 366; see also United States v. Shepherd, 880 F.3d 734, 740 (5th Cir.
2018). Yet Respondent-Appellee fails to address these implications and, instead,
mobilizes a raft of AEDPA-derived precedent.
Clearly, there is no shortage of cases wherein this Court affirmed the denial
of Wiggins relief resulting from the extremely deferential review of state court
adjudications under AEDPA. The opposition brief has cited many of these examples.
Res. Br. at 15-21. But these cases shed little light on the inquiry that the district
court—with no state court adjudication on this issue and therefore without the
extremely constrained review under AEDPA deference—was required to undertake
11

169a

Case: 18-70009

Document: 00514806976

Page: 17

Date Filed: 01/23/2019

concerning Petitioner-Appellant’s new evidence developed upon this Court’s 2014
remand.
In the end, perplexingly, the district court relied on Martinez v. Quarterman,
481 F.3d at 259, quoting it for the point that “the additional mitigating evidence was
not so compelling, especially in light of the horrific facts of the crime, that the
sentencer would have found a death sentence unwarranted.” ROA.3232, Pet. Br. at
33. Petitioner-Appellant’s opening brief directly compared the facts in Martinez, an
aggravated quadruple-murder case, to those in Petitioner-Appellant’s case in which
he restrained a fellow prisoner while another man strangled the victim. Pet. Br. at
34-35. But Respondent-Appellee has failed to address the chasm between the
precedent relied on in the district court and Mr. Canales’s case.
3. The New Evidence Is Not “Double-Edged” Because Any
Aggravating Edge Was Already Before The Jury.
Further, the district court ignored the fact that any aggravating edge to the new
evidence—i.e. Mr. Canales’s gang involvement—was already fully before the jury.
The opposition brief fails to reckon with this critical aspect of the case history and,
as a result, fails to account for the signature feature of this case, namely that the
effect of the new evidence was to precipitate whether that evidence’s mitigating
quality would have caused any single juror to strike a different balance. Walbey v.
Quarterman, 309 F. App’x 795, 806 (5th Cir. 2009). In fact, the new evidence helps
the jury understand some of the aggravating evidence in a sympathetic way by
12

170a

Case: 18-70009

Document: 00514806976

Page: 18

Date Filed: 01/23/2019

showing Mr. Canales’s involvement in the crime was coerced by mortal threats.
There was good reason for the district court to concede the “compelling” nature of
this new evidence (Pet. Br. at 31, 33), and that quality informs the proper conclusion
that this evidence satisfied the Wiggins standard for a single juror striking a different
balance.
The opposition brief ignores the implications of Walbey and Gardner v.
Johnson, 247 F.3d 551 (5th Cir. 2001), leading Fifth Circuit precedents that
Petitioner-Appellant has briefed at length with respect to their bearings upon a
proper weighing of mitigation evidence. Pet. Br. at 14-16, 33-37. Instead,
Respondent-Appellee asserts that “the purported mitigating evidence would not have
led to a different result because Canales’s new evidence would have accentuated the
already significant evidence of his future dangerousness.” Res. Br. at 22. This
approach employs the improper “stereotypical fall-back argument that the heinous
and egregious nature of the crime would have ensured assessment of the death
penalty.” Gardner, 247 F.3d at 563. Grudgingly, Respondent-Appellee concedes
that the mitigating evidence “reduced the imbalance between the aggravating and
mitigating evidence,” while insisting that the new evidence must, but did not,
outweigh the aggravating evidence. Res. Br. at 21.
For that point, Respondent-Appellee cites as her example Gray v. Epps, 616
F.3d at 442. Res. Br. at 14, 21. But close examination of Gray underscores the merit
13

171a

Case: 18-70009

Document: 00514806976

Page: 19

Date Filed: 01/23/2019

in Mr. Canales’s mitigation evidence and the need to reverse the district court
decision at bar.
First, Gray, unlike this case, concerns federal review of the Mississippi
Supreme Court’s denial of the claim under the deferential AEDPA standard. Gray,
616 F.3d at 442 (“[W]e are not persuaded that the Mississippi Supreme Court's
conclusion that the newly proffered evidence does not demonstrate prejudice is
unreasonable.”). As highlighted above, de novo review applies here.
Second, in Gray the question of deficient performance of trial counsel was a
close enough matter that the Court declined to address it, opting instead to dispose
of the case based on the prejudice analysis. Id. Here, this Court has already found
that Mr. Canales’s trial counsel was deficient for failing to investigate and present
the “compelling” available evidence in mitigation and that his ineffective assistance
of counsel claim (and thus, the prejudice prong) has “some merit.” Canales, 765
F.3d at 569-70.
Third, and critically, the new evidence in Gray is not remotely
commensurable to the wealth of compelling new evidence marshalled in Mr.
Canales’s remand. The gap between the evidence presented at Gray’s trial and in his
federal habeas court was not substantial. Here, the difference is between effectively
no mitigation evidence at Mr. Canales’s trial and extensive evidence developed once
federal habeas counsel had been afforded basic investigative resources on remand to
14

172a

Case: 18-70009

Document: 00514806976

Page: 20

Date Filed: 01/23/2019

the district court. Following the 2014 remand, Mr. Canales fully substantiated the
initial indications of profound mitigation evidence that had been presented to this
Court previously and upon which the Court had relied heavily. Id. at 570-71.
Comparison of the record in Gray with the one at bar exposes the
incommensurability of the cases.
Specifically, at Mr. Gray’s trial, several family members and a local minister
testified that, inter alia, they had known him for a great length of time (e.g., his entire
life), they had never seen him behave violently, and that he was “a real nice young
man.” Gray, 616 F.3d at 442. Gray’s mother testified that “[h]is parents’ separation
adversely affected his behavior at school” but that the principal would welcome him
to stay in his office at length. His mother “asked the jury to give her son ‘[l]ife
imprisonment rather than death.’” Id. at 443.
Gray’s federal habeas counsel argued that, in addition to the foregoing penalty
phase testimony, trial “counsel should have called the following witnesses: his three
sisters [and] a teacher at Gray’s school.” Id.3 Federal counsel also introduced social
worker records from Gray’s contact with the Weems Community Mental Health

The Court noted that Gray did not provide an affidavit from two of the three sisters. Instead,
federal counsel supplied affidavits from an investigator and a paralegal as to what those witnesses
could have averred if they were to have testified but declined to state that they in fact would have
testified at Gray’s trial if asked. “This record, therefore, does not allow us to conclude that these
two sisters would have testified as witnesses at Gray’s trial.” Id. at 443. (citations omitted). Gray’s
teacher’s affidavit did not provide that she would have testified at trial and offered that he was
enrolled in special education courses for several grades.

3

15

173a

Case: 18-70009

Document: 00514806976

Page: 21

Date Filed: 01/23/2019

Center, which reflected that, while he exhibited violent behavior at school, “he had
no developmental problems and had a ‘normal childhood.’” The diagnosis was
“Conduct Disorder, Socialized, Non-aggressive.” Id. at 444.4
Federal counsel also secured a forensic psychologist to conduct
neuropsychological testing and evaluation, which yielded expert findings that Mr.
Gray lacked “significant emotional or psychological difficulties, although there are
suggestions of current suspiciousness and hostility in his dealings with other
people.” Id. at 446-47. The Court noted that the new evidence contained “no
evidence of abuse.” Id. at 449.
In sum, Gray’s less than tepid presentation in the federal district court does
not remotely compare to the extensive breadth and depth of mitigation evidence in
Mr. Canales’s proceedings showing “a repeated pattern of trauma and deprivation
going a considerable distance to explaining Mr. Canales’s individual vulnerability
to the intense, existential pressures he felt at the Telford Unit leading up to the tragic
killing of Mr. Dickerson.” Pet. Br. at 8. Specifically, the district court heard—and
sidelined—extensive evidence of Mr. Canales’s deeply troubling formative years:
As a child, all of Andy’s primary caretakers were substance abusers.
He and his siblings suffered persistent violence at the hands of their
fathers and stepfathers, while their alcoholic mother failed to protect
them. ROA.3079-89. Sexual and physical abuse was rampant—in
Andy’s immediate and extended family—especially when Andy’s
4

Records from his return to the Center at age 16 showed the diagnosis became “Conduct Disorder,
Aggressive.” Id. at 444-45.

16

174a

Case: 18-70009

Document: 00514806976

Page: 22

Date Filed: 01/23/2019

mother became involved with Carlos Espinoza, who was abusive to
Andy’s mother and viciously beat Andy and his younger sister.
ROA.3090. Espinoza stripped Andy before whipping him with a belt,
and abused both Andy and his sister Elizabeth.
Id. at 8-9. As a boy, Mr. Canales and his sister were also sexually molested by
Espinoza. Poverty and a chaotic, traumatic home life made Andy “especially
vulnerable to coerced gang involvement as a young teenager. ROA.3082, 3096-97.”
Id. at 10. When Andy tried to leave the Texas Syndicate, he was targeted for
retaliation, and in light of his physical infirmity following several heart attacks, he
clung to the protection of a rival gang. Id. (citing ROA.3083).
Unlike in Gray, where the defendant acting alone kidnapped an elderly
woman, stole “$1200, raped her, shot her twice with a shotgun, and ran over her with
her vehicle,” Gray, 626 F.3d at 447, Mr. Canales was coerced by his need for
protection to participate in the murder by restraining the victim while another
strangled him, Canales v. State, 98 S.W.3d 690, 693 (Tex. Crim. App. 2003). Even
ignoring the procedural and standard of review differences, the factual basis for
Wiggins reweighing in Gray is nothing like that in the present case. RespondentAppellee has simply failed to answer Mr. Canales’s submission on this vital element
of the Court’s de novo inquiry.

17

175a

Case: 18-70009

Document: 00514806976

Page: 23

Date Filed: 01/23/2019

II. THE NEW EVIDENCE IS PROPERLY BEFORE THIS COURT.
A. This Court Already Rejected Appellee’s § 2254(e)(2) Argument And
Considered The New Evidence.
In ordering a remand for the sole issue of determining prejudice, this Court
observed that it should not at that time conduct the analysis because “Canales has
not yet had the chance to develop the factual basis for this claim because,
until Trevino, it was procedurally defaulted.” Canales, 765 F.3d at 571. Yet it found
the new evidence already developed by habeas counsel was “sufficient information
before this Court for us to conclude that there is some merit to Canales’s claim of
ineffective assistance of counsel.” Id.
Respondent-Appellee previously argued before this Court that § 2254(e)(2)
prohibits a hearing. See ROA.2741-42. This Court implicitly rejected the argument
in finding the record sufficient to reach definite conclusions about the deficient
performance of trial and initial state habeas counsel. With respect to the prejudice
prong, the Court found “some merit” to the allegation that Petitioner was prejudiced
by trial counsel’s failure to prepare for the penalty phase. Canales, 765 F.3d at 570.
If, as the Respondent-Appellee argues, § 2254(e)(2) bars the introduction of new
evidence even if a petitioner shows cause for a default, then this Court could have
stopped at that point, as the Director then urged, and decided the prejudice question
based on the evidence before it at that time. Instead, it recognized Mr. Canales did

18

176a

Case: 18-70009

Document: 00514806976

Page: 24

Date Filed: 01/23/2019

not have the opportunity to develop the facts to support a showing of prejudice and
it thus remanded the case to the district court. Id. at 571.
B. The Magistrate Report & Recommendation And The District Court
Opinion Under Review Are Explicitly Based On The New Evidence.
Following the remand, the Director did not contest the district court’s
authority to accept and consider new facts. Neither the magistrate’s report and
recommendation nor the district court’s opinion relied on a refusal to consider the
new evidence based on § 2254(e)(2). In fact, Petitioner-Appellant used funding
authorized by the district court to obtain the expert and investigative services of a
mitigation specialist, neuropsychologist, and psychiatrist. Both the magistrate judge
and district court recited and purported to consider the new evidence. ROA.316065; ROA.3220-26.
C. Nothing In § 2254(e)(2) Or Established Case Law Provides That A
District Court Is Barred From Considering New Evidence In
Resolving A Claim Relying On Martinez-Trevino To Overcome A
Default.
The district court’s decision to consider new evidence was correct both under
AEDPA and long-standing rules on how a petitioner may overcome a default. In
Cullen v. Pinholster, 563 U.S. 170 (2011), the Supreme Court held that a federal
court reviewing a habeas petition under 28 U.S.C. § 2254(d) must confine itself to
the record before the state court. Section 2254(d), however, applies only to state
court adjudications on the merits of claims. If the state court did not reach the merits
19

177a

Case: 18-70009

Document: 00514806976

Page: 25

Date Filed: 01/23/2019

of a claim, then § 2254(d) does not apply. Johnson v. Williams, 568 U.S. 289, 302
(2013) (“The language of 28 U.S.C. § 2254(d) makes it clear that this provision
applies only when a federal claim was ‘adjudicated on the merits in State court.’”)
(emphasis in Johnson).
Likewise, the Supreme Court’s interpretation of § 2254(e)(2) does not
preclude fact development in federal court. In Williams v. Taylor, the Court rejected
an argument that the “failed to develop” language in the opening clause of §
2254(e)(2) applied any time the facts concerning a claim were undeveloped in state
court, regardless of fault. 529 U.S. at 431-32. Rather, the Court construed “failed”
as used in (e)(2) in its customary and preferred sense as connoting “some omission,
fault, or negligence on the part of the person who has failed to do something.” Id. at
431. Accordingly, under Williams, whether (e)(2) applies depends on how fault for
the failure to develop the factual basis of a claim is assigned. If the fault lies with the
claimant, then (e)(2) applies; if it does not, (e)(2) does not apply. If (e)(2) does not
apply, then a decision as to whether to hold a hearing is governed by Habeas Rule 8
and Townsend v. Sain, 372 U.S. 293 (1963), modified by Keeney v. Tamayo-Reyes,
504 U.S. 1 (1992) and § 2254(e)(2).5

5

28 U.S.C. § 2254(e)(2) does not control “when” a federal court may hold a hearing and does not
undermine a court’s discretion whether to hold one. Instead, it only defines certain conditions
under which a federal court “may not” hold a hearing.

20

178a

Case: 18-70009

Document: 00514806976

Page: 26

Date Filed: 01/23/2019

A petitioner may have the merits of an otherwise defaulted claim considered
if he can show “cause” for the default. To show “cause,” a petitioner must show
some impediment to the raising or developing a claim. Murray v. Carrier, 477 U.S.
478, 488 (1986). That is to say, he must show that he is not at fault. Identical analysis
applies to the development of facts. If petitioner can establish “cause” for not
developing facts, § 2254(e) does not prevent the district court from considering new
facts.
This Court has expressly rejected the proposition that § 2254(e)(2) poses an
obstacle to developing a defaulted-but-excused claim:
Any question regarding the “failed to develop” standard was put to rest
by the Supreme Court in Williams v. Taylor, 529 U.S. 420 (2000). . . .
In this case, [the habeas petitioner] establishes cause for overcoming
his procedural default, he has certainly shown that he did not “fail to
develop” the record under § 2254(e)(2). Accordingly, if the district
court determines that [the habeas petitioner] has established cause and
prejudice for his procedural default, it should proceed to conduct an
evidentiary hearing on any claim for which cause and prejudice exists.
It should then revisit the merits of any such claim anew.
Barrientes v. Johnson, 221 F.3d 741, 771 (5th Cir. 2000).
Prior to Martinez and Trevino, a habeas petitioner could not show cause for a
default based on the deficient performance of state habeas counsel. See Coleman v.
Thompson, 501 U.S. 722, 755 (1991). In Martinez, however, the Court created an
equitable exception to the rule in Coleman and created the opportunity to overcome
a default resulting from the performance of state habeas counsel. Because the
21

179a

Case: 18-70009

Document: 00514806976

Page: 27

Date Filed: 01/23/2019

ineffectiveness of state habeas counsel may provide cause for a default, it cannot be
said that a petitioner “fails to develop” facts if the lack of development occurred due
to deficiencies in the performance of state habeas counsel.6
Despite these developments, Respondent-Appellee now asserts that Martinez
should not change in any way the application of § 2254(e)(2); otherwise, the courts
“would negate the statute.” Res. Br. at 9. Similarly, the opposing brief asserts that
Petitioner-Appellant is asking the court to “create equitable exceptions of
congressional directives in federal statutes such as AEDPA.” Resp. Br. at 10. This
position misconstrues the effect of Martinez. Martinez does not change the operation
of the statute. As the Supreme Court in Williams and this Court in Barrientes
observed, a petitioner does not “fail to develop” facts if there is “cause” for the lack
of fact development. Martinez did little more than expand the circumstances under
which “cause” may be shown. See also Davila v. Davis, 137 S. Ct. 2058, 2065 (2017)
(Martinez “announced a narrow, ‘equitable ... qualification’ of the [fault attribution]
rule in Coleman that applies where state law requires prisoners to raise claims of
ineffective assistance of trial counsel ‘in an initial-review collateral proceeding,’
rather than on direct appeal”). Because a habeas applicant who has established

6

Respondent-Appellee focuses on cases such as Holland v. Jackson, 542 U.S. 649 (2004) (per
curiam). See Res. Br. at 5-6. Those cases were decided before the Supreme Court modified the
Coleman rule in Martinez. Not surprisingly, the Court in those older cases found that a petitioner
cannot overcome the limits of § 2254(e)(2) because at that time, decisions taken by state habeas
counsel were “chargeable to the client.” 542 U.S. at 653.

22

180a

Case: 18-70009

Document: 00514806976

Page: 28

Date Filed: 01/23/2019

Martinez cause is not at fault for the procedural default, he has also not “failed to
develop” his claim for purposes of § 2254(e)(2).
The Supreme Court’s decision in Ayestas v. Davis, 138 S. Ct. 1080 (2018),
also undercuts the Director’s position. Like Canales, Ayestas obtained a remand to
district court following Trevino. In the district court, he sought funding to develop
facts to support his claim. The decision in Ayestas involved the standard for applying
18 U.S.C. § 3599(f), the statute authorizing funding for prisoners seeking federal
habeas relief. If, as the Respondent-Appellee suggests, § 2254(e)(2) imposes an
insurmountable barrier to fact development, there would have been no need to
entertain issues regarding the funding statute in the context of a case relying on
Trevino.
Not surprisingly, this Court’s recent decisions are consistent with its prior
decision in Mr. Canales’s case and recognize the implications when Martinez is used
to show cause for a default. For instance, in Trevino v. Davis, 861 F.3d 545, 550 (5th
Cir. 2017), cert. denied, 138 S. Ct. 1793 (2018), both the majority and the dissent
agreed that the new evidence is to be considered in determining prejudice. Id. (“We
review that evidence [prosecution’s evidence in aggravation] along with all of the
new evidence that Trevino has presented to determine whether the outcome of the
punishment hearing was prejudiced.”); id. at 554 (Dennis, J., dissenting) (“We
therefore must measure the evidence of Trevino’s crime and other aggravating
23

181a

Case: 18-70009

Document: 00514806976

Page: 29

Date Filed: 01/23/2019

factors presented to the jury by the State against both the mitigation evidence
adduced at trial and the significant new evidence, adduced in the federal habeas
proceeding, which contextualizes his criminal history.”).
Similarly, in Washington v. Davis, 715 F. App’x. 380, 386 (5th Cir. 2017), the
petitioner appealed the denial of a hearing and discovery to develop claims defaulted
by state habeas counsel following a remand from the Supreme Court. The Court’s
opinion echoed its decision in Canales:
The evidence sought by Washington – pertaining to his state habeas
counsel’s efforts – is central to his attempt to overcome the procedural
default in light of Trevino. And, notably, there has never been a state
hearing on this issue, nor did Washington have a reasonable opportunity
to discovery the information prior to his petition. After all, prior to
Trevino, the Supreme Court had held that the ineffectiveness of habeas
counsel’s representation could not establish cause for a procedural
default. Coleman, 501 U.S. at 757.
The Ninth Circuit agreed that § 2254(e)(2) does not bar fact development
when a petitioner seeks to overcome a default pursuant to Martinez/Trevino:
Section 2254(e)(2), however, does not bar a hearing before the district
court to allow a petitioner to show “cause” under Martinez. When a
petitioner seeks to show “cause” based on ineffective assistance of PCR
counsel, he is not asserting a “claim” for relief as that term is used
in § 2254(e)(2); indeed, such a claim of ineffective assistance of PCR
counsel is not a constitutional claim. See Martinez, 132 S.Ct. at 1319–
20. Instead, the petitioner seeks, on an equitable basis, to excuse a
procedural default. See id. A federal court’s determination of whether
a habeas petitioner has demonstrated cause and prejudice (so as to bring
his case within Martinez’s judicially created exception to the judicially
created procedural bar) is not the same as a hearing on a constitutional
claim for habeas relief.
24

182a

Case: 18-70009

Document: 00514806976

Page: 30

Date Filed: 01/23/2019

…
Therefore, a petitioner, claiming that PCR counsel’s ineffective
assistance constituted “cause,” may present evidence to demonstrate
this point. The petitioner is also entitled to present evidence to
demonstrate that there is “prejudice,” that is that petitioner’s claim is
“substantial” under Martinez. Therefore, a district court may take
evidence to the extent necessary to determine whether the petitioner’s
claim of ineffective assistance of trial counsel is substantial
under Martinez.
Dickens v. Ryan, 740 F.3d 1302, 1321 (9th Cir. 2014); see also Wilson v. Beard, 426
F.3d 653, 665-66 (3d Cir. 2005) (because procedural default and § 2254(e)(2) are
“analytically linked,” an applicant who does not procedurally default a claim is not
barred by § 2254(e)(2) from introducing new evidence).
Respondent-Appellee points to other decisions from this Court purportedly
agreeing that § 2254(e)(2) bars fact development in the context of a claim involving
Trevino, but the Director misreads those decisions. For instance, in Ibarra v. Davis,
738 F. App’x 814 (5th Cir. 2018), the Court cited § 2254(e)(2) in connection with
an Atkins claim Ibarra sought to develop. Id. at 819 n.4. However, Martinez applies
only to ineffective assistance of trial counsel, not other types of claims. Moreover,
as the Court explained, Ibarra was “explicitly given a fair opportunity to present an
Atkins claim” but “failed to offer admissible evidence of intellectual disability in the
state court.” Id. at 819. Thus, “reasonable jurists could not debate” that Ibarra’s
Atkins claim had no merit. Id. In contrast, Martinez plainly applies to Canales’s

25

183a

Case: 18-70009

Document: 00514806976

Page: 31

Date Filed: 01/23/2019

Wiggins claim, and this Court found it had sufficient merit to allow him to proceed
in the district court.
The Director also points to Segundo v. Davis, 831 F.3d 345 (5th Cir. 2016),
but it, too, is easily distinguishable. There, the Court did not find that § 2254(e)(2)
barred fact development in connection with claims involving Trevino. Instead, it
acknowledged “the decision to grant an evidentiary hearing rests in the discretion of
the district court.” Id. at 351. In that case, the district court was correct to deny a
hearing because “Segundo does not raise a substantial claim of ineffective assistance
of trial counsel and therefore cannot show that his procedural default is excused.”
Id. Of course, this Court already found Canales raised a substantial claim of trial
counsel’s ineffectiveness.
D. Barring New Evidence Would Make Federal Review Of Viable
Strickland Claims Raised Under the Martinez-Trevino Exception
Impossible and Violate Due Process
It appears Respondent-Appellee wants to have the Court render Trevino a
dead letter. After pointing out that the Court already found Canales’s state habeas
counsel deficient, Respondent-Appellee asserts that “that conclusion necessarily
means that state habeas-counsel was not diligent in developing the factual basis for
Canales’s mitigation-based trial-IAC claim.” Res. Br. at 7; see also id. at 5. The
absurdity of this position is plain. Respondent-Appellee believes the Supreme Court
established a rule that would recognize if state habeas counsel performed deficiently
26

184a

Case: 18-70009

Document: 00514806976

Page: 32

Date Filed: 01/23/2019

while at the same time using that same finding to bar evidence to establish prejudice.
If this were the case, the Supreme Court would have had no reason to decide
Martinez and Trevino as it did. If the petitioner would never be able to introduce
evidence to show prejudice from the default, there would be no purpose to the
equitable rule excusing it. “[W]ith respect to the underlying trial-counsel IAC
“claim,” given that the reason for the hearing is the alleged ineffectiveness of both
trial and PCR counsel, it makes little sense to apply § 2254(e)(2).” Detrich v. Ryan,
740 F.3d 1237, 1247 (9th Cir. 2013).
Reaching such an absurd result would violate Mr. Canales’s right to due
process because it would deny him the opportunity to litigate his claim. Crane v.
Kentucky, 476 U.S. 683, 690 (1983). “It is a proposition which hardly seems to need
explication that a hearing which excludes consideration of an element essential to
the decision” does not satisfy due process. Bell v. Burson, 402 U.S. 535, 542 (1971)
(requiring process to consider the essential element of liability for suspending a
driver’s license). To provide Mr. Canales a meaningful opportunity to have his
Wiggins claim heard, this Court should reject the Respondent-Appellee’s invitation
to reach the untenable conclusion that § 2254(e)(2) bars new evidence under these
circumstances.
CONCLUSION
For the foregoing reasons, Petitioner-Appellant respectfully requests this
27

185a

Case: 18-70009

Document: 00514806976

Page: 33

Date Filed: 01/23/2019

Court to reverse the district court’s decision.
Respectfully submitted,
Joseph Perkovich
Phillips Black, Inc.
PO Box 4544
New York, NY10163-4544
(212) 400-1660
j.perkovich@phillipsblack.org

David P. Voisin
Miss. Bar # 100210
P. O. Box 13984
Jackson MS 39236
(601) 949-9486
david@dvoisinlaw.com

By: s/ Joseph J. Perkovich
Counsel for Anibal Canales, Jr.
Petitioner-Appellant

28

186a

Case: 18-70009

Document: 00514806976

Page: 34

Date Filed: 01/23/2019

CERTIFICATE OF SERVICE
This is to certify that I, Joseph J. Perkovich, have electronically served a copy
of this document upon Respondent-Appellee’s counsel by filing same with the
United States Court of Appeals for the Fifth Circuit’s Electronic Case Filing system
on January 23, 2019.
s/ Joseph J. Perkovich
Counsel for Anibal Canales, Jr.
Petitioner-Appellant

29

187a

Case: 18-70009

Document: 00514806976

Page: 35

Date Filed: 01/23/2019

CERTIFICATE OF COMPLIANCE
Pursuant to 5th Cir. R. 32.2.7(c), the undersigned certifies this brief complies
with the type-volume limitations of 5th Cir. R. 32.2.7(b) because, excluding the parts
of the document exempted by Fed. R. App. P. 32(f) this document contains 6,482
words.
s/ Joseph J. Perkovich
Attorney for Anibal Canales, Jr.
Petitioner-Appellant

30

188a

Case: 18-70009

Document: 00514807050

Page: 1

Date Filed: 01/23/2019

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

January 24, 2019

Mr. Joseph J. Perkovich
Phillips Black, Inc.
P.O. Box 4544
New York, NY 10163-4544
No. 18-70009

Anibal Canales, Jr. v. Lorie Davis, Director
USDC No. 2:03-CV-69

Dear Mr. Perkovich,
We have reviewed
sufficient.

your

electronically

filed

brief

and

it

is

You must submit the 7 paper copies of your brief required by 5TH
CIR. R. 31.1 within 5 days of the date of this notice pursuant to
5th Cir. ECF Filing Standard E.1.

Sincerely,
LYLE W. CAYCE, Clerk

By: _________________________
Monica R. Washington, Deputy Clerk
504-310-7705
cc:

Mr. Matthew Hamilton Frederick
Ms. Tina J. Miranda
Mr. David Paul Voisin

